<html>
<title> - DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
  DEPARTMENT OF HOMELAND SECURITY APPROPRIATIONS FOR FISCAL YEAR 2004

                              ----------                              


                       WEDNESDAY, APRIL 30, 2003

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:04 a.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Thad Cochran (chairman) presiding.
    Present: Senators Cochran, Stevens, Specter, Domenici, 
McConnell, Shelby, Gregg, Campbell, Craig, Byrd, Inouye, 
Hollings, Leahy, Harkin, Mikulski, Kohl, and Murray.

                    DEPARTMENT OF HOMELAND SECURITY

STATEMENT OF HON. TOM RIDGE, SECRETARY
    Senator Cochran. The committee will please come to order.
    Today, as the subcommittee continues its hearings on the 
fiscal year 2004 budget request for the Department of Homeland 
Security, we are faced with historic challenges. For the first 
time in at least 40 years, Americans are facing direct threats 
to our country and to our personal safety at our workplaces and 
in our homes. The new Department of Homeland Security is a key 
component in the effort to combat terrorism and we are very 
pleased to have with us today the head of that new Department, 
Secretary Tom Ridge.
    Mr. Secretary, I think you and the President have made 
impressive progress in the effort to make America safer and 
more secure. You have worked with the Congress to obtain 
passage of the Homeland Security Act, to create the Department 
of Homeland Security and bring together 22 Federal 
organizations and some 180,000 employees to achieve this higher 
level of safety and security.
    But, we all know that more needs to be done. The 
President's budget request for this Department for fiscal year 
2004 is $36.2 billion. We look forward to your testimony, Mr. 
Secretary, in support of this budget request.
    I also have had an opportunity this morning to read a copy 
of the remarks that you made on the occasion of the first 100 
days of the existence of the Department of Homeland Security 
that you delivered at the National Press Club here in 
Washington yesterday. I thought it was informative. You have 
also prepared a statement for the committee and we will make 
that a part of our hearing record in full.
    We want to be sure as we review this request that we 
provide a level of funding that is consistent with the threats 
we face and that we can reasonably expect to be used to achieve 
our goal of a safe and secure homeland.
    Before proceeding to hear your testimony, I want to 
recognize Senator Byrd, the ranking Democrat member of the 
committee, for any opening statement he may have, and then we 
will recognize other Senators in the order in which they 
appeared at the hearing. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman. How are you, Mr. 
Secretary?
    Our country is a great and powerful Nation and we have been 
able to put a man on the moon and bring him back to earth 
again. Man has long looked at that moon and longed for 
centuries to put his foot on that moon. But we haven't been 
able to perfect a good public address system.
    This one may work. Let me thank you, Mr. Chairman. We have 
a good chairman who is a stickler for getting started on time 
and I am glad to see that. A few days ago, I said to him, if I 
am not there on time, go ahead, so we have that understanding, 
and I thank the other members of the subcommittee for their 
presence and their interest and their attention.
    Ours is a society built on freedom. We have designed our 
society to make our people and our institutions accessible, 
with freedom of movement and access to information. You have 
said, Mr. Secretary, that we are a Nation at war and that 
another terrorist attack here in America is inevitable. You 
have said that the attacks such as the attacks of September 11 
are long-term threats that will not go away. I do not disagree 
with that assessment.
    Your Department has the responsibility to make careful 
choices about how to reconcile these goals, openness and the 
need for security operations which cannot always be open. A 
proper balance must be found. How do we make America safer 
without fundamentally changing the quality of a free society? 
How do we protect ourselves from a threat within our borders 
while protecting our privacy rights and our freedom to move 
about this great country? How do we invest the resources and 
organize our efforts to catch, to apprehend terrorists without 
trampling on the Constitution?
    How do we make sure that the agencies that have been merged 
into the new Department of Homeland Security but also have 
specific missions unrelated to homeland security, such as 
preventing and responding to natural disasters, have the 
resources to effectively accomplish those dual missions?
    Recently, in an interview with Fox News, you said, and I 
think I am quoting you correctly, ``We have to prepare for the 
inevitability of suicide bombings in the United States.'' You 
went on to say, ``We will never be immune from those kinds of 
attacks,'' and I think you are right. I agree with that.
    But I find it very difficult to reconcile that statement 
with positions that you and others in the administration have 
taken since November of 2001, positions that have consistently 
opposed efforts by the Congress to provide critical resources 
for homeland security, funding for first responders, funding 
for security on our porous borders, funding for security at our 
nuclear power facilities, funding for security at our ports 
through which 7 million containers annually travel with an 
inspection rate of only 2 percent, for security at our 
airports, and for the security of our critical infrastructure 
such as our clean drinking water systems?
    In November of 2001, just 2 months after the attacks of 9/
11, you, Mr. Secretary, wrote to the Congress in your capacity 
as the Director of the Office of Homeland Security and this is 
what you said. ``No additional resources to protect the 
homeland beyond what the President has already requested are 
needed at this time.'' You see, you were writing to me and to 
Ted Stevens and others. Your message was, basically, let us 
wait until 2002.
    Well, 2002 came and in August of 2002, the President chose 
to terminate $2.5 billion of funding that Congress had approved 
as an emergency for a homeland security program, including $423 
million of funding for first responders, as well as funding for 
nuclear security, airport security, and port security. The 
President, in refusing to designate those $2.5 billion as an 
emergency, in essence blocked funding for the Coast Guard, the 
Secret Service, and for the Customs Service for the container 
security initiative. These are all agencies now under your 
control. The President's message, basically, was let us wait 
until 2003.
    In January of this year, 2003, I offered an amendment to 
add $5 billion of homeland security funding to the omnibus 
appropriations bill for 2003. Once again, the administration 
opposed the amendment, opposed this amendment, asserting that, 
and I quote, ``it was new, extraneous spending.'' Well, my 
amendment was defeated when, once again, the administration 
argued that homeland security funding could wait, this time 
until 2004.
    In March of this year, with the Nation at war, the 
President finally requested a $4 billion supplemental for 
homeland security. Congress approved $5 billion for many of the 
same homeland security programs contained in the amendment that 
I offered 4 months ago. Not only has President Bush failed to 
lead the Nation in addressing these vulnerabilities, he has, in 
fact, actively opposed efforts to provide the resources 
necessary to address these significant weaknesses. I find this 
behavior more than puzzling.
    Since 9/11, the President with great fanfare signed 
legislation to authorize improvements in security at our 
airports, security at our ports, and security on our borders. 
The President signed legislation to protect our drinking water. 
The President announced a plan for State and local governments 
to vaccinate 10 million first responders for a potential 
smallpox attack, and yet the President has consistently opposed 
efforts to provide the essential resources to fund these new 
priorities, these new authorities.
    In November of 2002, when President Bush signed the 
Department of Homeland Security bill, he announced, ``Our 
government will take every possible measure to safeguard our 
country and our people.'' Well, how does one explain this 
disparity, these divergences?
    Well, Mr. Secretary, last Thursday, President Bush was in 
Canton, Ohio, looking for support for his $1.6 trillion tax cut 
proposal. In his remarks, he said, according to the newspaper 
that I read, ``Now, you hear talk about deficits.'' This is 
President Bush. Allow me just for a moment to pretend that this 
is President Bush reading it. ``Now, you hear talk about 
deficits, and I am concerned about deficits, but this Nation 
has got a deficit because we have been through a war.''
    Well, I read that statement twice just to make sure that my 
eyes were still fairly good. Mr. Chairman, this statement 
troubles me. In the budget that the President transmitted to 
the Congress on February 4, he did not include one thin dime, 
not one thin penny, for the costs of the war. And yet his 
budget proposed deficits of $304 billion in fiscal year 2003, 
$307 billion in fiscal year 2004, and deficits of $1.4 trillion 
from fiscal year 2003 through fiscal year 2008. His budget 
included no funding for war in Iraq and no money for 
reconstruction of Iraq, and his budget assumed levels of 
economic growth that exceed current expectations.
    So I have to say that based on the record, the deficits did 
not come from the war, but they are going to come plenty. We 
just made our first payment, or down payment.
    When Americans are being threatened here at home, it is 
very important that the President be straight with the American 
people. Mr. Secretary, you have been candid, as candid as you 
could be, with the Congress and the American people about the 
nature and duration of the risk that we face. However, we 
cannot respond to that threat simply by reorganizing. That is a 
hollow promise to hand to the American people. When we are 
talking about the physical safety of our people and the future 
of our economy, we surely have to say more and do more than 
offer up the tired old bureaucratic bromide of reorganization.
    If there is one lesson that we should learn from 9/11, it 
is that terrorist attacks on our Nation can no longer be viewed 
as distant threats across the ocean. The enemy may attack our 
troops or citizens overseas or civilians here at home. We must 
provide all of the necessary resources to support our troops 
overseas, and this committee has done that. This committee has 
been unanimous in pursuing that course.
    But we must also provide significant homeland security 
resources now to meet the real needs that have been authorized 
by the Congress and signed into law by the President for port 
security, airport security, border security, and nuclear 
security, and again, this committee has done that and it has 
acted unanimously in doing so.
    I wouldn't want to be in your shoes if some catastrophe 
happens next week at a port or at a chemical plant or at a 
nuclear facility. I hope that you will be a strong and loud 
proponent of replacing some of this rhetoric with real 
resources before it is too late.
    Mr. Secretary, I am pleased to be here with you today, 
pleased that you will be testifying before this subcommittee, 
and I look forward to working with you in the common cause of 
making America safe and keeping it free. I thank you, Mr. 
Chairman. I thank you, Mr. Secretary.
    Senator Cochran. Senator Gregg, if you have an opening 
statement, you may proceed.
    Senator Gregg. I would hope we could hear from the witness 
and I will reserve my opening statements, although I certainly 
appreciate the opening statement of the chairman and the 
ranking member.
    Senator Cochran. Thank you. Senator Hollings, would you 
like to make an opening statement?
    Senator Hollings. Mr. Chairman, I want to hear from the 
witness, also, but I want the distinguished Secretary to 
understand the frustration behind my questions when I get my 
chance. Osama bin Laden, according to Lloyd's of London, has 
outright ownership of ten vessels and control of ten more. It 
was his ship that went into the port of Mubasa in Kenya. The 
terrorists jumped off, blew up Nairobi, went down and blew up 
Dar Salaam down in Tanzania, and got back on ship and escaped.
    There is no question, since we know every plane that comes 
to the coast and approaches the United States by transponder, 
we track them all, in the dark of night a ship could come into 
the Delaware River. We wouldn't know it. It could go up and 
easily blow up a tank farm there in Philadelphia in your own 
back yard. Now, what are we going to do about it?
    Well, you will find that the ports themselves are not 
particularly interested in doing anything about it because they 
know under law the Coast Guard, the Captain of the Coast Guard, 
he is responsible, and as far as they are concerned, the port 
authority, the local authorities, I can tell you from Customs, 
Immigration, or anybody else, they could care less. All they 
want to do is move cargo. That is the competition. That is the 
name of the game.
    And the result, we passed unanimously--this is bipartisan, 
totally bipartisan--100 to nothing a port security bill and we 
had money. We got over to the House side and the White House 
and the House leadership played a game with us. They first 
delayed hearings and everything else. When they finally got to 
the bottom line, they said, well, wait a minute, this is a tax. 
We are not going to increase taxes. We argued and finally the 
House Parliamentarian ruled it was a fee and not a tax.
    Then they put us off by saying, well, wait a minute, this 
originated in the Senate, and under the Constitution, it 
originated in the House. I said, well, you all rewrite it and 
you offer it and let's send it back and we will adopt it. We 
couldn't get them to budge at all, and with that background, I 
am looking now at port security and I find zero under your 
budget for port security.
    They are supposed to do all the assessments. They are to 
correlate all of these entities, make assessments, what their 
plans are, give the security plan then to the Coast Guard. The 
Coast Guard has then got to sort of approve or alter the plan 
and then they implement it, and that is the background, Mr. 
Chairman, and that is the only reason I take this opportunity. 
Like you, I want to yield. I appreciate the opportunity.
    Senator Cochran. Thank you, Senator Hollings.
    Senator Specter.
    Senator Specter. Thank you, Mr. Chairman. I just have a 
couple of comments because while this hearing is on, the 
Subcommittee on Labor, Health, and Human Services, which I 
chair, is having a hearing at the same time and I am going to 
have to attend there, and the Judiciary Committee is having a 
hearing, trying to move ahead with nominations. But I will do 
my very best to get back to propound some questions and have a 
discussion.
    At the outset, Mr. Secretary, I thank you for your service. 
You have taken on a very, very tough job. You left the 
governorship of Pennsylvania. You and I have worked together 
for the better part of three decades and I thank you for what 
you are doing.
    One subject that I want to comment about very briefly 
involves reports that have just been released. Two reports 
conclude that many Federal agencies are still failing to share 
critical information about terrorist suspects with other 
agencies because of both cultural and technological barriers, 
and the reports go on to say that goals set by the Bush 
administration and Congress last year to promote the sharing of 
terrorist information remain largely unmet and that the Federal 
agencies criticized have agreed with the general findings.
    I bring this subject up at the outset because, as you know, 
Mr. Secretary, this is a matter which you and I have discussed 
at great length, that I have discussed. Last year, I wanted to 
put an amendment on our homeland security bill, except that the 
House had gone out of session and it would have materially 
delayed the matter. You came to see me, and I later talked to 
both Vice President Cheney and President Bush about it.
    I think it may be helpful if there is legislation 
introduced which would give you, as Secretary of Homeland 
Security, that responsibility and have the matter in 
Governmental Affairs, which is the authorizing committee, and 
have a thorough airing of these subjects so we don't have these 
spasmodic reports without giving you or Director Tenet or 
others--it is now in the hands of the Central Intelligence 
Agency--an opportunity to respond.
    My initial judgment had been, and I talked to you about 
this, to make no legislative proposal, to give an opportunity 
to see how it would work out under the CIA, but it doesn't 
appear to be working too well. Perhaps there has not been an 
adequate time. A legislative proposal is not going to be acted 
on immediately, but it would stimulate the kind of debate, I 
think, that would be helpful.
    One other very brief comment. SARS poses an enormous threat 
to homeland security, and not of the terrorist nature, and I 
had talked to Dr. Gerberding--this is a matter which comes 
under the Centers for Disease Control, under the subcommittee 
which I chair on Health and Human Services, and it may be 
necessary to come to you, Mr. Secretary, for help, depending on 
what funding requirements there are and what funds are 
immediately available.
    Some $16 million was appropriated in the supplemental bill 
and this is something which we are reviewing with Dr. 
Gerberding in great detail. We may have a hearing in your old 
bailiwick, Harrisburg, Pennsylvania, later this week. But 
depending upon the intensity of the problem and the nature of 
the response from the financing, it may be something that we 
will be coming to you for.
    As I say, I am going to excuse myself for a while but hope 
to come back. Thank you very much, Mr. Chairman.
    Senator Cochran. Thank you, Senator Specter.
    Senator Mikulski, you may be recognized for an opening 
statement if you would like.
    Senator Mikulski. Thank you very much, Mr. Chairman.
    Mr. Secretary, you face, indeed, a daunting job and we look 
forward to working and supporting you. I want to thank you for 
choosing Michael Burn to be the Homeland Security Coordinator 
for the Capital Region, outstanding. We have met with him. He 
is meeting with local officials. You should know he is getting 
kudos in the region, an excellent choice.
    As you know, all response is ultimately local, and I hope 
in your statement you deal with the issues that we continually 
hear about the need for local communities to be able to have 
access to homeland security funds, to be able to do the first 
responder incident reactions response that is so desperately 
needed. Every time we go on orange alert, the local city and 
county budgets go into the red. Often, the money goes to the 
States. It trickles down. It is late coming. It is not done in 
a necessarily organized and coordinated way.
    And I know you have heard from mayors. I know you have 
heard from the National Association of Counties. I know Mayor 
O'Malley has been particularly vocal, and I actually share his 
frustration, and take the community of Baltimore, the port, the 
financial capital of the State, the research center of the 
State, and Anne Arundel County, where it has the State 
functions, the Naval Academy and the airport, the National 
Security Agency, though we get a great job from the FBI, it is 
the locals that are doing it.
    So we look for also what is the most effective way to get 
the money particularly to high-risk areas that either have a 
nuclear power plant, chemical plant, you name it, military 
installations, stadiums. We are it and we are next door, so we 
welcome that.
    Second, when science and technology, good for all the work 
that is being done there, but I am hearing concerns that we are 
not having national standards being established, particularly 
for some of the first responder equipment, and, therefore, 
every company with a gadget, gizmo, google, goggle, is coming 
around and our local people want to make wise use of the funds 
that are coming through, like in the fire grant program.
    Also, I just want to also say we really do need help in the 
immigration backlog. The Vermont office has over a 400,000-
person backload. It has a tremendous impact.
    And then on the Coast Guard, they need all the help they 
can get with both homeland activity as well as search and 
rescue and making sure those drugs don't come into our border. 
There is more than one kind of predator that threatens the 
American people.
    So those are kind of the basic things that I had on my mind 
and look forward to hearing your testimony, and as always, look 
forward to working with you.
    Secretary Ridge. Thank you, Senator.
    Senator Cochran. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman. I just 
welcome the Secretary here and know that your office is in 
charge of a lot of interests in my State.
    I share the concerns of Senator Hollings in terms of our 
ports and the safety and security there. I am deeply concerned 
that the money that we have given you for Operation Safe 
Commerce, both in 2002 and 2003, a total of $58 million, to 
date, not one penny of that has been spent, and we keep getting 
delays on that. We are going to have a disaster at our ports if 
we don't start implementing this, and I will be asking you 
about that.
    I also am very concerned about border crossings. As you 
know, the Northwest corner of my State is where we caught an al 
Qaeda operative several years ago and we know how important 
that is. But the economy is also extremely important and we 
want to make sure that border works efficiently and I am very 
interested in your, I think it is your Visit, is it Visit 
system that you are going to be establishing. I want to hear 
how that is going to work.
    I also am very interested in hearing about how we are going 
to train those first responders and whether we have a national 
strategy. So I will reserve my questions for our comment 
period, but thank you very much, Mr. Chairman, for having this 
hearing.
    Senator Cochran. Thank you, Senator.
    Mr. Secretary, I notice in the remarks you made at the 
National Press Club yesterday, and I think there is a reference 
to this in your prepared statement as well, you talked about 
Operation Liberty Shield and the fact that that has been 
suspended or ended. In the supplemental appropriations bill, we 
provided funds for the conduct of that operation. I hope in 
your comments that you make to us now--we will put your total 
statement in the record--that you will touch on the status of 
Operation Liberty Shield and what the cost savings might be for 
the termination of that. In the supplemental, we appropriated 
funds based on estimates that were available back then and it 
would be good for us to know how that may have been changed by 
recent events.
    But, at this point, you may proceed with any comments that 
you would like to make on this or other subjects and then we 
will have an opportunity to ask you questions. You may proceed.

                    STATEMENT OF SECRETARY TOM RIDGE

    Secretary Ridge. Thank you very much, Mr. Chairman, and to 
the members of the subcommittee. Thank you for the opportunity 
to present the first budget for the Department of Homeland 
Security. So to you, Chairman Cochran, Senator Byrd, and 
distinguished members of the subcommittee, please know that it 
is a distinct pleasure to appear before you today to discuss 
the first annual budget request for the Department of Homeland 
Security.
    For practical purposes, you have already accepted the much 
longer statement and more detailed statement, but I would like 
to discuss this morning a few highlights with you prior to our 
conversation.
    I would add that we are a Department currently engaged in 
many firsts, with each of these new undertakings presenting 
both challenges and opportunities. I would like to thank the 
subcommittee, the committee that created you, and your staff 
for the exemplary approach they have demonstrated in taking on 
the challenge of advancing the cause of homeland security.

                    FISCAL YEAR 2004 BUDGET REQUEST

    The President's budget request for fiscal year 2004 lays a 
critical and solid foundation block for the future of the 
Department. It is, as the chairman pointed out, a $36.2 billion 
commitment to advancing the safety and security of our American 
homeland and those who we exist to serve. This request 
represents a 7.4 percent increase in funding for DHS programs 
over fiscal year 2003. It also contains critical initiatives to 
advance the efficiency and the effectiveness of our Department, 
supports ongoing efforts and programs, and sustains vital non-
security services and missions throughout the Department.
    The President's Budget contains $18.1 billion for the 
Border and Transportation Security Directorate. It reflects 
organizational improvements, funds personnel enhancements, 
training, and improves the technologies needed to support two 
of the Department's strategic goals: to improve border and 
transportation security, and simultaneously facilitate the 
unimpeded flow of legitimate commerce and people across our 
borders, and through our seaports and airports.
    The budget request also calls for $3.5 billion to 
strengthen the readiness capabilities of State and local 
governments that play a critical role in the Nation's ability 
to prepare for and respond to attacks of terrorism, and better 
consolidates grants for State and local response funding and 
training needs within the Office for Domestic Preparedness.
    Senator Mikulski, Senator Murray, actually just about 
everybody on the panel I think, has very appropriately raised 
the concerns that they have heard from their mayors and 
governors about not only the level of funding, but I must tell 
you it will be one of the tasks of the Department working in a 
bipartisan way, working with all of you on this subcommittee, 
to see to it that the dollars get to the areas of critical 
need, and the outcomes and benefits we receive from the 
expenditure of those dollars go to enhancing our security.
    We have a real challenge before us in 2004 because I am 
going to be working with you to take a look at the funding 
formula for 2004 and working with you to see if we can finally 
convince our friends the mayors, and the county commissioners, 
and the States to develop intra-state preparedness plans.
    I know you were very, very sensitive to the needs of local 
communities in the fiscal year 2003 supplemental. $1.3 billion 
of that which the Congress directed to the Department to 
distribute 20 percent to the States, 80 percent to local 
communities. That is probably a pretty decent balance or 
proportion as to where dollars are to go. We will continue to 
discuss the proportional sharing of those dollars but I think 
we would all feel more comfortable if when those dollars are 
expended we could match the purpose of the expenditure against 
the need that was reflected in a statewide plan that said, 
``this is our homeland security plan.'' We need to work 
together to see that we all accomplish that because we all want 
to accomplish the same outcome: every dollar being spent most 
appropriately on enhancing the security and safety of our 
neighborhoods.
    Funding requested for the Emergency Preparedness and 
Response Directorate totals $5.9 billion. These funds will be 
used to enhance nation-wide readiness to manage and respond to 
disasters whether caused by the forces of nature or the forces 
of evil.
    In addition to fully funding traditional FEMA programs, the 
President's Budget includes needed investment in America's 
pharmaceutical and vaccine stockpiles. It also includes nearly 
$1 million for Project Bioshield, a critically-needed incentive 
for the development and deployment of new and better drugs and 
vaccines to protect Americans from the threat of bioterrorism.
    The request for the Information Analysis and Infrastructure 
Protection Directorate is $829 million. As you know, this is a 
new unit. This is a new directorate within the Department of 
Homeland Security. We pulled in pieces of other agencies, 
Energy, FBI, and Commerce, into this piece. But this is a 
significant security enhancement, I think, for this country 
that the Congress supported.
    The funds will support the Directorate's effort to analyze 
intelligence and other information, evaluate terrorist threats, 
assess the vulnerability of critical infrastructure, issue 
timely warnings to private sector industries, and work with 
Federal, State, local, and private stakeholders to take or 
effect appropriate protective action. The President's request 
provides the resources necessary for us to carry out these most 
important and unique Departmental responsibilities.
    Additionally, we are requesting $809 million for the 
Directorate of Science and Technology. This is a good place and 
an area for us to have that discussion with regard to standards 
and certification because this is precisely the unit within 
this Department that is going to address those challenges.
    In the quest to secure our homeland, we face fanatical and 
sinister enemies. Their willingness to contemplate the most 
evil of means to harm us, and the possibility that others might 
help them to acquire those means demands that we sustain a 
scientific and technological edge to stay ahead of our enemies. 
The funds requested for science and technology will support the 
essential research, development, testing, and evaluation needed 
to do just that through existing programs and institutions as 
well as new entities, like the Homeland Security Advanced 
Research Project Agency.
    The President requests $6.8 billion for the United States 
Coast Guard, a 10 percent increase over fiscal year 2003 for 
this vital component of the new Department of Homeland Security 
charged with pushing our maritime borders farther out to sea. 
This request will support continued and enhanced operations of 
the service across its broad portfolio of indispensable 
missions. It will enable the Coast Guard to grow to meet its 
ever-increasing security responsibilities while at the same 
time sustaining operational excellence in non-security 
functions. Bottom line: The request for vital recapitalization 
of the Coast Guard's offshore, near-shore, and communication 
assets are covered in this appropriation request.
    The proposed budget also contains $1.3 billion for the 
United States Secret Service so they may perform their dual 
missions of protection and criminal investigation. The funds 
will support the protection of the President, the Vice 
President and their families, heads of state, security for 
designated National Special Security Events, and the 
investigation and enforcement of laws relating to 
counterfeiting, fraud, and financial crimes. The fiscal year 
2004 appropriation will also help to defray the expense of 
additional security coverage during the Presidential campaign 
of 2004.
    Roughly $1.8 billion of the President's budget request will 
support the Bureau of Citizenship and Immigration Services, 
including $100 million to reduce the backlog of applications 
and begin ensuring a 6-month process standard for all 
applications and benefits, regardless of their nature.
    In summary, Mr. Chairman and members of the Committee, this 
budget request for the Department of Homeland Security supports 
the President's National Strategy for Homeland Security. The 
strategy provides the framework to organize and mobilize the 
Nation, Federal, State, and local governments, the private 
sector, and the American people in the very complex mission to 
protect our homeland.
    We have begun the very first steps of our critical work and 
we are only at the beginning of what will be a long struggle to 
protect our Nation from terrorism. Though much has been 
accomplished, there is certainly much, much more work to do. 
This budget will provide the resources to enable the Department 
to manage its responsibilities and lead the effort to make our 
country safer and more secure.
    America's response to terrorism has been strong, measured, 
and it has been resolute. The Department of Homeland Security 
is committed to carrying this response forward by preventing 
terrorist attacks, working with Congress to reduce America's 
vulnerability, and effectively responding to attacks that might 
occur. Certainly, by doing so, we will build a better future 
and a safer future for ourselves and our children and our 
country. I look forward to working with the subcommittee and 
each of you individually in this challenging, critical, and I 
might add, I think, most noble of missions.

                           PREPARED STATEMENT

    Mr. Chairman and members of the subcommittee, this 
concludes my prepared statement. I would be pleased to respond 
to any questions you may have at this time. Thank you very 
much.
    Senator Cochran. Thank you, Mr. Secretary, for your 
statement.
    [The statement follows:]

                    Prepared Statement of Tom Ridge

Introduction
    Good morning, Chairman Cochran, Senator Byrd, distinguished members 
of the subcommittee. It is a pleasure to be with you today to discuss 
the President's fiscal year 2004 budget request for the Department of 
Homeland Security (DHS)--the first ever annual budget request for the 
new Department. I want to express my gratitude for the focus and 
support the Congress provided in creating the new Department, I am also 
grateful for this Committee's effort in passing the President's wartime 
supplemental from which the Department is receiving much needed 
resources for Operations Liberty Shield and Iraqi Freedom. I look 
forward to working with you to build a proper fiscal foundation for 
DHS, and positioning the Department to successfully carry out its 
critical mission.
    Two months ago, the major components of our Department came 
together, bringing with them approximately 179,000 employees from 
agencies across the Federal Government. These dedicated professionals 
are now working under one Department with the mission of protecting the 
American people. Together we are leading the largest Federal 
reorganization in more than 50 years, a tremendous task to meet a 
tremendous challenge.
    This Department's strategic objectives are clear: to prevent 
terrorist attacks within the United States, to reduce America's 
vulnerability to terrorism, and to minimize the damage and assist in 
recovery should a terrorist attack occur. To achieve these objectives, 
the Department has already taken steps to unify principal border and 
transportation security agencies, coordinate a cohesive network of 
disaster response capabilities, create a central point for the analysis 
and dissemination of intelligence and information pertaining to 
terrorist threats, and join research efforts to detect and counter 
potential terrorist attacks.
    In this mission, the Department of Homeland Security is not alone. 
As former governors, both the President and I understand that our 
partnership with State and local government is critical to building a 
national capacity to prevent terrorist attacks, to reduce our 
vulnerability and then to respond to an attack.
    Further, we are developing crucial partnerships with the private 
sector. As you all know, 85 percent of our Nation's critical 
infrastructure is owned or operated by private enterprise. This 
includes systems such as telecommunications, banking and finance, 
energy and transportation. The private sector also is a key source of 
new ideas and innovative technologies that will provide tools in the 
fight against terrorism.
    In laying the foundation for this Department, we also have a 
tremendous opportunity for implementing good government initiatives and 
carrying out the vision of the President's Management Agenda. Our 
mission is critical, and we must institute strong management principles 
and set solid performance measures.
    We are at the beginning of the effort to protect our Nation from 
terrorism. While much has been accomplished, there is much more work to 
be done. We must stay focused and engaged in this effort so that we can 
meet the challenges of this time in our Nation's history.

Summary of Departmental Budget Request for Fiscal Year 2004
    To that end, the President has submitted a budget that clearly 
reflects the Administration's commitment to the priorities and mission 
of the Department of Homeland Security, and lays a critical and solid 
foundation block for the future of the Department. The $36.2 billion 
request marks a commitment to advancing the safety and security of our 
American homeland and those whom we serve. This request represents a 
7.4 percent increase in funding for DHS programs over the original 
fiscal year 2003 request and includes roughly 179,000 full-time 
equivalent (FTE) positions for fiscal year 2004. The discretionary 
authority requested in this budget is $26.7 billion. It contains 
critical initiatives to advance the efficiency and effectiveness of our 
Department, supports ongoing efforts and programs, and sustains vital, 
non-security services and missions throughout the Department. This 
request provides for border and transportation security, protects 
critical infrastructure and key assets, and ensures that we are 
prepared for and capable of responding to terrorist attacks.
    With this budget request, resources for the agencies moving into 
DHS will have grown by more than 60 percent between fiscal year 2002 
and fiscal year 2004. During the same period, nearly 61,000 staff, 
largely in TSA, will have been added to protect the homeland. The 
budget includes major initiatives to improve information analysis and 
infrastructure protection, as well as to advance and harness science 
and technology to make America safer. These are new initiatives unique 
to the Department of Homeland Security that go beyond the capabilities 
and operations of the component agencies.
    This budget will support the critical operations of each of the 
Department's organizations. These organizations are:
  --Border and Transportation Security
  --Emergency Preparedness and Response
  --Information Analysis and Infrastructure Protection
  --Science and Technology
  --United States Coast Guard
  --United States Secret Service
  --Bureau of Citizenship and Immigration Services, and
  --Department-Wide Support

Border and Transportation Security Budget Request
    The Border and Transportation Security directorate secures the 
border and transportation system of the United States at ports of entry 
and 7,500 miles of land border, across 95,000 miles of shoreline and 
navigable rivers, at the Nation's airports, and throughout the highway 
and rail system of the country. It is charged with preventing the 
illegal entry of people or goods, while at the same time facilitating 
the unimpeded flow of lawful commerce and people across our borders. 
Last year more than 400 million persons, 115 million motor vehicles, 
2.4 million railcars, and 7 million cargo containers were processed at 
the border. For fiscal year 2004, each of these categories is projected 
to have significant volume increases.
    To carry out this important mission, the President has requested a 
total of $18.1 billion. The funds will be used to create smart borders 
that are more secure; further consolidate border organizations to 
provide greater accountability for a seamless border service; increase 
the security of international shipping containers; continue 
implementation of the Aviation and Transportation Security Act of 2001; 
and ensure that our Nation's first responders are trained and equipped 
to address the threat of terrorism. The following sections detail the 
budget requests for the Border and Transportation Security directorate 
components.
    The Bureau of Customs and Border Protection (BCBP) brings together 
approximately 42,000 employees including 19,000 inspectors from the 
Agriculture Plant Health and Inspection Service, Immigration and 
Naturalization Service, and the Customs Service, including canine 
enforcement officers, and 11,000 Border Patrol Officers. The Bureau 
focuses its operations on the movement of goods and people across our 
borders to prevent the illegal entry into the United States of people 
or goods at or between ports-of-entry while facilitating the movement 
of legitimate trade and international travel.
    The budget includes $6.7 billion for BCBP, an increase of $1.7 
billion (33 percent) above fiscal year 2002. This funding level will 
support expansion of programs such as the Container Security 
Initiative, which puts BCBP inspectors in key international ports to 
work with host governments in targeting and examining high-risk 
containers before they are placed on ships bound for the United States, 
and the Customs Trade Partnership Against Terrorism (C-TPAT) program, 
which increases supply chain security and expedites the secure, lawful 
commerce of C-TPAT partners across our borders. This budget also 
supports continued implementation of the comprehensive Entry/Exit 
system to track visitors to the United States and funds the Automated 
Commercial Environment system (ACE) and the International Trade Data 
System (ITDS). Nearly $1.1 billion has been dedicated to these latter 
two capital projects since 2001.
    With these funds, the Bureau of Customs and Border Protection will 
ensure compliance with customs, immigration and agricultural laws; 
determine the admissibility of persons coming to the United States; 
secure our borders from biological threats to our Nation's plant and 
animal resources; inspect over 139 million projected vehicles and more 
than 600 thousand projected aircraft; and prevent the admission of 
terrorists and other criminals. The Bureau will also focus on deterring 
illegal crossings, seizing illegal drugs, currency, and monetary 
instruments, processing $1.2 trillion in imports, and collecting $20 
billion in duties on the same.
    The Bureau of Immigration and Customs Enforcement (BICE) brings 
together the enforcement and investigation arms of the Customs Service, 
Immigration and Naturalization Service and the Federal Protective 
Service. The reorganization involves approximately 12,000 employees, 
including 5,500 criminal investigators, 4,000 employees for immigration 
investigations and deportation services, and nearly 1,500 Federal 
Protective Service personnel who focus on the mission of enforcing the 
full range of immigration and customs laws within the interior of the 
United States, in addition to protecting specified Federal buildings.
    To carry out its responsibilities, the fiscal year 2004 request for 
the Bureau of Immigration and Customs Enforcement includes $2.8 
billion, an increase of nearly $400 million (16 percent) above fiscal 
year 2002. About $1.1 billion will support investigative activities--
including immigration, fraud, forced labor, trade agreement 
investigations, smuggling and illegal transshipment, and vehicle and 
cargo theft.
    The Transportation Security Administration (TSA) continues its 
mission of helping to protect and secure our Nation's transportation 
systems while ensuring the unencumbered movement of commerce and 
people, including the more than 600 million commercial passengers who 
fly into, out of, and within the United States each year. The 
Department requests $4.8 billion for TSA, approximately $2.4 billion of 
which will be financed by offsetting collections from aviation 
passenger security fees and airline security fees.
    Roughly $4.3 billion will fund direct aviation security activities, 
including a professional passenger and baggage screening workforce and 
supporting equipment to prevent weapons and other contraband onto 
aircraft. It also supports State and local law enforcement personnel to 
secure screening checkpoints; air marshals to provide in-flight 
security; and improvements in screening technologies. The request 
includes funding for new air cargo and armed pilot initiatives, as well 
as technologies to identify passengers who may pose a security risk. 
TSA will continue to work with the Department of Transportation and 
other Federal agencies to develop and implement security standards for 
non-aviation modes of transportation and work on the Transportation 
Worker Identification Credentialing initiative. Finally, TSA, through 
the Under Secretary for Border and Transportation Security, will issue 
Letters of Intent to airports to provide assistance for the 
installation of explosive detection equipment.
    The Office for Domestic Preparedness will strengthen the readiness 
capabilities of State and local governments that play a critical role 
in the Nation's ability to prepare for and respond to acts of 
terrorism. The Department will manage the First Responder initiative 
through the Office for Domestic Preparedness, providing training to 
firefighters, emergency medical services, emergency management 
agencies, and law enforcement personnel. $3.5 billion is requested in 
the fiscal year 2004 President's budget for this initiative, plus 
funding for program administration and oversight for the Office for 
Domestic Preparedness.
    The budget also provides grants for preparedness equipment, 
technical assistance, and Federal, State, and local joint exercises. 
These grants will be awarded to the states to address the needs 
identified in their response plans. State plans must contain funding 
for firefighter preparedness, State and local law enforcement anti-
terrorism initiatives, and Citizen Corps activities.
    The Federal Law Enforcement Training Center (FLETC) will continue 
its tradition as the Government's leading provider of high-quality law 
enforcement training to Federal, State and local law enforcement 
officers. $146 million is requested in the fiscal year 2004 President's 
budget for FLETC.
    With the assistance of the Congress, the Department of Homeland 
Security will produce a more robust enforcement and protection 
capability to secure our Nation. We need to integrate our capabilities 
and increase our protection. We cannot completely eliminate the 
possibility of terrorist attack, but we can reduce our vulnerabilities 
by enhancing our support for State and local emergency preparedness and 
response.

Emergency Preparedness and Response Budget Request
    An effective response to a major terrorist incident--as well as a 
natural disaster--rests on being well prepared. Through the Emergency 
Preparedness and Response directorate, the Department will lead 
America' to prepare for, mitigate the effects of, respond to, and 
recover from major domestic disasters, both natural and manmade, 
including incidents of terrorism. The directorate will contribute to a 
fully coordinated approach to disaster management within the United 
States, using Federal resources previously operating under multiple 
plans. Funding requested for Emergency Preparedness and Response totals 
$5.96 billion.
    The request for Emergency Preparedness and Response consolidates 
funding for programs formerly funded through the Federal Emergency 
Management Agency and the Department of Health and Human Services, such 
as the Office of Emergency Preparedness, the National Disaster Medical 
System, and the Strategic National Stockpile.
    The President's request includes roughly $1.3 billion for America's 
pharmaceutical and vaccine stockpiles, including adding new drugs to 
the stockpile as they are developed. The Strategic National Stockpile 
contains drugs, vaccines, other medical supplies and equipment that can 
be delivered to any place in the country within 12 hours of a request 
for assistance. It now holds enough smallpox vaccine for every 
American, sufficient treatments for 20 million persons exposed to 
Anthrax, and treatments for injuries following a chemical attack or 
explosion. The Department of Homeland Security, in close coordination 
with the Department of Health and Human Services, will assure optimal 
medical preparedness and response capacity to meet threats to our 
Nation.
    As a critical aspect of this program, the Administration proposes 
new permanent, indefinite authority through project BioShield to 
overcome hurdles that impede our ability to stockpile adequate amounts 
of needed drugs and vaccines to protect Americans from bioterrorism. 
This authority will allow the government to purchase critically needed 
vaccines or medications for biodefense as soon as experts agree it is 
safe and effective enough to place in the Department's Strategic 
National Stockpile.
    With this budget request, the Department will also carry out the 
traditional functions of the Federal Emergency Management Agency, 
improving the Nation's disaster response capabilities and those of 
State and local governments. $1.9 billion is requested to provide 
disaster relief under the primary assistance programs that provide a 
significant portion of the total Federal response to victims in 
Presidentially-declared major disasters and emergencies. Further, the 
budget includes funds to modernize the Nation's flood insurance rate 
maps which will improve flood mitigation efforts, as well as funds for 
the pre-disaster hazard mitigation program that will ensure that the 
most worthwhile and cost-effective mitigation programs are funded.
    Information Analysis and Infrastructure Protection Budget Request
    The President's budget request calls for $829 million to fund the 
Information Analysis and Infrastructure Protection directorate, a new 
unit that will combine the capability to identify and assess the 
threats to our homeland, provide the basis from which to organize 
protective measures to secure the homeland, and stop terrorist attacks 
before they happen. IAIP is responsible for identifying and protecting 
America's critical infrastructure and key assets of national-level 
importance: food, water, agriculture, public health, emergency 
services, information and telecommunications, banking and finance, 
energy, transportation, chemical, defense industry, postal and 
shipping, and national monuments and icons.
    Working together with the Central Intelligence Agency, the Federal 
Bureau of Investigation (FBI), and other intelligence gathering 
agencies, the Department of Homeland Security will participate in 
setting intelligence requirements, including the prioritization of 
terrorism threats, weapons of mass destruction, and other relevant 
intelligence activities. The directorate will analyze and assess law 
enforcement information and intelligence, translating these assessments 
into improved security by taking actions to reduce America's 
vulnerability to terrorist attack. $32 million is requested for these 
activities.
    $384 million is requested for IAIP to work with Federal departments 
and agencies, State and local governments and private industry to 
identify critical infrastructures, conduct assessments of the highest 
priority infrastructures, and implement measures to protect them from 
actual threats. In addition, the Department will develop technical 
standards, guidelines, and best practices for states and industry as 
part of of its protective program.
    The Department is also in charge of issuing warnings, threat 
advisories, and recommended response measures to America's public 
safety agencies, elected officials, industry, and the public. In close 
coordination with the FBI, the Department will disseminate timely, 
actionable information to the public, private sector, and State and 
local officials related to specific threats and vulnerabilities, as 
well as what steps to take in response to a threat. The Department 
requests $70 million to provide 24 hours a day, seven days a week 
intelligence and warning capabilities, review and disseminate 
information to relevant public and private sector entities, and provide 
a mechanism to issue national advisories through the Homeland Security 
Advisory System.
    The Information Analysis and Infrastructure Protection directorate 
will also work with stakeholders to develop and implement an integrated 
national plan for the physical and cyber protection of critical 
infrastructures and key assets.

Science and Technology Budget Request
    The Science and Technology directorate will maintain and enhance 
the Nation's superiority in science and technology, a key to securing 
the homeland. New technologies for countering chemical, biological, 
radiological, nuclear, and other emerging threats, mitigating their 
effects should they occur, and for information and analysis sharing 
will increase the security of our homeland and minimize the damage from 
future terrorist attacks.
    In fiscal year 2004, the budget request for the Department of 
Homeland Security includes $803 million for the Science and Technology 
directorate. These funds will support existing programs and 
institutions as well as new entities like the Homeland Security 
Advanced Research Projects Agency.
    The Homeland Security Act created the Homeland Security Advanced 
Research Projects Agency (HSARPA) to develop a crucial capability for 
the Nation. HSARPA will research, develop, test, and evaluate 
countermeasures to chemical, biological, radiological, and nuclear 
weapons and other terrorist threats. Initial funding will be used to 
address immediate gaps in high-priority operational requirements for 
chemical, biological, radiological, and nuclear countermeasures, 
protecting our critical infrastructure, and conventional mission 
operations. We will engage the private sector and others in the 
development of innovative, high-payoff capabilities, as well as focus 
our efforts to evaluate and prototype commercially available 
technologies. The Department will invest in developing revolutionary 
new technologies to enhance our future capabilities and will evaluate 
and prototype technologies to enhance our near-term security.
    The Science and Technology directorate will provide new enabling 
capabilities to the other components of the Department, and enhance 
their ability to execute their various missions. Science and Technology 
will recruit and retain a workforce that is best in class, develop 
future generations of scientists, engineers, and technologists in 
fields required to ensure the vitality of the homeland security 
enterprise, and establish, maintain, and utilize state-of-the-art 
research and development facilities and infrastructure.
    The budget request will facilitate applied research, technology 
demonstrations, development, and testing of prototypes and full-scale 
pre-production hardware; enable procurement of products and systems 
necessary for the protection of our homeland from the effects of 
weapons of mass destruction and other terrorist weapons. The budget 
supports the development of a national policy and prioritized strategic 
plan for homeland security research, as well as development of 
standards for homeland security equipment for use by first responders.

United States Coast Guard Budget Request
    The President requests $6.8 billion for the United States Coast 
Guard, a 10 percent increase over the fiscal year 2003 request for this 
vital component of the new Department of Homeland Security. This 
request will support continued and enhanced operations of the Service 
across its broad portfolio of indispensable missions. It enables the 
Coast Guard to grow to meet its ever-increasing security 
responsibilities, while at the same time sustaining operational 
excellence in non-security functions. The request provides for vital 
recapitalization of the Coast Guard's offshore, near shore, and 
communications assets.
    Recapitalization of Legacy Assets and Infrastructure.--The budget 
request will support funding for two major recapitalization 
initiatives--the Integrated Deepwater System and Rescue 21. The request 
for the Integrated Deepwater System is $500 million in fiscal year 
2004. These resources will fund conversion of five 110-foot patrol 
boats to more capable 123-foot patrol craft, seven short-range 
Prosecutor small boats, progress on the first National Security Cutter, 
slated for delivery in fiscal year 2006, and continued development of a 
Common Operating Picture, command and control system for prototype 
installation, at four shore-based command centers. Implementation of 
Rescue 21, the Coast Guard's primary communications system in the 
coastal zone area, will reach 35 percent completion in fiscal year 2004 
and is on track for full completion by the end of fiscal year 2006. In 
addition, the budget provides continued support for the Great Lakes 
Icebreaker Replacement.
    Increase Homeland Security Capabilities.--The Coast Guard's request 
increases funds for Maritime Domain Awareness, providing for leased 
satellite channels for cutters and network connectivity for smaller 
assets, Automatic Identification Systems, the Rescue 21 network, and a 
prototype Joint Harbor Operations Center to provide surveillance in 
Hampton Roads, Virginia. The request will also support new port 
security assets: 58 Sea Marshals, 6 deployable Maritime Safety and 
Security Teams equipped with six new small response boats, 43 small and 
eight medium response boats to increase presence in ports and 
waterways, two port security units, nine 87-foot Coastal Patrol Boats, 
and stand up of Stations Boston and Washington, D.C.
    Sustain Non-Homeland Security Missions.--For Search and Rescue 
(SAR) and safety efforts, the budget will provide 449 new personnel 
towards achievement of a 68-hour workweek at small-boat stations, a 12-
hour watch standard at command centers, and will also provide training 
enhancements at the National Motor Lifeboat School, the Boatswain's 
Mate ``A'' school, and the National Search and Rescue School to 
increase the training throughput at both locations.
    With these funds, the Coast Guard will be able to enhance its 
presence at ports and waterways to mitigate the risk to mariners and to 
mitigate the Nation's security risk to terrorist and other illegal 
threats. The Coast Guard continues to work to reduce serious vessel 
collisions or groundings, reduce oil and garbage discharge into the 
water, and provide core competencies to the Department of Defense 
including maritime interdiction, port safety and security, aids to 
navigation, and military environmental response operations.
United States Secret Service Budget Request
    The United States Secret Service protects the President and Vice 
President, their families, heads of state, and other designated 
individuals; investigates threats against these protectees; protects 
the White House, the Vice President's residence, foreign missions and 
other buildings within Washington, D.C.; and designs, plans, and 
implements security for designated National Security Special Events. 
The Secret Service also investigates violations of laws relating to: 
counterfeiting of obligations and securities of the United States; 
financial crimes that include, but are not limited to, access device 
fraud, financial institutions fraud, identity theft, computer fraud; 
and computer-based attacks on our Nation's financial, banking, and 
telecommunications infrastructure.
    The President's budget request for the United States Secret Service 
of $1.3 billion for fiscal year 2004 maintains current program 
operating levels and fully annualizes the cost of staffing authorized 
in fiscal year 2002. It provides approximately $40 million for security 
for the 2004 Presidential candidates and nominees and the Democratic 
and Republican National Conventions. In addition, the Service has 
requested funds to design and build the prototypical mail facility that 
can effectively screen for selected chemical, biological, radiological, 
nuclear, and explosives contaminants. This facility is necessary to 
ensure that mail destined for the White House Complex is thoroughly 
examined and determined to be safe.

Bureau of Citizenship and Immigration Services Budget Request
    The Bureau of Citizenship and Immigration Services seeks to greatly 
improve the administration of immigration benefits to the more than 
seven million annual applicants, by building and maintaining a services 
system that provides immigration information and benefits in a timely, 
accurate, consistent, courteous, and professional manner.
    To accomplish this goal, the fiscal year 2004 budget requests $1.8 
billion. Of that request, $100 million will fund the President's 
initiative to reduce the applications backlog and ensure a 6-month 
processing standard for all applications. To support this commitment, 
the Bureau will focus on three critical elements: achieving a high-
level of performance by establishing clear, concrete performance 
milestones and actively monitoring progress towards these milestones; 
transforming business practices by implementing significant information 
technology improvements and identifying improvements to change the 
current way of doing business; and ensuring integrity by establishing 
comprehensive quality assurance measures.
    The Department will also ensure that our Nation's policies for 
issuing visas to visitors are consistent with security and foreign 
policy interests. The Department will have legal authority over the 
issuance and denial of visas, although the Secretary of State will 
manage the activities of consular officers and will retain the power to 
deny visas based on foreign policy interests.

Department-Wide Support Budget Request
    The budget request includes $294 million for the operation of 
departmental headquarters. DHS headquarters focuses on national policy 
through centralized planning and is responsible for functions such as 
planning, policy, budgeting, strategy, interagency coordination, 
integrated research and development, public affairs, legislative 
affairs, information technology, departmental security, and legal 
affairs.
    In the area of information technology, the Department's request 
includes $206 million for capital investments to establish the 
priorities of information technology integration, modernize high 
priority business processes, and increase efficiency through 
technological improvements. It also includes a department-wide 
enterprise architecture that will guide our investment in, and use of 
information technology, and the conversion of wireless radio 
communications to narrowband operations as required by law.
    The Department will consolidate duplicative telecommunications 
systems and networks as well as business management systems. All new 
information technology investments are reviewed centrally in order to 
prevent redundant investments and misspent taxpayer dollars. DHS will 
seek to develop a modern information technology environment that 
supports homeland security missions, enhances productivity, facilitates 
information sharing while ensuring security and privacy, and generates 
savings.
    The request includes $40 Million for the Counterterrorism Fund. The 
Counterterrorism Fund covers unbudgeted critical costs associated with 
providing support to counter, investigate, or prosecute domestic or 
international terrorism, including payment of rewards in connection 
with these activities; and reestablishing the operational capacity of 
an office, facility or other property damaged or destroyed as a result 
of any domestic or international terrorist incident. The 
Counterterrorism Fund may also reimburse other Federal agencies for 
extraordinary costs related to their participation in particular 
terrorism prevention or response activities.
    In implementing the President's Management Agenda, we have an 
enormous task: reorganizing and integrating 22 agencies with their own 
work cultures, operating and management procedures, and operating 
missions into one Department. This challenge presents an opportunity 
for the Department to become the model of management excellence, to 
manage resources effectively and to deliver measurable results.
    New management flexibilities that were requested by the President 
in the areas of human resources, procurement, and budget and 
performance integration will be key to success in the Department. The 
use of these new flexibilities will be tracked as measurable goals. The 
Department will blend the personnel systems of the incoming agencies 
into a unified system that is consistent, coherent, and that rewards 
good performance. The Department must also work to unify the 19 
existing financial systems and ensure that a chosen system directly 
links performance with spending.

Conclusion
    In summation, the President's budget request for the Department of 
Homeland Security supports his National Strategy for Homeland Security. 
This strategy provides the framework to mobilize and organize the 
Nation--Federal, State and local governments, the private sector, and 
the American people--in the complex mission to protect our homeland. We 
have begun the very first steps of our critical work, but we are only 
at the beginning of what will be a long struggle to protect our Nation 
from terrorism. While much has been accomplished, there is much more 
work to do. This budget will provide the Department the resources to 
manage its responsibilities and continue its work of securing the 
homeland for the American people.
    Mr. Chairman and Members of the Subcommittee, this concludes my 
prepared statement. I would be happy to answer any questions you may 
have at this time.

    Senator Cochran. I hope that Senators will cooperate with 
the effort to limit our first round of questions to five 
minutes each and then we will have an opportunity to continue 
to discuss these issues of the budget request for the 
Department as long as needed to have a full understanding of 
the budget request.

                        OPERATION LIBERTY SHIELD

    Mr. Secretary, I mentioned the funding that we provided in 
the supplemental for Operation Liberty Shield which, as I 
understand it, was an effort nationwide, including local and 
State government officials and agencies, to protect against 
retaliation that might be visited upon our States and local 
governments and citizens of the United States in response to 
our efforts in Iraq.
    To what extent do you think this operation has been 
successful? I don't recall any specific retaliatory actions 
being taken. There may have been, and you may have frustrated 
some. Can you bring us up to date on your assessment of the 
success or failure of Operation Liberty Shield?
    Secretary Ridge. Mr. Chairman, first of all, I need to 
thank the Congress for the historic support for a first of its 
kind initiative in Liberty Shield, where for the first time, 
the Federal Government, working in partnership with the State 
and local governments and the private sector, provided an 
unprecedented level of security in anticipation of potential 
hostile terrorist action because of our military involvement in 
Iraq. It is the first time that the Federal Government planned 
for and worked with and through States and local governments 
and the private sector to literally add an overt security 
presence at critical places around the country.
    Pursuant to that effort, we asked you, the members of the 
Committee and Congress, to give us substantial resources to 
support Liberty Shield. If I recall correctly, you gave the 
Coast Guard about $580 million, $400 million of which was for 
the work that they were doing in the Gulf, $180 million to 
support their extraordinary efforts on port security. You gave 
itemized specific dollar amounts to Customs and Border 
Protection, to Immigration and Customs Enforcement.
    So what we will need to provide you at some later date, 
once we calculate the cost, is that you did specifically 
designate certain monies for certain activities based on 
anticipated cost. It is our responsibility to get back to you 
to tell you--to match what you appropriated to what we expended 
and tell you what we are going to do with the rest.
    The bottom line is that you gave enough money to do the 
job, to do the job very, very well. We ramped it up on March 17 
and took it down on April 17. Within minutes after I contacted 
the governors and the homeland security advisors, they moved 
into action. The plan involved using State resources to protect 
critical pieces of infrastructure. Some of the governors 
provided National Guard. Some of the governors provided State 
police. Others used other law enforcement members. You provided 
resources to reimburse them for those costs because they 
deployed them pursuant to a Federal request. So we have got to 
do a run-down and comparison and report back to you dollars 
expended, dollars remaining, and obviously as members of the 
Appropriations Committee, you are going to want to know what we 
spent. If there is a balance, you want to know where we spent 
it.
    Senator Cochran. Well, that is true, and we appreciate your 
understanding of that request and the importance of that 
information to the committee.

                     CRITICAL INFRASTRUCTURE GRANTS

    Another question within this area of concern and interest 
is how you would assess the sufficiency of the funding to 
reimburse State and local governments for the expenses incurred 
by them in complying with the Department's requests and 
directions. Do you think that the $200 million, for example, in 
the appropriations bill we provided for critical infrastructure 
grants will be sufficient to cover increased costs to State and 
local governments for the critical assets that they devoted 
resources to protect in communities and States across the 
Nation?
    Secretary Ridge. Senator, it is a little too early to 
assess it, I think. We are pretty close to the dollars they 
needed, but frankly, because it is the first of its kind 
exercise--as we were trying to ramp up to give you, very 
appropriately, the kind of specific information you wanted as 
to why we needed X-number of dollars for Liberty Shield, we ran 
various scenarios. We took a look at different kinds of 
critical infrastructure and said, ``let us just apply a generic 
number to each piece of critical infrastructure, multiply it by 
the number of pieces of infrastructure, and give you a 
number.'' We said, ``well, that doesn't really work because 
what you may want to do at a bridge or a tunnel may be 
different than what you want to do at a nuclear power 
facility.''
    So we think from preliminary reports that we had sufficient 
dollars, but one of the lessons we will learn from this very 
successful exercise is basically the cost associated with 
providing certain kinds of protection to certain pieces of 
critical infrastructure that we can use in future years to 
compute very appropriately the levels of reimbursement that the 
States and locals should receive.
    I believe Congress was very generous. We got substantial 
dollars from you, literally billions of dollars. Some of it, 
you very specifically earmarked, and some you provided more 
flexibility to the Department of Homeland Security to 
distribute. But I will assure the members of the subcommittee, 
you will get as much specific information about each venue, 
each location, so we can in future years give you even more 
precise numbers if we return with a similar request.
    Senator Cochran. Thank you very much.
    Senator Byrd.
    Senator Byrd. Thank you, Mr. Secretary, for your good 
statement. I don't envy your task. You are the man who we have 
the fingers pointing at and, in some cases, you are the man 
that will be made the goat if the goat can be made, and I 
sympathize with you. I don't know how you can possibly do this 
job if you are human, and I take it that you are, with all of 
these agencies and the enormous responsibilities that are upon 
you and these agencies. I want to help you whenever I can.
    Secretary Ridge. Thank you, Senator.

                       FREEDOM OF INFORMATION ACT

    Senator Byrd. The Freedom of Information Act was enacted in 
1966 to provide that any person has the right to request access 
to Federal agency records or information. All agencies of the 
U.S. Government are required to disclose records upon receiving 
a written request for them except for those records that are 
protected by exemptions or exclusions.
    When Congress last fall adopted legislation to create the 
new Department, it also adopted a broader exemption to FOIA, 
allowing private companies to hide health and safety 
information from the public as long as the companies 
voluntarily submit this information to the DHS. The exemption 
applies to information about facilities that could be targets 
of a terrorist attack.
    Increased security concerns call for prudent changes, but 
not for blanket exemptions in the information available to the 
public. If the government is allowed to operate in secrecy, 
without scrutiny, then the people's liberties can be easily 
lost. We ought to strengthen the Freedom of Information Act, 
not undercut it. The American people ought to have access to 
information that directly impacts upon their freedoms, as well 
as their safety, and I firmly believe that the Freedom of 
Information Act exemption that Congress exempted in the 
Homeland Security Act was too broad. It allows the new 
Department to cloak too many of its activities in secret.
    This month, the Department proposed new rules that would 
broaden this exemption even further, making an already bad law 
even worse. Under the new rules, there will be an enormous 
incentive for corporations and lobbyists and government 
contractors to carry a rubber stamp and mark the words 
``critical infrastructure information'' on everything that they 
touch. There will be that incentive, so it can all be locked 
away in the darkest recesses of the Homeland Security 
Department.
    Not only can the private sector use this powerful new 
classification to shield itself from legal liabilities, but I 
am afraid that the government will also use it to shield the 
administration from public scrutiny of its activities. Now, 
there will be administrations after this administration and the 
same will apply to them. There will be that inclination, that 
tendency, that proclivity to hide things under this label.
    Where does it end? If there is information regarding 
threats to the safety of the people, to the security and so on, 
they ought to be told. They have the right to know.
    Mr. Secretary, experts in this area have concluded that 
these rules will allow lobbyists and government contractors to 
hide their relationships with the Homeland Security Department, 
including phone conversations and personal meetings with agency 
officials. How do we know that the Department is not just 
turning over the safety of the American people to the 
administration's friends in the private sector, like many 
believe has been done for the construction of Iraq?
    So I guess my question to you, Mr. Secretary, is what sort 
of ethical and sunshine standards are you, as the Secretary, 
going to insist upon?
    Secretary Ridge. Thank you, Senator. First of all, I think 
you and I agree that the role of the Freedom of Information Act 
historically is consistent with the public operation of the 
public's business. There is a transparency built into what we 
do in this country by the very nature of our political 
community, but the Freedom of Information Act has certainly 
worked in years gone by to assure access to the kinds of 
documents and information to which you have referred in your 
statement.
    I would assure the Senator that the regulations to which 
you refer do not in any way relieve any company from its 
responsibility to provide information that may otherwise be 
dictated by any other law or any other regulation in the 
Federal Register or on the books anywhere. They cannot avoid 
disclosure that may be required under a different statute by 
lumping whatever that information might be and turning it over 
to the Department of Homeland Security. It is our 
responsibility, if they try to do that and we see that the 
information that they have passed to us is in violation of the 
law, to see to it that they are prosecuted, and I would assure 
the Senator that is precisely what we will do.

                       FOIA RULES AND EXEMPTIONS

    The purpose of this exemption in the Freedom of Information 
Act was really to get the voluntary submission of information 
from companies that is otherwise not required as it relates to 
potential vulnerability of their facilities, whatever they 
might be, so that we could take a look at it, take a look at 
the threat, take a look at hopefully the modeling and the work 
we have done in our new Department and get back to them and 
say, that is a vulnerability that is of high interest and high 
risk and you need to take the following protective actions in 
order to deal with it.
    So I would say to the Senator, I would assure him that the 
purpose of this Freedom of Information Act exemption is not to 
provide a friendly forum for anyone out there to violate the 
laws and the requirements imposed on them by other statutes or 
other regulations.
    Senator Byrd. Your new rules expanded this exemption to 
include information that is voluntarily submitted to any agency 
in the Federal Government. Now, how can this departure from the 
language chosen by Congress be justified?
    Secretary Ridge. Senator, they still will be required to 
file whatever reports or whatever papers necessary and 
consistent with laws as it relates to those agencies. The 
exemption is based solely on the need to get voluntary 
information, make it available to us so we could take a look at 
potential vulnerabilities in their infrastructure.
    But they are still required to file whatever other reports, 
whether it is the EPA, the Department of Energy, whatever it 
is. This does not immunize them from potential prosecution if 
they try to avoid that kind of disclosure by sending 
information to us that we may conclude, as we look at it, you 
are in violation of the preexisting statute. If you are 
violating the law, you are violating the law and whatever 
agency gets that information is required to turn it over to the 
appropriate authorities and see to it that you are prosecuted.
    Senator Byrd. As I indicated a private company can stamp 
anything as critical infrastructure information. That 
information would be automatically exempt from public 
disclosure unless the Department reviews the information and 
decides it should not be protected. Your rules designated one 
man, a single program manager, I take it, who will be 
responsible for reviewing this massive amount of information, 
voluntarily submitted information that will pour into the 
Homeland Security Department. How can we expect--how can this 
subcommittee be assured that one individual, I take it one 
individual, to have the resources and the time to determine 
whether companies are abusing these rules?
    Secretary Ridge. Senator, that description obviously 
conjures up a no-win situation for the project manager because 
that individual, he or she couldn't possibly be able to deal 
with all that. I assure you, in the directorate dealing with 
information analysis and infrastructure protection, there will 
be a team available to make that assessment. There will be 
lawyers that will review it.
    And again, I underscore the notion, Senator, that this is 
not information that these companies have any responsibility 
under any law or any regulation, any statute, they don't have 
to share this information with us at all. There is nothing out 
there that compels them to do that. And what we are saying to 
them, as many companies have already begun the very important 
work of taking a look at their own security challenges, that 
when they are taking a look at their own infrastructure, in 
addition to information that they are compelled to submit, they 
voluntarily submit some of the information, perhaps even some 
of their own critical self-assessments to us that otherwise 
they wouldn't have to disclose under any statute.
    And based on that information, we then develop, hopefully, 
a plan of action so that they can reduce their vulnerability to 
a terrorist attack. But they would not be providing that 
information, Senator, under any other statute or any other 
regulation and it is voluntarily provided.
    Senator Byrd. My time is up and I thank you, Mr. Chairman. 
I am sure you have given me a very liberal five minutes. Thank 
you.
    Senator Cochran. Thank you, Senator Byrd.
    Senator Gregg.
    Senator Gregg. Thank you, Mr. Chairman, and I appreciate 
the fact that you have taken on a huge and complex 
responsibility here, Governor. I suspect that you evaluate one 
of your priorities as being controlling our borders and making 
sure that the people who enter this country enter it for the 
purposes which are constructive, not purposes which are 
destructive.

                           ENTRY-EXIT SYSTEM

    As a core element of that is the issue of how the INS is 
functioning as it has been transferred over to your agency. 
Senator Hollings and I, who had responsibility for INS for a 
while before it moved over to this subcommittee, had extremely 
severe reservations about the exit-entry computer system which 
the INS was going to try to buy and put in place for the 
purposes of border crossing and identifying who was coming 
across the border. In fact, we felt it was intuitively obvious 
that this was an absurd system that could not function because 
INS didn't have the underlying capability to integrate it into 
the overall issue of the databases. And, furthermore, the idea 
that you would have 100 percent biologics identification of 
people coming across the border just was absurd on its face.
    And yet, INS charged forward. They wanted to spend billions 
on this, and the administration forced us to put $300 million 
into the bill that we just passed, the omnibus.
    I noticed in your statements, I think it was yesterday, 
that you are reorganizing this whole effort.
    Secretary Ridge. Yes.
    Senator Gregg. I would be interested if you came to the 
same conclusion that our committee came to about 2 years ago 
that this exit-entry system as originally proposed by INS could 
not possibly function effectively and that it has to be 
replaced by something that actually is realistic.
    Secretary Ridge. One of the first program reviews that I 
undertook as the Secretary was the entry-exit system, and it is 
still an ongoing review. There had been some work done for the 
previous year and a half, and candidly, it wasn't done quite 
with the clarity or the comprehensiveness or we just weren't 
satisfied with the work product to date, so Secretary 
Hutchinson and I went back and have refocused the effort to 
comply with the law and the mandate of Congress to come up with 
a system that registers people when they enter and exit.
    There are several challenges associated with it. The 
challenges have more to do with maintaining that kind of system 
at our land borders than it does with maintaining that kind of 
system at airports and seaports. If you have visited, 
particularly the Mexican border, at any one of those places--I 
was out there on Friday, out in Southern California, and there 
are 24 lines, 24 avenues of ingress from San Ysidro into 
Southern California. That is the entry system.
    And I took a look at that and said, well, this is the entry 
system. Let us assume we can get it done here. Where are the 24 
lines or at least the 12 lines of travel so you can monitor the 
exit? And I took a look at the 24 lines coming in and I said, 
this is a real challenge because there doesn't appear to be any 
room to build any more lines, any more roads so we can build 
that kind of an infrastructure. So I think there are some very 
unique challenges with regard to the system as it relates to 
entry-exit at our borders.
    Clearly, there are ways we can facilitate. We are starting 
some experimental programs with pedestrian traffic, with 
commercial trucking traffic, and with passenger vehicles based 
on the principle of risk management, in that we know who you 
are, we know you work on this side of the border, you live on 
this side of the border. Both governments basically confirm 
that you are a good worker and you are an honest, law-abiding 
citizen. We can put you in one lane and let you go back and 
forth.
    But I would say to the Senator that the real challenge will 
be maintaining that kind of system where you have literally 
hundreds of thousands of people going across the border daily, 
and the notion that we are going to stop everyone and pull 
everybody out of the buses and everybody out of the cars to 
make sure that they have a biometric identification card and we 
verify they are who they are, it does pose some significant 
challenges. Once, we complete our survey, it is a matter that I 
will be prepared to discuss with you and the Senator both 
publicly and privately, because there are some real challenges 
associated with it.

                         FUNDING FOR ENTRY-EXIT

    Senator Gregg. Well, you have got $360 million that was 
forced upon, in my opinion, forced into the account. I would 
just hope that it is not going to be spent on the program that 
was proposed.
    Secretary Ridge. Senator, we are going to move 
incrementally on this program. I think the Congress has given 
us a mandate to come up with that system, with a biometric 
identifier at our airports and seaports by the end of the year. 
I think that is doable, although there are enormous challenges 
associated with it, because it is clear in the legislative 
intent and we want to have a biometric standard or standards so 
that we can verify the individual who is coming across our 
borders, the one to whom they issued the visa. So we need 
fingerprints, probably need photos. Some of the countries are 
using iris scans.
    That is the kind of information we would secure in a 
consular's office or in an embassy elsewhere. So we have to 
make sure they have the technology to put it on the identifier, 
put it on the card. We have to have the database secured and 
the technology at the port of entry to confirm who they are. So 
there are enormous technological problems. I think there are 
systems that are out there that we can apply.
    We are going to push real hard to meet the deadline that 
Congress gave us for the airports and seaports, but I do think 
that we need to review between now and the end of next year 
that very specific requirement as it relates to border traffic 
across the land borders.
    Senator Gregg. Are you reviewing the underlying data 
capabilities of the INS that this whole system would depend on?
    Secretary Ridge. Senator, I am not going to draw any 
conclusions there until we are finished with our own internal 
review of that capability and----
    Senator Gregg. Are you reviewing it, though?
    Secretary Ridge. Yes, sir.
    Senator Gregg. Totally independent of what you are being 
told by the agency which you absorbed?
    Secretary Ridge. Yes, sir.
    Senator Gregg. Thank you.
    Secretary Ridge. Also, to your point, a RFP has not gone 
out yet. One of the advantages of having a science and 
technology unit in the new Department is before this part of 
the Department sends out an RFP, which we know has enormous--
there is a huge technology infrastructure associated with it, 
we are going to have our science and technology people take a 
look at what is out there and help them design the RFP, some 
sort of consultation.
    Senator Gregg. May I suggest that you take a look at the 
model that we finally set up at the FBI, because they had so 
many failures in the area of major computer structures, which 
was to bring in an independent group which was essentially an 
analyst team of very capable private sector people.
    Secretary Ridge. I am familiar with it, Senator, and I will 
take you up on the suggestion.
    Senator Cochran. Thank you, Senator Gregg.
    Senator Hollings.

                     PORT VULNERABILITY ASSESSMENTS

    Senator Hollings. Thank you, Mr. Chairman.
    With respect to the ports, there are 361, 50 major ones. 
Some have moved along and are working very hard. But the 
majority sort of talk about an unfunded mandate. How much 
money, Mr. Secretary, do you provide for the States to provide 
for these vulnerability assessments that are required by law?
    Secretary Ridge. Senator, first of all, as you pointed out, 
the Congress has provided substantial resources to do some of 
these vulnerability assessments, particularly at the 50, 55 
strategic ports the Coast Guard is doing, and I believe you 
included another $38 million in the fiscal year 2003 
supplemental because of the Congressional concern that this be 
accelerated and moved along.
    Also, Senator, you have given the Department the discretion 
of a piece of about $700 million to go out to critical areas 
based on threat and critical infrastructure, and one of the 
allowable costs for the applicants for those dollars will be 
the vulnerability assessments. So I think we have substantial 
money to deal with that--and we can get the job done at the 55 
ports, because as you pointed out, I think there are 360 ports 
nationwide. We will just have to see how far those dollars go.
    But also in this 2004 budget, Senator, there is a request 
for in excess of $800 million for the information analysis 
infrastructure protection piece and it is our intention to use 
some of these dollars for port vulnerability assessments, too.
    Senator Hollings. If you have got that money, that is fine 
business. The $38 million that we were barely able to get into 
that supplemental is not going to be enough, and so they need 
more. Specifically for example, now, we required the vessels 
themselves to put on those transponders and they will have to 
bear the cost, but we need $57 million for the Coast Guard to 
put up these towers. Do you have that $57 million?
    And don't give me that 10 percent for the Coast Guard. That 
10 percent, you give them 50 percent more work to do and 
responsibility and function and then you are trying to fit it 
all into that 10 percent, and Admiral Collins just in an 
article of a hearing again 2 weeks ago, he said he is 
stretched. We don't have the money. I would like to get that 
$57 million fixed. Can you give us that?
    Secretary Ridge. Senator, I would have to go back and take 
a look, but I believe that in conversation and reports I have 
had with the Admiral, and I don't want to misstate his intent 
to use the money, but this whole domain awareness and the new 
command and control center that they are building around the 
country, is it in this budget? It is my understanding that he 
can proceed with the funding of the towers and the 
communication system that he has been trying to set up. I mean, 
they have to phase it in over a period of years, but it is my 
understanding that the dollars available in fiscal year 2004 
will let him move that right along without interruption. But I 
will have to get back to you specifically on that because I am 
afraid I am not that versed.
    [The information follows:]

    As an element of their Maritime Strategy for Homeland Security, the 
Coast Guard is evaluating a project to install a nationwide shore-based 
Universal Automatic Identification System (AIS) system to enhance 
Maritime Domain Awareness (MDA). By design, the system would be capable 
of capturing essential MDA information (vessel identification, 
position, heading, ship length, beam, type, draft, and hazardous cargo 
information) from any AIS equipped vessel throughout the coastal zone 
and displaying the AIS data at command centers for use by operational 
commanders, as well as transmitting the data to other offices for 
analysis and monitoring. The costs to build this nationwide network are 
not yet fully developed. The Coast Guard is currently evaluating the 
engineering requirements and best approach to implementing this 
project, thus funding for this system is not included in the Coast 
Guard's fiscal year 2004 budget request. The Coast Guard intends to 
execute the combined $27,900,000 provided in the fiscal years 2002 
Supplemental and 2003 appropriations to install AIS capability in the 
VTS ports of New Orleans, Prince William Sound, Houston/Galveston, New 
York and Port Arthur.

                             RAIL SECURITY

    Senator Hollings. That and those security plans, too, we 
need the extra money for that. But let me jump quickly to the 
real security. Now, for example, at tunnels at New York, 
Baltimore, come down to Washington, there is a tunnel right 
under the Supreme Court. I know some locals who were ready to 
use that tunnel a couple years ago.
    But where is the money now? We authorized $750 million for 
rail security on those tunnels alone, and I don't see any money 
in Homeland Security now for that.
    Secretary Ridge. Senator, I believe that the Transportation 
Security Administration has resources. They have begun to work 
with the Federal Railway Administration to do vulnerability 
assessments at some critical pieces of railroad infrastructure. 
I know that in our internal assessment in preparation for 
Liberty Shield we identified several critical pieces of 
railroad infrastructure that we asked and secured either public 
or private sector support.
    So as we are building up this capacity within the new 
Department under that directorate, it will not only be the 
Transportation Security Administration working with the Federal 
Railroad Administration, but it will be our Department working 
with the railroads on vulnerability assessments. And again, the 
fiscal year 2004 budget gives us a rather substantial amount of 
money in order to do those vulnerability assessments.
    Senator Hollings. You talk generally of substantial amount, 
but it was $750 million there. It was $515 million authorized, 
of course, for, you say, the railroads, because as you know, we 
only own about 750 miles of the 22,000 miles of freight rails. 
They have bridges and vulnerabilities and everything else like 
that. They say it is an unfunded mandate. You see, that is what 
we are getting at the committee level.
    Secretary Ridge. Well, I will tell you, Senator, that in my 
discussions with the folks, private sector folks, publicly 
traded companies, they have a lot of equity interests, but I 
think that, by and large, the responsibility of securing 
critical assets of a privately owned, profit-generating company 
rests more with the privately owned, profit-making company than 
it does with the Federal Government and the taxpayer.
    Not everybody has an equity interest in every railroad in 
the country. Those that do, and I think there is a 
responsibility of the leadership and the Board of Directors to 
their employees, to the communities in which they operate it, 
and to their shareholders, they could at least begin some of 
these vulnerability assessments themselves to make a 
determination and work with us in order to get a handle on what 
they really need as we try to manage the risk.
    We will not be able to provide security to every bridge and 
to every tunnel and to every piece of infrastructure. I think 
we all understand that. But I think we need to engage this, and 
I say this in a very positive way, we have been able to engage 
some of these railroad companies to work with us to identify 
critical pieces of infrastructure and the debate as to who is 
paying for it may end up being a very public one, but I will 
tell you, from our point of view, our communication with the 
private sector that owns these assets is that, by and large, we 
want to help you identify the critical pieces of 
infrastructure. We want to help you do the assessment on what 
you need in order to secure the infrastructure. But at the end 
of the day, it is our view that it is much more private sector 
responsibility than it is a public sector one.
    Senator Hollings. Well, we debated that back and forth 
across the committee. The Congress has authorized $750 million.
    Secretary Ridge. Well, yes----
    Senator Cochran. Senator, your time has expired.
    Senator Hollings. I thank the distinguished chairman.
    Senator Cochran. Thank you. Senator Murray?

                           ENTRY-EXIT SYSTEM

    Senator Murray. Mr. Chairman, thank you, and I first want 
to associate myself with the comments of Senator Gregg on the 
entry-exit system. We have some really serious concerns and I 
appreciate your response back to him and look forward to 
working with you on that. I think the INS has been eager to do 
this since the 1996 legislation and it is an area we need to be 
vigilant on and move forward carefully, so I appreciate your 
comments.
    Also, I want to----

                             INS EMPLOYEES

    Secretary Ridge. Might I just, there, I think it would be 
important for the Senator, you have probably done this, but 
first of all, I do want to say something good about the men and 
women that work at the INS. They work hard. They haven't 
necessarily over the years been given the equipment or maybe 
provided other things that they needed in order to accomplish 
their task.
    But I think on a day-to-day basis, they go to work trying 
to do the right thing. Maybe they weren't given the right 
direction. Maybe they weren't given the right information. 
Maybe they weren't given the right technology. But they work 
pretty hard.
    I know we have a lot more work to do, Senator. Don't get me 
wrong. I am not trying to sugarcoat some of the problems that 
have been identified publicly and that we have identified 
internally. They are there. Our job is to fix them. But at the 
end of the day, I just want to relay to you that I was in Los 
Angeles on Friday talking about ports and airport security with 
the officials out there, but I stopped for an hour and a half 
at an immigration and naturalization ceremony, 4,200 new 
Americans from 135 different countries.
    The notion to be present when 4,200 people raise their 
hands and at the end of taking an oath, regardless of their 
country of origin, they suddenly became Americans and are now 
citizens, and the fact that people from 135 countries chose 
this country to live in, these men and women in INS, that is 
the job they do. They have a tough job. It is a welcoming job.
    We know we have some work to do and we also know that we 
have friends in Congress on both sides of the aisle that want 
to help us get it right, and that is what we need to do in the 
years ahead.

                        OPERATION SAFE COMMERCE

    Senator Murray. Thank you. I also want to follow up on 
Senator Hollings' concerns about ports and continued security 
is an issue. I have been very concerned about the Seattle-
Tacoma port, third largest in the Nation. We have been working 
closely with them and other ports.
    In 2002, we gave you $28 million for Operation Safe 
Commerce and $30 million in 2003, and as I said in my opening 
comments, this is an initiative that will enable the security 
of 6 million containers that enter our ports every year to be 
monitored from the time they are loaded to the time they are 
unloaded. It is extremely important that we begin to understand 
what is coming into our ports, and this is a really important 
operation, but so far, none of that money has been spent, 
despite all of our pushing, and I wanted you to explain to the 
subcommittee why the Department has not moved forward on 
Operation Safe Commerce that has now been funded in two 
separate fiscal years and can you assure me that we are going 
to see some movement on this.
    Secretary Ridge. Senator, I believe we are in the process, 
with regard to the 2003 package I am most familiar with, in 
coming up with some grants guidance to distribute those 
dollars. I believe that----
    Senator Murray. Well, Operation Safe Commerce is a pilot 
project targeted to the three top ports, and the ports, 
everybody is ready. They have submitted their grants. They are 
waiting to hear from all of you, and we were told that 
originally it was February. Now, it is June, could be pushed. 
These people are ready to go. They have projects in place. They 
know what they need to be doing. They are waiting for the 
money.
    Secretary Ridge. Senator, let me review it and get back to 
you on that.
    [The information follows:]

    The Ports of (1) Los Angeles and Long Beach; (2) Seattle and 
Tacoma; and (3) the Port Authority of New York and New Jersey have 
submitted proposals for funding consideration under this initiative. 
The application closing date for OSC proposals was March 20, 2003. 
Representatives from the Bureau of Customs and Border Protection, 
Department of Transportation, U.S. Coast Guard, Department of Commerce 
and the Transportation Security Administration are currently evaluating 
the applications. Evaluation and selection estimates are expected to be 
completed by early May with award announcement following contract 
negotiations and congressional notification estimated for early July 
2003.

    Senator Murray. I would really appreciate it. We cannot 
allow 6 million containers a year to continue to come into our 
ports without monitoring. We are ready to go with a project 
that works and we just are waiting for your office----

                     CONTAINER SECURITY INITIATIVE

    Secretary Ridge. If I might, Senator, I appreciate that 
very much, but we also need to understand that we have begun 
layering other defenses to review that cargo before it gets to 
any of the domestic ports. You have given us $60 or $70 million 
for the Container Security Initiative that is up and running 
and we are tying into more and more foreign ports. You have 
also given us substantial dollars to enhance the Coast Guard's 
capability to target high-risk cargo.
    The number goes around, and people use the number, well, we 
only board 2 or 3 percent of the cargo ships in the country. 
But I would say to you, we board 100 percent of the cargo ships 
that we think are high-risk cargo ships. So we have started----

                        OPERATION SAFE COMMERCE

    Senator Murray. The point of Operation Safe Commerce is to 
begin to know what is in those containers, and if you could 
take a look at it and get back to me----
    Secretary Ridge. Sure. I would be very pleased to and look 
forward to communicating----
    Senator Murray [continuing]. I think you will be pleased 
with what you see the ports doing. They are just waiting for 
the go-ahead from your agency, so if you could check that.

                           TRAINING STANDARDS

    I know my time is short. I just wanted to also really bring 
up the issue of a national strategy on training. We have a lot 
of people out there who want to do what they need to do in 
terms of homeland security but training is a real issue. I 
wondered if you could tell us what is the status of a national 
strategy on getting these folks trained and when we can expect 
some progress and seeing something from your office on that.
    Secretary Ridge. Senator, we are obliged and will provide 
standards and certification of training, of communications, of 
equipment. Again, with great respect, the Department has been 
up and operational for only about 60 days. FEMA has been 
working on it. We have been doing some work with the Department 
of Justice.
    Again, one of the very important roles of the new 
Department that you highlighted in your question is that 
somebody in the Federal Government has to start setting 
standards, standards for training, standards for equipment, the 
standards for interoperability, and that is one of our primary 
tasks.
    So again, I would assure you that the process of setting 
those training standards--as you know, we have four or five 
national training centers. I must tell you that hardly a day 
goes by that somebody else doesn't want to start another 
national training center somewhere else in this country----
    Senator Murray. That is exactly why I think we need a 
national strategy, so we all----
    Secretary Ridge. You are absolutely right. You are right on 
target. If we develop the national training standard and the 
national model and we set aside x-number of dollars for States 
or regions, there is no need to build more national training 
centers if we have a model to train with. The training can be 
done intra-state. But we have to set the standard.
    Senator Cochran. The Senator's time has expired.
    Senator Murray. I appreciate that, and I would just hope 
that you look at the National Guard in terms of providing that 
training. They do much of that already and I think we don't 
want to lose that.
    Senator Cochran. Senator Leahy?
    Senator Leahy. Thank you, Mr. Chairman, and Governor, 
Secretary, thank you for being here. There are probably days 
when you feel as though you live up here on the Hill. I assume 
that is because you feel it is the safest place in the country 
to be.

            FORMULA FOR STATE AND LOCAL PREPAREDNESS GRANTS

    We have spoken many times, both in hearings and privately, 
on how to fairly allocate domestic terrorism preparedness plans 
to our States and local communities, and as you know, I have 
had some interest in that even in our little State of Vermont. 
I authored and added to the USA PATRIOT Act the provision 
creating an all-State minimum for the Office for Domestic 
Preparedness. Each State receives at least three-quarters of 1 
percent of the national allotment.
    Currently, 35 to 40 percent of ODP grants are distributed 
equally to the States. The rest are given out in various 
factors. For example, $2.6 billion allocated in fiscal year 
2003, at least $1.7 billion of that would go to those places 
deemed to be major terrorist targets.
    I now hear that officials from your Department plan to 
announce soon whether they will propose a change in the formula 
to be issued. I ask and I want you to know that when the 
supplemental appropriations went through, the managers 
specifically included reference to the all-State minimum, 
reaffirming Congress's support to the all-State minimum, at the 
same time, providing additional money for those obvious 
targets, like Washington, D.C. or New York City. So are we 
going to see a new proposal coming out?
    Secretary Ridge. Senator, thank you for asking the 
question.
    Senator Leahy. I am sure it surprised you that I asked 
this.
    Secretary Ridge. You and I have had this discussion, and 
frankly, we need to have more, both public and private, 
discussions with you and your colleagues because this is one of 
the most important things we can do in the fiscal year 2004 
budget.
    As of today, the Department of Homeland Security will put 
the applications online for that $1.5 billion and we have got 
the Congress appropriated $1.3 billion 80/20, $200 million of 
50/50 State and local. You did give us with those dollars, the 
flexibility to depart from the basic traditional ODP funding 
formula. You also gave us $700 million for the high-threat, 
high-vulnerability areas.
    We have made an internal decision, Senator, to use the 
traditional formula for the $1.3 billion. We ran a variety of 
numbers back and forth----
    Senator Leahy. What do you mean by traditional formula?
    Secretary Ridge. It is the funding formula that says you 
start with three-quarters of 1 percent per State----
    Senator Leahy. Which is what I wrote into the PATRIOT Act--
--
    Secretary Ridge [continuing]. Plus population, and we 
really appreciated being given the discretion, but I really 
thought the traditional formula would be more appropriate for 
that pool of dollars, because applying a threat vulnerability 
and critical infrastructure piece on top of that is going to 
take some work with the Congress of the United States in order 
to come up with that formula. So those dollars will be 
distributed according to the traditional formula.
    It is much easier for us to--it is very difficult on a 
Statewide basis, at least it was in the few days, in the 
several days we have had to work out a formula, to take a 
threat assessment and an assessment of critical infrastructure 
and apply it nationally. It is a lot easier to apply that kind 
of approach to a major municipal area or region. So----
    Senator Leahy. But we have given extra money for that.
    Secretary Ridge. And we are going to use the discretion. So 
in answer to your question, the largest pool of funds are going 
out to the traditional.
    Senator Leahy. Okay.
    Secretary Ridge. Vermont is going to get their money. Every 
other State is going to get their share of those dollars under 
the traditional formula until we can reach an agreement with 
Congress as to what the modifications might be for the new 
allocation, because I do think we need to change it, but----
    Senator Leahy. Is this traditional going to be part of the 
fiscal year 2004----
    Secretary Ridge. That is the conversation and the debate 
probably that you and I and others will have, Senator.
    Senator Leahy. Well, let us----
    Secretary Ridge. The answer ultimately----
    Senator Leahy [continuing]. I mean, look at that managers' 
statement when we have it, because there is still a lot of 
support for that.
    Secretary Ridge. And I believe that there should be a 
minimum going to every State.
    Senator Leahy. I mean, just to set up the office, put the 
phones, and have people in, whether you are a small State or a 
large State, there are certain basic costs that are going to be 
the same.
    Secretary Ridge. Right, and I agree. I do think, however, 
and it bears debate and hopefully some changes in how we 
distribute dollars in the future, that coming to some agreement 
with Congress with regard to what value you add to a threat 
over a year period if the presence of critical infrastructure 
in that area or in that State, that is a lot easier to take 
that information, Senator, and apply it to a municipal area or 
to a region----
    Senator Leahy. And also----
    Secretary Ridge [continuing]. It is a lot easier to do that 
than it is to a State.
    Senator Leahy. Also, the State might be--I mean, this isn't 
part of my State, but you might have a small State in 
population but they have got a port or whatever else it might 
be.
    Secretary Ridge. Right.
    Senator Leahy. I will submit some questions there, but I 
would like to sit down with you and talk to you about this.
    Secretary Ridge. I look forward to it, Senator. We need to.

                  TOWNHALL MEETINGS WITH INS EMPLOYEES

    Senator Leahy. Also, we talked about INS and I talked to 
Under Secretary Hutchinson about this. He mentioned the town 
hall meetings you have done with new DHS employees in Miami and 
elsewhere. We have 1,600, or more than that, but were INS 
employees who are now DHS employees in Vermont. They are those 
hard working, patriotic, conscientious people you have talked 
about.
    I would invite either you or Under Secretary Hutchinson to 
come to Vermont and talk with them. I think you would find it--
the snow has gone away, but from Pennsylvania, you know--
Senator Harkin says it is down to two feet deep, but you 
understand what weather is.
    But I think--the reason I mention this, even though it is a 
small State, this is actually one of your larger installations. 
I would urge you or Asa to come up. These people are not 
political. They are not partisan. They are concerned Americans. 
I think you would benefit by it and I know they would benefit 
by it, but I also think DHS overall would benefit by it. So I 
would urge you to do that. I think you would be welcomed by 
everybody from the governor on through on that. The governor 
and I are different parties, but I think we would join equally 
in your welcome.
    Secretary Ridge. Thank you, Senator. I appreciate that 
invitation.
    Senator Leahy. Thank you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Leahy, for your 
contributions to the hearing.
    Senator Harkin.

                  DHS COORDINATION WITH STATE OFFICES

    Senator Harkin. Thank you, Mr. Chairman.
    Mr. Secretary, I just have basically three questions. One 
has to do with a coordination between DHS and State offices. In 
the last session we had, I asked you a question and you 
responded in writing regarding two sites in Iowa that were 
supposed to be protected. The letter I got from your office 
said, and I quote, ``Governors and State homeland security 
providers were provided with examples of facilities and systems 
within their States that met these criteria from a Federal 
perspective. These references are intended as examples only,'' 
et cetera, et cetera.
    So I passed that back out to Iowa and they said that that 
was not right, that Iowa was told that the two specific bridges 
were the ones to be protected, and that seemed to be the view 
from several other State directors, as well. In fact, one sent 
an e-mail that they said that they were specifically told by 
FEMA that this answer that I got was not correct, that sites 
were specifically told to be protected.
    So again, I want to get this cleared up because there seems 
to be some concern, and I can say openly that the two sites in 
Iowa are two railroad bridges that go over the Mississippi. 
Well, we have got two rivers. We have got the Mississippi on 
one side and the Missouri on the other. Those railroads keep 
going on, so you protect two on one side but nothing on the 
other side.
    I am wondering about the coordination here. That is my 
question, just on coordination between the State offices and 
DHS. Iowans feel they were told they have got to do those two 
sites and nothing else, and what I am getting from your office 
is, no, those were just supposed to be examples but not 
specific. I am trying to get this kind of cleared up, is all.
    Secretary Ridge. First of all, Senator, I appreciate the 
inquiry. There were, and I can't assess right now he said, she 
said, what was said.
    Senator Harkin. I know that.
    Secretary Ridge. Clearly, we gave specific directions to 
some communities to deal with specific pieces of 
infrastructure, and I know that for a fact.
    Senator Harkin. I can believe that, yes.
    Secretary Ridge. Whether or not those were included in the 
communication to Iowa, I will go back and double-check. The 
point being, however, that as we ramped up Liberty Shield, in 
addition to providing Federal direction to secure certain 
pieces based on our analysis of risk management and the loss 
that would be incurred if something transpired at that 
particular site, we also said to governors, that is what we 
want you to do, but, I mean, at some point in time, we have to 
rely on the governors and others who may view other pieces of 
infrastructure that they want to support and defend and secure, 
as well.
    So I will get back to you on that. But the challenge we 
have, and we accept the challenge, is communicating in a timely 
and accurate way the kind of support we need with our friends 
at the State and local level, and I believe that there is no 
other agency in the history of the Federal Government that 
communicates more frequently with the States and locals.
    [The information follows:]

    At the onset of Operation Liberty Shield, the Iowa State Homeland 
Security Advisor was specifically asked by the Department of Homeland 
Security to do two things: protect specific sites, and identify other 
sites that should also receive protection, based on a set of criteria 
that the Department provided. Specifically, we requested that Iowa:
  --Ensure that appropriate, visible, protective measures were in place 
        for the following two critical assets:
    --BNSF Iowa End Rail Bridge--Fort Madison, Iowa
    --Union Pacific Iowa End Rail Bridge Clinton, Iowa
  --Based on an additional set of 13 law enforcement sensitive criteria 
        provided to every State and Territorial Homeland Security 
        Advisor, identify any other assets in the State of Iowa that 
        met these criteria, and consider putting protective measures in 
        place at these sites, as well.
    The Department provided a report template and asked the states to 
report periodically on specific actions taken in response to Operation 
Liberty Shield. The Department also told the States, through their 
Homeland Security Advisors, that it would be requesting supplemental 
appropriations in order to try and help defer costs for actions taken 
by the States during Liberty Shield.

    Secretary Ridge. We think we have a good communications 
system now, Senator, but we know it has to be better because 
the relationship for us to be able to secure the country is 
going to have to be a lot stronger and the confusion that 
arises in your statement, we cannot afford to have that occur 
if we are to secure the country in times of need. There should 
be no hesitation if instructions are given, secure that place, 
and we all need to understand that.
    Senator Harkin. I appreciate that very much.

                 PARALLEL EMERGENCY MANAGEMENT EFFORTS

    I was meeting with some of my fire fighters from Iowa 
recently this morning and it has been brought to my attention 
that there is a concern in my State that some of the new 
provisions for training is going almost on a parallel level 
with what is already existing with the existing Fire Marshal in 
Iowa. We have the Iowa Department of Emergency Management that 
does the DHS work, where your efforts flow through. They want 
to set up, for example, new training teams for bomb disposal. 
That already exists under the Fire Service Training Bureau in 
Iowa, the Fire Marshal. As they told me, first responders need 
to be trained in the basics like hazmat, basic fire fighting 
training. That already exists.
    But now, it seems that the Iowa Department of Emergency 
Management is going to set up other parallel types of systems 
when this is already existing, and so again, I am wondering if 
we are looking at existing structures within States that 
already do the kind of hazmat training, basic fire fighting 
training, things that are already in place, utilizing them 
rather than setting up some parallel kind of structure.
    Secretary Ridge. Senator, you tee it up for me. This is 
precisely why I believe that once our Department sets standards 
for this kind of training, each State should be required to 
submit a plan to tell us what agency within that State is going 
to provide the training. It makes no sense, to your question, 
to have two or three centers unless the capacity matches the 
need, but to be setting up two separate, independent training 
programs that may only be operating at 50 percent capacity, 
particularly when you already have an existing training 
program. I mean, that goes to the very rationale behind setting 
up State plans to deal with questions of training, equipment 
acquisition, distribution of funds, and the like. The question 
is germane as to what we are trying to avoid in the future.

                   COSTS OF PROTECTING INFRASTRUCTURE

    Senator Harkin. I appreciate that very much, Mr. Secretary. 
One last thing, or two last things.
    I looked at the cost supposedly for protecting these two 
bridges in Iowa and it comes out that the cumulative daily cost 
estimate to protect these two bridges is $11,000 a day, and I 
am wondering if I can get that contract.
    Eleven-thousand dollars a day. Now, this is not from you. 
This is coming out from underneath.
    Secretary Ridge. We have to beat a lot of other people to 
the head of the line, Senator.
    Senator Harkin. I think so. But I am hopeful--I say it 
because I am looking at the cost breakdown, and I am saying, if 
this is what is going on around the country, because we are 
spending a lot of money, I think, needlessly.
    So I guess my point is, I hope that you have a good 
Inspector General on board and to really start taking a look at 
some of these cost estimates that come in and what they are 
doing. I look at this, to protect two bridges, per day, $11,000 
a day. It just doesn't make sense.
    Secretary Ridge. One of our goals, Senator, now that we 
have stood down Liberty Shield, is to go back and review at 
different sites the costs that were allegedly incurred at each 
site, and I think after this, we debrief ourselves and scrub 
all those numbers and then compare them to what otherwise might 
have occurred, we will be able to report back to you and give 
you an answer, if that is the common occurring cost or if there 
is a cheaper and more efficient way of providing the security 
at those bridges.
    Senator Harkin. Well, I sure hope you look at this and I 
hope you have got good watchdogs down there to look at this----
    Secretary Ridge. We will.
    Senator Harkin [continuing]. Because this stuff is coming 
up, and I am not saying that the bridges aren't vital and 
needed, but the cost of this protection is just way out of 
line, just way out of line. Again, I am just concerned, if 
this, what happens when you multiply that by all the different 
sites around the country and what you are doing and how much 
money this is. So I hope you will really look at it.
    Secretary Ridge. It does, and it also gives to mind, 
Senator, if you will, the notion that we don't have enough 
money in the Federal Treasury, the State treasury, and the 
personal pocketbooks of every American citizen to harden every 
target, every site. We have to manage the risk, and determine 
what is the infrastructure that if it was destroyed would 
result in the greatest loss, catastrophic loss of life? What is 
the infrastructure, if destroyed, would have the greatest 
catastrophic economic impact?
    I know as a former governor in Pennsylvania, I had over 
100,000 bridges. There were some that I had to consider were 
far more important to safety, security, and economic matters 
than others, and I think that is the kind of assessment that we 
have to do nationally, and we have to have our friends at the 
State and local level help us with it.

                  COLLABORATION WITH CIVIL AIR PATROL

    Senator Harkin. One last thing. I know you met with the 
Civil Air Patrol.
    Secretary Ridge. Yes.
    Senator Harkin. I appreciate that very much, and I hope you 
are going to continue to work with the Civil Air Patrol.
    Secretary Ridge. We had a very good discussion with them. 
As you pointed out in our earlier conversation, they do provide 
considerable benefit as they work with some of the other units 
of the new Department and we are going to look for ways to take 
advantage of their patriotism, their equipment, and their 
professionalism and see if we can expand their mission in 
certain areas.
    Senator Harkin. And they are cost effective.
    Secretary Ridge. Oh, absolutely.
    Senator Harkin. Thank you very much, Mr. Chairman.

               MANAGEMENT OF FIRST RESPONDER INITIATIVES

    Senator Cochran. Thank you, Senator, for your contribution 
to the hearing.
    Mr. Secretary, the fiscal year 2004 budget request proposes 
to manage the first responder initiative through the Office for 
Domestic Preparedness and the budget requests $3.5 billion in 
funding. You are earmarking $500 million for fire fighters' 
assistance and $500 million for law enforcement. My question 
is, how do you propose to allocate these funds to fire fighters 
and law enforcement agencies? Do you intend, for example, to 
retain the current grant programs now managed by the Emergency 
Preparedness and Response Directorate which provide emergency 
management performance grants to States or grants directly to 
fire departments through the Assistance to Fire Fighters grant 
program?
    Secretary Ridge. Senator, the $500 million that we have 
earmarked for the fire departments, though we do want to shift 
it from the Emergency Preparedness and Response Directorate 
over to ODP, would be distributed according to past practice. 
Again, we would like the dollars distributed for equipment and 
training exercises consistent with a Statewide plan to build up 
their capacity to deal with emergencies. But they have a very 
thorough review process that they have put into place and I 
think everybody's interest would be best served if we just 
continued that practice.

                        HIGH THREAT URBAN AREAS

    Senator Cochran. There was $100 million in fiscal year 2003 
funds announced by the Department on April 8 to high-threat 
urban areas.
    Secretary Ridge. Correct.
    Senator Cochran. This included distributions to seven 
cities--New York City, Washington, D.C. and the National 
Capital Region, Los Angeles, Seattle, Chicago, San Francisco, 
and Houston. Do you intend to use the same formula? I presume 
there was a formula used for awarding these funds. Are you 
going to continue to use that for the additional $700 million 
provided in the fiscal year 2003 Wartime Supplemental 
Appropriations Act?
    Secretary Ridge. Senator, that is our intention. As I 
mentioned to Senator Leahy, part of the discussion we need to 
have, and hopefully we can resolve it in the fiscal year 2004 
appropriations process, is the formula that you would direct 
the Department and this Secretary to use--that we need some 
more permanency, I think, with regard to the funding formula 
and maybe more specificity. But you have given us the 
discretion.
    We find that it is much easier to go to the FBI, go to the 
CIA, go to our own intelligence analysts and render an 
assessment with regard to threat and vulnerability around a 
locality rather than a State because of the nature of the 
information we receive. So we would take that assessment. We 
put a value on it. We take a look at the critical 
infrastructure in a region, and more often than not, you will 
find in a more densely-populated area, either a city or a 
county, you will find a lot of the critical infrastructure that 
you need to protect, for obvious reasons.
    And so the funding formula that we used before took in 
threat and vulnerability, critical infrastructure, both public 
and private, and then density of population. We assigned values 
to it and we are going to use basically the same system. 
Because we have seven times as much money, the distribution of 
those dollars will be much wider. We made the decision 
internally, Senator, that we could give a little to a bunch of 
places and they wouldn't be able to do significant things with 
it, and if it is about building up infrastructure and hardening 
targets, we decided that would limit it. But the generosity of 
the Congress, coupled with the same discretion, means that more 
cities will benefit, more regions will benefit.

                              WATCH LISTS

    Senator Cochran. Thank you for that. I noticed in today's 
papers there was a discussion of a GAO report that is being 
made available today, and, as usual, the content of that report 
was leaked to the press through advance stories. It had to do 
with the so-called watch list----
    Secretary Ridge. Right.
    Senator Cochran [continuing]. And the way that is compiled. 
I don't know whether you have had an opportunity to review the 
report--I don't see how you could--but you may have some 
information about it and at least have some information about 
whether or not we are making progress, and that is the 
question, to centralize and to have a coherent way of 
determining who we should be on the lookout for as they are 
trying to come into our country or move around the country that 
pose a threat to our Nation's security.
    What about the watch list issue? Is there going to be, and 
when can we expect there to be a watch list that can be shared 
with local officials and others that need to know so they can 
participate in doing their jobs, helping contribute to the 
safety and security of our country in this way?
    Secretary Ridge. Senator, we began working with the 
multiple agencies that generate watch lists many, many months 
ago to consolidate not only the database, but then to make sure 
that the right people had access to the entire database. That 
has been an ongoing initiative within the White House and now 
in the Department of Homeland Security. It will be facilitated 
enormously as a result of the creation of the President's 
Terrorist Threat Integration Center, which will be the venue 
that this kind of information is consolidated.
    So I can't give you a specific time frame. I think we are 
fairly close to finalizing the consolidation itself. The next 
piece of that is making sure that we have the technology to 
distribute the information to the points of interest and 
concern around the country and around the world so they can 
take advantage of it. Part of the time delay is just making 
sure that people with the same names or similar names on 
multiple databases are--confirming they are the same or 
different individuals. I mean, there is a technical piece to 
this that has been a little cumbersome.

                  TERRORIST THREAT INTEGRATION CENTER

    But under the President's Terrorist Threat Integration 
Center, you will see the consolidation and then the 
distribution of these, and the time table, I think, will be 
more easily identified in the next couple of weeks. I think we 
can give you a more specific answer on that.
    [The information follows:]

    The GAO is correct in its assessment that the government's approach 
to using watch lists is decentralized because the lists were developed 
in response to individual agencies' unique missions. Those historical 
missions include the duties of the law enforcement and intelligence 
communities, and now include the mission to defend the homeland. The 
effort to consolidate and establish the connectivity of information 
contained in historical databases, from which watch lists may be 
generated, requires close coordination among my Information Analysis 
and Infrastructure Protection Directorate, several other Departments, 
and the Terrorist Threat Integration Center. Discussions among the 
interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.

    Senator Cochran. When we were considering the legislation 
in the Governmental Affairs Committee, we assumed that the 
Department of Homeland Security would actually do this and 
would be the lead agency in the Administration to do this, and 
then the creation of the Terrorist Threat Integration Center 
that you just talked about seems to either be supplanting or 
supplementing in some way the work of the Department. Are you 
still going to conduct your own intelligence analysis?
    Secretary Ridge. Oh, yes, absolutely.
    Senator Cochran. Are you going to get information from the 
intelligence agencies and compile that and analyze it and then 
give it to the White House, to this Terrorist Threat 
Integration Center? How is that going to work?
    Secretary Ridge. Senator, first of all, we are going to 
continue to work and have been working with the CIA, the FBI, 
and the Department of Defense to set up the Terrorist Threat 
Integration Center. They are aware of our work to integrate the 
databases because we were working with those agencies. One of 
the advantages of having this much broader Threat Integration 
Center is that we will have a much more substantial capacity, 
not only to integrate names but actually start working on 
individuals and building up the kind of information base about 
these individuals and their potential conduct.
    Having said that, the Congress said very specifically that 
we are to have our own Information Analysis and Infrastructure 
Protection Directorate. We will be a full partner in the Threat 
Integration Center. We will take some of our analysts and have 
them working on the analytical and assessment products that are 
generated by the Threat Integration Center. But that will not 
be a substitute for our own analysts working in that 
directorate. It won't be a substitute for our own competitive 
analysis.
    The difference will be that the analyst in the Threat 
Integration Center, and here, this is where it adds enormous 
value to the new Department, those analysts as full partners 
have access to everything. We are a provider of information to 
the TTIC. We are also a consumer. The analysts that we have 
from our Department in that center are going to have access to 
all the raw data, all the reports, everything that everybody 
else has. The analysts in our Department won't have that access 
directly, but they will have it indirectly through their 
counterparts in the Threat Integration Center. So we view it as 
a full partnership. We view it as enormous value added to the 
unit that Congress authorized in the legislation creating the 
Department.
    Senator Cochran. Thank you. Senator Byrd.
    Senator Byrd. Thank you, Mr. Chairman, and again, thank 
you, Mr. Secretary.

                   FEDERAL EMPLOYEE RIGHTS UNDER DHS

    One of the most contentious issues during last year's 
debate on the creation of your Department, Mr. Secretary, 
involved the administration's plan for its treatment of the 
thousands of Federal employees that were being pulled away from 
their various agencies with their differing pay and benefit 
structures and merged into this huge new entity. Many were and 
many still are concerned that their hard work and their years 
of service would amount to little more, or to nothing, perhaps, 
once the final personnel plan is formulated at the end of this 
year.
    Now, their fears are compounded, and so are mine, may I 
say, when they read the administration's proposal to undertake 
a massive overhaul of the Department of Defense's personnel 
system. I suppose we are talking about 660,000 persons there or 
some such number.
    I find it more than ironic to learn about these plans to 
contract out secret services. After the terrorist attacks on 
September 11, 2001, we found out, to date, about some of the 
inefficiencies that private security contractors brought to our 
Nation's airports. There were gaps in security. There were lax 
background checks. We heard about the failure rates in security 
screens. We heard that there were criminal aliens, even, who 
were being employed by these security agencies to check 
passengers, to check baggage and so on at the Nation's 
airports. I was astounded, and I am sure other people were, 
too, to learn that, that there were aliens and even criminal 
aliens--aliens who had criminal records, perhaps I had better 
put it that way--who were employed by these private security 
contractors.
    To address some of these problems, Congress created the 
Transportation Security Administration. We federalized the 
security system. Private contractors had failed, so we stepped 
in. One mission of this new agency was to do a better job than 
the private contractors.
    Now, believe it or not, we hear of plans to contract out 
security functions again. I am dumfounded. Have we not learned 
any lesson from September 11? Now, this is an enormous, an 
enormous opportunity for abuse, and it is coming.
    In this regard, what is your Department contemplating in 
the area of contracting out current Federal jobs, Mr. 
Secretary?

                        OUTSOURCING FEDERAL JOBS

    Secretary Ridge. Senator, you referred, first of all, to 
the work we have undertaken to harmonize dozens and dozens of 
pay and personnel systems that are part of the 22 departments 
and agencies that have become part of the Department of 
Homeland Security, and first, I want to assure you that the men 
and women represented in those agencies are very much involved 
in the process of developing that personnel system. We have 
begun. We had discussions with the representatives of both the 
organized workforce and the non-union workforce to set up the 
process. We have a fairly significant outreach effort where 
members of the team are going to visit, I think as many as six 
cities, where we are going to bring the employees from the 
different agencies in to talk about it.
    We also have assured them, and the Congress in this 
language creating the Department assured them, that the 
personnel system will be based on the principles of merit and 
fairness and that the historic protections afforded Federal 
employees will be provided in the new human personnel system. 
So that process has moved forward.
    I am aware of the concerns that you raised, the 
privatization of the security force with regard to airport 
security prior to TSA, and Senator, I can't tell you today that 
we have any plans to privatize any of this work out. But I also 
cannot tell you today that there may be occasions in the future 
where if we find it is appropriate to get additional support 
through the private sector, we will.
    But I have, as we speak today, engaged in these discussions 
with these men and women, 175,000 strong. We have no plans to 
privatize our support at the borders, our work at the national 
labs, privatizing what used to be the investigative or the 
inspective role of the Animal Plant Health and Inspection 
Service, the legacy Customs or INS.
    Frankly, Senator, the beautiful thing about the new 
Department, and for all those who say that it is such a tough 
job, is that we, unlike the TSA, do not have to go out and hire 
45,000 or 50,000 people and train them to do the job. Most of 
the men and women that are working in the new Department have 
been at their job for a long time and do it pretty well. We 
have to give them, I think, the kind of leadership, the kind of 
support, and the kind of technology so that they can do it even 
better. But right now, Senator, we don't have any plans of 
privatizing that critical work out to the private sector.
    Senator Byrd. Mr. Secretary, are there proposals under 
consideration to contract out existing activities in specific 
agencies?
    Secretary Ridge. It is a big agency and I can't tell you 
that I see the contracts that my colleagues are signing on a 
day-to-day basis. Over a period of a year, there will be 
literally hundreds and hundreds. But I am not presently aware 
of any contracting out of existing responsibilities that the 
men and women are presently engaged in.
    Senator Byrd. So your answer is----
    Secretary Ridge. To my knowledge, the answer is no.
    Senator Byrd. So----
    Secretary Ridge. There may have been some contracts that 
were let for privatization before the Department was created. 
That could very well be the situation, and where they are, I 
don't know. I mean, I think it is possible. But in terms of new 
ones, I am not aware of any.
    Senator Byrd. Do you not feel that you should be made aware 
of such?
    Secretary Ridge. I think, given the sensitivity of where we 
are with the negotiations, with the employees, the concern that 
members of Congress would have without that course of action, 
that is why I feel pretty confident in telling you that I am 
not aware of any right now because I think I would be made 
aware if it was an intention. I would hopefully be made aware 
when it was an intention to do rather than a contract that was 
let.
    Senator Byrd. Well, Mr. Secretary, I would hope--this is a 
very--I would say this is a very serious issue. We are going to 
hear more about contracting out. William Wordsworth said, no 
matter how high you are in your department, you are responsible 
for what the lowliest clerk is doing. And so this, I dare say, 
will not be the last time that questions will be asked about 
contracting out, and I would adjure you to not just wait until 
you are made aware of such, but that you make it your business 
to become aware and let the subcommittee know what criteria 
would be used and what examples of activities that are being 
considered. Would you do that?
    Secretary Ridge. I will, Senator.
    Senator Byrd. Agencies are encouraged to submit management 
plans to the OMB which incorporate the competitive sourcing 
quotas outlined in the President's budget. Information from the 
OMB indicates that these plans, while submitted to the OMB for 
approval, can be released to the public at the discretion of 
the agency heads. If this subcommittee is to appropriate $36 
billion to employ 179,000 full-time equivalent positions, the 
subcommittee would expect you to provide Congress with a copy 
of any management plan or competitive sourcing proposal that 
the Department submits to the OMB. When do you expect to submit 
a management plan to the OMB and how soon could that plan be 
made available to this committee?
    Secretary Ridge. Senator, if we understand your very 
appropriate question correctly, I think it would be submitted 
to them by the end of August.
    Senator Byrd. Would the Secretary----
    Secretary Ridge. The end of August is the timeframe. The 
end of August.
    Senator Byrd. The end of August?
    Secretary Ridge. Yes, sir.
    Senator Byrd. Very well. I hope, Mr. Secretary, you will 
take a long look at this matter of contracting out and make 
yourself aware of what is going on in this area. If there is 
something going on, I hope you will take a long look.
    The safety and the security of the Nation, that is what you 
are talking about. That is what we are talking about. That is 
what the American people expect. The safety and security of the 
Nation should not become a for-profit endeavor. Security of the 
people should be the driving motivation, and I believe in my 
heart that that is the way you see it. The security of the 
people should be the driving motivation, not a business bottom 
line.
    Very well, Mr. Chairman. Are we going to meet later? We are 
going to have a vote at noon, are we?
    Senator Cochran. Senator Byrd, that is my understanding. A 
vote was supposed to occur at 12 o'clock noon, and it is 12 
o'clock. I hope we can recognize Senator Specter, who has come 
back and did not ask questions. He did make an opening 
statement. My intention would be to recognize Senator Specter, 
and then if we do have a vote, simply declare a recess. I have 
two or three more questions to ask the Secretary, and I think 
you do, too.
    Senator Byrd. Yes, thank you, Mr. Chairman. I also have an 
appointment at one o'clock. I wonder if the committee chairman 
and the Secretary could consider coming back at 1:30 or 2:00--
--
    Senator Cochran. My hope is that we could be through by one 
o'clock, so that wouldn't interfere with your appointment.
    Senator Byrd. Oh, you don't----
    Senator Cochran. My hope would be that we would go vote at 
12 o'clock, or as soon thereafter as the signal is given for 
the vote, and we could return and complete our questions by one 
o'clock.
    Senator Byrd. I see. I see. So if a Senator has a stomach 
ulcer, he will just have to bear with it----
    Senator Cochran. And that don't might have one, or might 
get one. We can sympathize with that Senator more 
appropriately.
    Senator Byrd. I have several questions, if the----
    Senator Cochran. I hope we could complete action by one 
o'clock, Senator, if we can. I would like to try, anyway.
    Senator Byrd. Very well. I will try with you.
    Senator Cochran. That is great. Senator Specter.
    Senator Specter. Thank you, Mr. Chairman.

                              WATCH LISTS

    Mr. Secretary, are you familiar with the issue of the watch 
list information which various Federal agencies have? That was 
a critical factor on September 11 when two of the hijackers 
from Kuala Lumpur were known by the CIA, and information about 
them was not transmitted to the Immigration and Naturalization 
Service. The reports of the General Accounting Office, which 
are released today, makes a rather pointed comment that some 
agencies do not even have policies for sharing watch list 
information, and my question is, to what extent is that true?
    Secretary Ridge. Senator, we began the work several months 
ago when I served the President as the Assistant to the 
President for Homeland Security and we have continued that work 
in the new Department. I have not seen the GAO report, so I 
can't respond specifically, but to accelerate the creation of 
those essential memorandums so that there was not only a 
consolidation of the watch lists that are generated by multiple 
agencies in this government and a confirmation of the accuracy 
of the information and names on that list, but also a 
distribution mechanism so that the right people could get 
access to the consolidated list.
    That is something we have been working on for several 
months. It is something that I believe will be accelerated with 
the creation of the Terrorist Threat Integration Center that 
the President has created by Executive Order, which is going to 
be directed by the CIA, the Deputy Directors from the FBI, and 
then the two Associate Directors will be from the Department of 
Homeland Security and from DOD.
    I haven't seen the report. I read the press accounts of the 
report. It is something that we began working on several months 
ago. We have accelerated the process. We ran into some 
complications along the way. We have overcome those, and I 
think with the TTIC creation, it will accelerate it and get it 
to the point where you and I believe that it needs to exist, 
one venue, consolidated database, but just as importantly of 
having all the information in one place, making sure that the 
right people have access to all the information.

                          INFORMATION SHARING

    Senator Specter. Mr. Secretary, the report goes into the 
issue of the cultural differences, which has long been a 
critical factor as to whether the CIA and FBI could really put 
aside decades of isolation, very deep-seated feelings of 
maintaining their own information. What is your evaluation, if 
there has been enough time to come to a conclusion, as to 
whether those cultural differences have been surmounted?
    Secretary Ridge. Senator, I believe that with the 
leadership of the two principals, that is precisely the 
direction that Director Tenet and Director Mueller are seeking 
to--they are not seeking, they are going in that direction. One 
of the big challenges I believe Director Mueller had, and you 
have alluded to it in both private conversation with me and, I 
presume with Director Mueller, but also in public comment, that 
the FBI prior to 9/11 had a lot of information even intra-
agency that was not consolidated, that other folks in other 
parts of the agency that might have had a point of view or 
could have used that information didn't have access to it.
    With the support of Congress and several hundred million 
dollars and a team that the Director has brought in, the 
consolidation of that and the information sharing consistently 
gets better within the FBI. I see evidence of it every single 
day, and I believe that the placement of analysts from the 
Department of Homeland Security side-by-side with analysts from 
the CIA and analysts from the FBI and other agencies in the 
Threat Integration Center will virtually assure the kind of 
consolidation and integration that you are talking about. Time 
will tell, but I am very optimistic on the capabilities and the 
capacity of this new Integration Center.
    Senator Specter. Besides the General Accounting Office 
report, there was a report by local law enforcement and a 
comment by the Chief of Police in Raleigh, North Carolina, 
Chief Jane Hurlow, who was an author of the report, said that 
local police are, used the word ``frustrated'' by what they saw 
as the FBI's unwillingness to share its vast resources and 
expertise. Now, that may be outside of the scope of what you 
have seen directly, but what would your view of that be?
    Secretary Ridge. My sense is that it is probably not the 
distribution of the kind of information that the local law 
enforcement community seeks and, frankly, as a country, I 
believe we need, is not as even and is not as complete, that we 
need to develop a system of distribution, and again, I believe 
the presence of the Department of Homeland Security and the 
Threat Integration Center, the presence of our own analysts 
within the Department, as well as I consider to be probably one 
of the best working relationships with State and locals, 
including law enforcement, of any other agency in the Federal 
Government, I see we have an opportunity to redress probably 
the legitimate concern of some of the local law enforcement 
folks who don't think they are getting the kind of timely and 
accurate information they need.
    Those who are directly connected to the Joint Terrorism 
Task Forces around the country, they have a point of view, 
although there may be varying opinions, but in the smaller 
communities where they may not have quite the same connection, 
I suspect that there is some concern that they are not as fully 
informed as they need to be.
    To that end, Senator, one of the challenges that we have 
working with the FBI is making sure they get timely information 
down, but I have seen a need for us to also ensure there is a 
mechanism that these law enforcement professionals with whom 
you worked in Philadelphia, but who are working on the streets 
in L.A. and in New York City and in Washington, D.C., they are 
developing their own intelligence gathering capacities. Some 
have their own linguists. They are starting to connect up their 
own operations. L.A. is connecting with New York. New York is 
connecting with Chicago. I suspect that you will have this 
infrastructure at the local level. They will start seeing 
patterns. They may see surveillance trends. They may keep their 
eyes on specific individuals moving around the country. They 
will have information that they want to share with the Threat 
Integration Center as well.
    So again, they have made a lot of progress, Senator, 
dramatic improvement, still a way to go, but I think the Threat 
Integration Center enhances and accelerates the consolidation. 
We still have work to do to distribute in both directions in 
order to make it an effective use of all that information.
    Senator Specter. Mr. Secretary, I am going to submit some 
questions for the record because the chairman, understandably, 
wants to conclude the hearing by one o'clock and we have an 
intervening vote, and I am sure you want to conclude the 
hearing by one o'clock. I know how frequently you appear on 
Capitol Hill and I know you have got a lot of work to do.
    But what I would like to do, and I would like to mention 
these topics, when we had the votes during the budget, there 
was support for the President on not adding money on, and those 
were some very tough votes--port security, for example, where 
we have a big port, as you know, having been the Governor of 
Pennsylvania, in Philadelphia and many other votes, and Senator 
Byrd has made a suggestion which he has commented about on 
additional funding, and we really held the line to give you a 
chance to tell us what expenditures ought to be made.

                        PUBLIC HEALTH QUESTIONS

    But constitutionally, it is the Congress, as you well know 
because you were a member of the House of Representatives for 
12 years, but I would like to know what you have in mind on the 
issue of weapons of mass destruction, where you deal with 
chemical and biological and radiological weapons. What kind of 
funding there is necessary to have an appropriate response?
    And the issue of water safety and food safety is an 
enormous issue and the experts tell us that there has to be 
very expensive monitoring which has to be undertaken there.
    Then you have the issue of quarantining at points of 
international entry, which I am told will be enormously 
expensive. And then there is the question about an attack on 
the CDC itself, Centers for Disease Control. What kind of costs 
would be involved there?
    A final question I have, which I would like your comment 
about, if the CDC comes forward and gives us a list of expenses 
they have on SARS, would you think that is a matter which would 
appropriately come within your purview to have a coordinated 
response with CDC? With SARS, that is.
    Secretary Ridge. Senator, I think given that the primary 
focus of the country relative to public health issues and the 
primary focus relative to bioterrorism issues and the like is 
within HHS and we have the extraordinary capacity of CDC and 
NIH, I think it would be more appropriately a matter for them. 
But having said that, it is a matter that rises to the level 
where we all have to take a look at our own budgets to figure 
out if we can come up with the additional dollars to support a 
national effort to deal with it. If it gets to the point where 
we have to do that, obviously, the Department of Homeland 
Security would want to be at the table to do whatever it could.
    But I do think, given the focus, the mission, and the 
experience, it is more appropriately with HHS.
    Senator Specter. Thank you very much, Mr. Secretary. Thank 
you, Mr. Chairman.
    Senator Cochran. Thank you, Senator Specter, for your 
contribution to this hearing.

                         HEADQUARTERS BUILDING

    Mr. Secretary, I have a question about your housing 
situation. I know you are temporarily located in headquarters 
here in Washington, D.C., at the U.S. Naval Nebraska Avenue 
Complex. The budget request for fiscal year 2004 includes $30 
million to design a new headquarters building and acquire a 
site for it. The implication is that a decision has been made 
to construct a new building for the Department of Homeland 
Security.
    I am curious to know what your plans are. Has a decision 
been made? Have you explored other Federal space that might be 
available or thought about purchasing an existing facility 
rather than building a new building? What can you tell us about 
the need for these funds?
    Secretary Ridge. Senator, first of all, there has been no 
final decision as to a permanent location. There is quite a bit 
of work that we are presently undertaking to find a location 
where we can house more of the Department of Homeland Security. 
I certainly invite you out to take a look at the facilities at 
Nebraska Avenue. We are limited because of substantial physical 
restraints, given the nature of that facility, so we are 
engaged in very aggressively looking at a larger temporary 
facility until a final decision is made.
    It is my understanding that the $30 million in the fiscal 
year 2004 budget is really for site selection and design if and 
when a final decision is made to build a Department of Homeland 
Security. Right now, our priority is to get a larger building 
where we can integrate more of our employees and our technology 
as we ramp up the new Department.
    We are running out of space at Nebraska Avenue. We have 
people in two or three other locations in the downtown area. In 
the virtual world, we are hooked up by the computer, but we 
think there would be enormous efficiencies and a lot better for 
all of us if we could find a larger venue to at least 
consolidate a significant portion of our operation. So it is a 
work in progress.
    Senator Cochran. We earlier approved transfer requests 
totaling $125 million for start-up costs, such as furniture, 
computers, communications equipment, and the like, and most of 
these funds, I am told, are unobligated. OMB has indicated that 
planning factors for these expenditures are being reviewed.
    I would hope, for the record, you could bring us up to date 
on the status of this need, the continued need, if any, for 
this funding, and if it is not needed, we would appreciate your 
suggestion as to how these funds could be further reprogrammed, 
if they could be more efficiently used for other purposes.
    Secretary Ridge. Senator, we are going to need them for the 
headquarters. We put some restraint on the use of those dollars 
until we can determine whether or not we are going to expand at 
Nebraska Avenue or if there is another facility available for 
us to move into.
    Candidly, we have spent about half of those dollars. We 
have been holding up on the other expenditures. We don't want 
to necessarily make an investment in an infrastructure or in a 
building or two that we are going to leave in the next 6 months 
or 18 months. So those dollars will be expended once we make a 
final decision as to where we are going to consolidate more of 
our operation, and that is the reason. We just didn't want to 
run right out there and spend them because we weren't 100 
percent sure that for the immediate future we were going to be 
located at Nebraska Avenue. The decision is pending and we 
should hopefully have a final decision on that in the next 
couple of weeks.

                           PROJECT BIOSHIELD

    Senator Cochran. We have heard from officials at NIH about 
the President's proposed new Project BioShield initiative, a 
program to acquire vaccines, treatments and products to combat 
bioterrorism. In the budget submission before us from your 
Department, we notice a request for $890 million in new funds 
for this initiative. It is a program, as I understand it, to 
accelerate research, development and procurement of vaccines 
and medications, devices, and other products to be used against 
bio-warfare agents, such as smallpox and anthrax. These 
vaccines would be stockpiled for emergency use if they are 
considered safe.
    But, my question is the need that we have been told exists 
for this to be mandatory spending and not subject to the annual 
appropriations process. The Administration requests these funds 
be authorized by Congress as permanent indefinite funding, not 
subject to the annual appropriations process. That is not going 
to sit very well, I will be honest with you, with this 
Committee. I notice on the calendar of legislation that this is 
a subject that is going to come before the Senate pretty soon. 
So I am asking, why would you want to avoid the annual 
appropriations process for this particular project when all the 
others under the jurisdiction of the Department are subject to 
annual appropriations by Congress?
    Secretary Ridge. Senator, I think the basic principle 
around the Administration's request is to create within the 
Executive Branch a financial capacity to respond immediately 
upon the certification of a bioterrorist threat by the 
Department of Homeland Security and Health and Human Services 
so that an immediate market would be available to the private 
sector to commit research and development dollars to develop 
diagnostics and vaccines in a hurry to respond to a crisis, 
bioterrorism crisis with which our intelligence community felt 
we were threatened by.
    Frankly, there are four vaccine companies left in the world 
and if we have a crisis that would require us to go to one or 
all of them and say, we need a diagnostic. One of the 
challenges right now with the SARS virus is that there is not a 
good diagnostic tool out there. Now, there may be a large 
enough marketplace, and apparently it is since it is worldwide, 
that perhaps the private sector will invest its own research 
and development dollars and in the next several weeks come up 
with a diagnostic test. It is obviously going to take them a 
little longer to come up with a vaccine if they think that it 
is necessary for domestic or international consumption.
    The bottom line is that having that capacity available to 
the President of the United States in the event of a threat of 
a bioterrorist incident gives us the ability to go into the 
private sector to assure them that a market will be there to 
purchase the diagnostic or vaccine.
    Senator Cochran. Thank you very much for your explanation. 
We will review that very closely with you and continue to 
consult with you on possible disposition of that request.
    I have other questions connected to that issue and I will 
just submit those and ask you to respond for the record.
    Secretary Ridge. Yes, sir.
    Senator Cochran. Senator Byrd.

         CONGRESSIONAL ABILITY TO REACT IN EMERGENCY SITUATIONS

    Senator Byrd. Thank you, Mr. Chairman. I am very interested 
in the question you just asked as well as other questions.
    I put a hold on this virus shield legislation before the 
recess. I don't mind stating when I put holds on matters. The 
specific issue that you have raised here, and I want to stress 
that I share your viewpoint and I hope that the administration 
will work with Congress to resolve this issue.
    Mr. Secretary, I can understand the kind of emergency that 
you probably contemplate, but remember, and I hope the 
administration will remember, that within three days following 
September 11, Congress, both Houses, passed a $40 billion--am I 
not correct? I am correct, I am told--$40 billion emergency 
package, just like that, the snap of my finger. Congress can 
act and will act when the emergency is there and when it is 
clear that it is an emergency that needs it.
    And I want to tell you one thing. We have to guard the 
constitutional prerogatives, responsibilities, and authorities 
and powers of Congress in any emergency, and I am not in favor 
of this administration or any other administration seeking more 
of the powers over the purse than the Constitution permits.
    So if there is an emergency, let us know. If it needs to be 
done in three days, let us know about it. Show us the 
justification. I am not just talking to you, and I hope you 
will understand that.
    Secretary Ridge. I understand, Senator.
    Senator Byrd. I don't say this in that spirit. But I am 
saying to the administration, and it needs to be said to this 
administration, if it never needed to be said to an 
administration, and this administration will be succeeded by 
other administrations, and I have always found that the 
executive branch and the judicial branch are very zealous in 
protecting their prerogatives, their powers, their authorities.
    The executive branch is out there at some point on the 
compass, at some place in the globe working every minute of 
every 24 hours while the Congress is sleeping or while the 
Congress is in recess or while the Congress is off on a break 
of some kind. The legislative branch is not always out there 
and the executive branch and the judicial branch are always 
ready to protect and to sound off and to stand up and to stand 
straight and tall when it comes to the protection of their 
authority. The one branch of the three that is not as zealous 
as it ought to be is the legislative branch.
    Now, I understand that cases can be made for quick action, 
but the record can be cited to show that the Congress, when the 
need is for quick action, that Congress can act and will act, 
and I hope, Mr. Chairman, that you will continue to be zealous 
on this point and other points.
    When I came to Congress, I guess 85 percent of the monies 
came through the appropriations process, and today, only about 
a third or less come through the appropriations process. Now, I 
stand with you and will stand as long as I am a member of this 
Senate and live and can speak, I will be with you on this. I 
will respond to any emergency as quickly as will President 
Clinton or President Bush or President Reagan or President 
Nixon or President Truman. Truman is my favorite Democrat 
President in my time here, and I have been here longer than 
anybody else, 50 years.
    Did you know that out of 11,707 men and women who have 
served in Congress in these 215 years of our existence, out of 
11,707, only two have served longer than this Senator from West 
Virginia. I wasn't as zealous in protecting the constitutional 
power of the purse when I first came here to the Senate as I am 
today. But I have been on this committee now, I am in my 45th 
year, and this administration or any other administration--I 
don't care if it is a Democrat. It doesn't make any difference 
to me if it is a Democrat down there in the White House. I feel 
exactly the same way.
    I didn't go all the way with Mr. Clinton. When he asked me 
to bend to include the health reform in a reconsideration 
package so it would be severely limited debate time, I said, 
no, that is not the purpose of the Senate. We are here to 
debate. The American people need to know what is in that health 
package and we as members need to know what is in it. And so I 
did not bend and I will not bend for any President, with all 
due respect to every President.
    I am very concerned about this thing. Give them a little 
here and a little there and a little here, and the first thing 
you know, as Mr. Dirksen said about spending billions of 
dollars, the first thing you know, a little bit here and a 
little bit there and the power over the purse would be vested 
down there in the White House. And if you have studied the 
history of England like I have, you will be aware of the blood 
that has been shed by Englishmen to wrest the power of the 
purse away from tyrannical monarchs and to vest it in the House 
of Commons, the people's representatives.
    I say all this with due respect to you, but I am with you, 
Mr. Chairman, on this. Any time, anywhere, any hour of the 24 
hours, I will be with you.

                      TRACKING OF FOREIGN VISITORS

    Now, on to a couple of my questions. One crucial component 
of ensuring our homeland security is ensuring that we as a 
government know which foreigners are visiting our country, why 
they are here, and that they depart when they are required to 
do so. Our existing visa tracking systems are not doing the 
job. One of the major criticisms of the former Immigration and 
Naturalization Service was and remains its inability to 
adequately track the entry and subsequent exit of the non-U.S. 
citizens who come to the United States and for whatever reason 
overstay their visa.
    For instance, only recently, the Department of Justice's 
Inspector General released a report stating that there are 
significant deficiencies in the tracking of foreign students. 
The Acting Assistant Secretary of the new Bureau of Immigration 
and Customs Enforcement agreed with the IG's conclusion that 
they need more resources to properly manage one of the many 
tracking systems.
    What steps are you taking to ensure that this system is on 
track and can be deployed in a timely fashion? I believe the 
budget before us requests only $480 million for the new entry-
exit visa tracking system. This is only a $100 million increase 
over last year's level. Many members of Congress and outside 
experts are concerned about the lack of progress in 
implementing this system. It is my understanding that the 
Department has not yet determined what technology will be used 
in developing the system. So what steps are you taking?

                           U.S. VISIT SYSTEM

    Secretary Ridge. Senator, the entry-exit system that we now 
like to call the U.S. VISIT System was one of the highest 
priorities for the new Department as we took a look at the work 
that we had inherited from the old INS. Candidly, we made an 
internal assessment that there was more work that needed to be 
done, better work needed to be done, and expedited work had to 
be done in order to meet the timetable in order to get a system 
up and operational at the airports and seaports by the end of 
this year, as mandated by the Congress of the United States.
    My colleague, Secretary Asa Hutchinson and I, now that we 
have reins and responsibility over that program, have refocused 
our internal work. We have combined the work that they had been 
doing with our science and technology unit so we could take a 
look at the technology applications that are out there in the 
world today. We know that it will be quite a challenge to get 
the system up and operational at airports and seaports by the 
end of this year, but that is what Congress mandated. We 
inherited it, and we are going to do everything we possibly can 
to get it up and operational in a way that is consistent with 
your intent and, frankly, consistent with the need of the 
country. We have a legitimate need to know who is coming in, 
when they are coming in. We have a legitimate need to know if 
they left.
    I will tell you, Senator, that there are real challenges to 
take that same approach and apply it to our land borders, and 
we will have to address them both publicly and privately, I am 
sure. But I would be prepared to come back with a couple of my 
colleagues to explain to the Congress the kinds of things we 
are doing in order to meet the deadline by the end of the year.
    Senator Byrd. But the----
    Secretary Ridge. I have not let any money out yet, Senator. 
We are not going to put out a request for proposal until we are 
satisfied internally that we have done the hard work that we 
needed to do and maybe should have been done before in order to 
get this thing prepared to let a contract in order to get it 
done.
    Senator Byrd. You are to be applauded. You are to be 
applauded for that.
    But let me ask this question. As I said earlier, the budget 
before us requests only $480 million for this new tracking 
system, only $100 million increase over last year's level. Do 
you feel that this is adequate? Do you think this is an 
adequate amount? Do you think the funding request is adequate?
    Secretary Ridge. Senator, I believe that it is. At least, 
that is the figure we requested based upon earlier 
calculations. We are doing our own internal calculations based 
on our technology team taking a look at our needs, and if it is 
not enough, you have given me some reprogram authority and I 
think your first admonition to me would be, if it is not enough 
and you need a few extra dollars, you ought to find it within 
your own operation before you come back to us. So that is 
exactly how we would go about trying to resolve and find any 
additional dollars.
    So again, we can report back to you, and you will require 
us to report back to you and we should report back to you in 
the near future as to the progress we have made on this 
initiative.
    Senator Byrd. And you would----
    Secretary Ridge. Congress started talking about this in 
1996 and has put substantial money in the budget starting, I 
think, last year, perhaps the year before. We know we have to 
accelerate things in order to make it happen and we are going 
to do everything we can to make it happen.

                         ANTI-MISSILE DEFENSES

    Senator Byrd. During floor debate on the Iraqi war 
supplemental appropriations bill, an amendment to add $30 
million for the study and deployment of anti-missile defense 
systems for commercial aircraft was narrowly defeated. A few 
days later, you publicly commented, Mr. Secretary, that 
deployment of this type of technology was merited and deserved 
to be looked into by the Department. Does the Department 
believe that the potential threat to commercial airliners from 
such an attack is sufficient threat to warrant the deployment 
of anti-missile defenses? If so, what funds would be used to do 
this and what level of funding and which agency within the 
Department should take the lead in the effort?
    Secretary Ridge. Senator, we have not concluded for policy 
purposes that commercial aviation should be equipped with 
military-type anti-MANPAD devices, but we have concluded that 
the threat is significant enough to proceed on a couple of 
paths. Clearly, working with other agencies in the government, 
and it has been working quite some time, the proliferation of 
these devices around the world requires the attention of State, 
Defense, and other agencies and they are focusing on that.
    Clearly, given the fact that there have been futile uses of 
this equipment in other countries gives reason for us to work 
with local law enforcement and aviation security folks to 
develop protocols, security protocols with regard to the areas 
around the airport as well as other adjustments conceivably in 
flying the aircraft.
    And the third piece of this is for us to take a look at the 
existing technology and also perhaps the development of new 
technology that might have an application to commercial 
aviation. We have reprogrammed some money from the Department 
of Defense, and we are going to use some of those dollars to 
begin that technical inquiry to look at effectiveness, 
efficiency, cost, and the like. So we have begun that process 
with some of the dollars that you have given us the opportunity 
to reprogram.
    Senator Byrd. How much money have you used--has been 
reprogrammed for this purpose?
    Secretary Ridge. Basically, I think, Senator, Congress took 
a look at it and I think we have reprogrammed about $420 
million from DOD. It goes across a wide range of issues, and I 
can't tell you today the specific dollars that we are going to 
initially invest in taking a look at MANPAD technology, but I 
do know that in my conversation with our leader there, that 
some of these dollars are going to go to an initial effort 
there. Depending on that research, again, it is part of our 
responsibility to pick and choose among priorities with the 
dollars you have given us that we have now and in the 2004 
budget. We are asking for over $800 million in the science and 
technology piece, which I presume will mean that--I can only 
anticipate we are using some of those on this research, as 
well.
    Senator Byrd. Mr. Chairman, I don't want to impose on your 
time overlay, but would I have time for one or two more 
questions?
    Senator Cochran. Yes, sir, Senator, if the Secretary can 
oblige us. I hope he can. We are now advised that the vote that 
was to occur at 12 has been put off until 1:45, so that is not 
a problem, but he has been sitting there a pretty good while.
    Senator Byrd. He is a much younger man.
    Senator Cochran. He has cooperated very----
    Senator Byrd. He is a much younger man than I am. I know he 
is tired.
    I know you are tired.
    Secretary Ridge. Thank you, sir.

                    VULNERABILITY OF CHEMICAL PLANTS

    Senator Byrd. But I have two more questions. One deals with 
chemical plants. Last month, the General Accounting Office 
reported that chemical plants remain vulnerable to a terrorist 
attack. Using data from the Environmental Protection Agency, 
the GAO noted that 123 chemical facilities across the country, 
if attacked, could inflict serious damage and expose millions 
of people to toxic chemicals and gasses.
    Now, I remember when I was--earlier in my career, we had 
the largest, I suppose, about the largest chemical plants in 
the Kenora Valley anywhere in the Western Hemisphere. Perhaps 
we have lost some of them in recent years as we have lost a lot 
of our other industries. But the administration identified 
chemical plants as part of the critical infrastructure in its 
national strategy for the physical protection of critical 
infrastructure and key assets report.
    In your written response to my question at our March 27 
hearing, you identified as one of the several that you 
identified, you identified chemical facilities in close 
proximity to large populations as one of our most significant 
vulnerabilities. The CBO estimated that it will cost $80 
million over 5 years to conduct the vulnerability assessments 
associated with our chemical plants, and yet the administration 
has not requested any funding, as I understand it, for this 
purpose.
    Why have not the resources, the requested resources to 
enhance security at chemical plants, been requested and what 
plans do you have to improve security in the area, including 
the identification of appropriate resources to accomplish these 
goals?
    Secretary Ridge. Senator, I can't agree or disagree with 
the dollar figure associated with the cost of securing these 
sites, so I will pass on that estimate. I don't know enough 
about how they concluded that, so I will just leave it alone.
    First of all, a lot of the chemical companies have begun 
their own internal vulnerability assessments and defray that 
expense as a corporate expense.
    Also, I think you are aware that there is legislation 
pending or will be pending before the Senate of the United 
States so that we can address this very important issue as we 
go about securing those sites on a risk management basis that 
offer the greatest potential for catastrophic personal harm and 
consequences.
    I will tell you that this is one of the areas, Senator, if 
I might link this question with a question and an inquiry that 
we had before about the Freedom of Information Act. We will 
want the chemical companies, as we will want some other 
companies, to look real hard at potential vulnerabilities and 
be honest and critical in that assessment, and we will want 
them to share that with us. Now, that is not information that 
we necessarily want to put in the public domain. We don't want 
to provide a road map to terrorists by revealing publicly some 
of the vulnerabilities we have at these sites.
    So it is an interesting question because it raises who 
should do the vulnerability assessments, frankly, and who 
should pay for them. I think, clearly, I believe that the 
companies should pay for them. Should they share that 
information with us--can we find a way so that they share it so 
we can give them some direction to secure the venues and reduce 
the vulnerabilities? I want them to do that.
    Do we need some legislation? I believe we will be in a 
position to work with this committee and other committees to 
see that we get that legislation during this period of 
Congress. But again, I would tell you, Senator, I think most of 
these chemical companies are traded on the public stock 
exchange. There are a lot of legitimate expenses they deduct 
before they pay taxes, and it seems to me that one of the most 
legitimate expenses in the post-9/11 era is the cost of 
enhanced security to protect your employees, to protect the 
community in which you have the facility and protect the 
interests of the people that own the plant, so I look forward 
to those continuing discussions, Senator.
    Senator Byrd. Thank you. I have other questions which I 
will submit for the record. I do have one final question, Mr. 
Chairman, and you have been very, very liberal, as I said, with 
me, and I want to thank you and I want to thank the staffs on 
both sides. We have excellent staffs who have helped us to 
prepare.

        FUNDING FOR IDENTIFIED HOMELAND SECURITY VULNERABILITIES

    On March 27, Mr. Secretary, of this year, I asked you to 
provide the committee with your written assessment of the ten 
homeland security vulnerabilities that you are most concerned 
about, and I thank you for responding rapidly. It wasn't a 
request that was put aside and delayed and perhaps forgotten, 
but you responded quickly and your response was useful in 
making final decisions on the supplemental appropriations act 
that Congress approved.
    In your response, you noted that the threat environment is 
continually changing, but that you did have the guidance, you 
did have guidance that helped you to focus your priorities. 
This response, which is not classified, focused on potential 
attacks on chemical facilities, nuclear power plants, large 
dams, liquid natural gas storage facilities, electric and 
telecommunications systems, data storage systems, 
transportation systems such as rail and air transportation 
systems, water supplies that are vulnerable to contamination, 
food processing centers, and petroleum handling facilities such 
as pipelines, and ports. Excellent, excellent response.
    The President has signed authorization bills to expand 
Federal investments in many of these areas, such as port 
security and drinking water security, but the President has not 
requested funding for these new authorizations. In fact, if 
your vulnerability guidelines to the President's budget are 
compared, if you compare your vulnerability guidelines to the 
President's budget, there does not appear to be much, if any, 
correlation. Now, can you tell this subcommittee where in the 
budget are the resources to cope with each of these 
vulnerabilities?
    Secretary Ridge. Senator, the first resource is, I think, 
the most important first step that we take in this country, is 
looking at those sectors of our economy that we itemize and 
refer to in our letter to you, and then take a look at the 
vulnerabilities in that sector, take a look at the threat as it 
relates to that sector, then make some conclusions as to how 
much it would cost to protect whatever vulnerabilities we find, 
and then the next question is, who is to defray the cost?
    The President has requested a rather substantial sum of 
money for us in the fiscal year 2004 budget to conduct those 
vulnerability assessments, and again, some of it are dollars 
that very appropriately will be expended by us to do those 
assessments on our own. But part of the function of the new 
Department, and the Congress provided a private sector advocate 
and the private sector intersects with the Department in so 
many different places, in the Science and Technology 
Directorate, in the Information Analysis and Infrastructure 
Protection Directorate, and one of the challenges we have, and 
we welcome the task, is to engage the private sector, those 
that haven't begun their own vulnerability assessments, to do 
that and to work with us to identify on a risk management basis 
what should be hardened, and our job, frankly, is to convince 
them it is in their interest to harden it.
    Senator Byrd. But, Mr. Secretary, you haven't really 
answered my question. I have listened very carefully. Let me 
say this again. The President has signed authorization bills to 
expand Federal investments, so the decision has been made with 
respect to who is going to do some of this, these investments. 
The President has signed authorization bills to expand Federal 
investments in many of these areas, such as port security and 
drinking water security. But the President, the Chief 
Executive, has not requested funding for these new 
authorizations.
    Now, what I am saying is, if you compare your vulnerability 
guidelines, which were very, very good, as you compare them to 
the President's budget, there doesn't appear, at least to this 
Senator and to this Senator's staff, there doesn't appear to be 
any correlation.
    So my question was, and maybe you can't answer it, can you 
tell me where in the budget are the resources to cope with each 
of those vulnerabilities that you have set forth in response to 
my request earlier this year. You may want to----
    Secretary Ridge. Senator, I would be happy to go back over 
it. You ask a very appropriate question. I think there are 
dollars dealing with some of the transportation infrastructure. 
I think there are dollars dealing with food safety. I don't 
think they come up by any stretch of the imagination to the 
level that Congress authorized, and I would say to the Senator, 
I think when it comes to the identification of risks, I think 
we may have agreement, general agreement, but I also think when 
it comes to appropriating the money consistent with the 
authorizations that there is an opportunity for Congress, as 
well, to shift its priorities in terms of the national budget, 
having passed the authorization bills, to take a look at the 
appropriations process, match it against authorizations, and in 
the years ahead, work with us to meet some of those priorities 
that we have identified and you have identified in the 
authorization process and come up with additional dollars in 
the appropriations process.
    Senator Byrd. Well, may I just comment----
    Secretary Ridge. Yes, sir.
    Senator Byrd [continuing]. And this is all I have. We have 
done that repeatedly. Congress has done that repeatedly and 
appropriated monies and the President has turned the back of 
his hand, as he did on the $2.5 billion that was designated as 
emergency. So Congress has been out front. We have appropriated 
monies time and time and time again, only to see this 
administration turn its back on the appropriations.
    And so the rhetoric, the rhetoric has not matched, has not 
matched reality. So I say to you, yes, we want to work with you 
and we want to appropriate the monies, but I hope that this 
administration will take a look at its responsibilities and 
particularly its rhetoric in so many instances and not veto, or 
in effect veto, the funding that the Congress has appropriated.
    I thank you for your work----
    Secretary Ridge. Thank you, Senator.
    Senator Byrd [continuing]. For your listening to our 
complaints, and hopefully, we can work together in ensuring the 
increased safety of our country in these matters.
    Secretary Ridge. Thank you, Senator. Yes, sir.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Cochran. Mr. Secretary, we appreciate your 
cooperation with our committee and we appreciate your service 
to the country. Senators may submit written questions, and we 
would request you respond to them within a reasonable time.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

              Questions Submitted by Senator Thad Cochran

                    PRESERVING AGENCY MISSION FOCUS

    Question. The Homeland Security Act of 2002 requires the Department 
of Homeland Security (DHS) to ensure that agency functions not directly 
related to homeland security are not diminished or neglected. However, 
there is concern that non-homeland security missions over time may not 
receive adequate funding, attention, visibility, and support within a 
department under tremendous pressure to succeed in its primary security 
mission. How will DHS ensure that proper attention is given to non-
homeland security missions, such as providing assistance to victims of 
natural disasters?
    Answer. We recognize that many elements of the Department such as 
FEMA, the Secret Service and the Coast Guard have critical missions in 
addition to their specific homeland security responsibilities. As such, 
I meet frequently with all of my leaders to ensure that we are carrying 
out all of our missions.
    We understand that our responsibility to the Congress and the 
taxpayer includes ensuring that both our homeland security and non-
homeland security missions are adequately resourced and carried out. 
Our fiscal year 2004 budget acknowledges our non-homeland security 
missions and requests that the Congress provide resources to ensure 
that those missions are fully discharged. Our Congressional 
justifications elaborate on these missions and responsibilities.
    The Department is currently setting up formal mechanisms and 
measures to monitor the performance of all of its activities, including 
non-homeland security activities. As required by the Government 
Performance and Results Act, the Department will publish performance 
measures for its activities in its first annual Performance Report in 
February 2004 and as part of its fiscal year 2005 Annual Performance 
Plan. The Department will use the results of the performance measures 
to help determine resource requirements.

                            RISK MANAGEMENT
 
   Question. The Homeland Security Act of 2002 calls for DHS to carry 
out comprehensive assessments of vulnerabilities of the key resources 
and critical infrastructure of the United States, including risk 
assessments to determine the risks posed by particular types of 
terrorist attacks. Using this information, DHS is to identify 
priorities for action by DHS, other Federal agencies, State and local 
governments and the private sector. What is the timetable for the 
comprehensive assessments and the subsequent setting of action 
priorities and milestones to protect key resources and critical 
infrastructure? What have DHS identified as the areas with the highest 
risks and how are these areas being specifically addressed?
    Answer. The Department's Information Analysis and Infrastructure 
Protection Directorate (IAIP) is addressing this issue on several 
tracks. The IAIP is implementing a plan to conduct standardized 
vulnerability assessments for all critical infrastructure sectors. This 
group of assets was identified during our work on Operation Liberty 
Shield. This project, named Project 180, will enhance security at key 
sites through strategic enhancements and eliminate the need to place 
National Guard and State police at times of heightened threats. On a 
more comprehensive level, the IAIP also has implemented a plan to 
conduct standardized vulnerability assessments for all critical 
infrastructure sectors. Vulnerability assessments will span all 
critical infrastructure sector and be conducted in concert with other 
Federal agencies, States, and industry in order to ensure that 
interdependencies are understood and protective measures are 
prioritized for implementation. The IAIP will also, on an as needed 
basis, issue specific warnings and guidance for infrastructure 
stakeholders necessitated by specific threats or conditions.
    Question. DHS is responsible for the Homeland Security Advisory 
System. DHS, in coordination with other Federal agencies, is to provide 
specific warning information, and advice about appropriate protective 
measures and countermeasures, to State and local government agencies 
and authorities, the private sector, and others. Concerns have been 
raised about warning capabilities, particularly the lack of specificity 
and guidance to officials below the national level under the current 
Homeland Security Threat Advisory System. Are changes being considered 
to the Homeland Security Threat Advisory System to give more specific 
guidance regarding national and specific threats? If so, when will the 
new system be in full operation?
    Answer. Changes to the Homeland Security Advisory System are not 
being considered at the present time. To the fullest extent possible, 
specificity of threat information is conveyed in Information Analysis 
and Infrastructure Protection Directorate warning products, while 
ensuring classified sources and methods are protected. We intend, 
whenever possible, to tailor specific protective measures commensurate 
with the level and type of threat identified and collaborated by a host 
of intelligence sources, including the Department of Justice and the 
Federal Bureau of Investigation as well as non-governmental independent 
studies. The Department is always seeking to improve the precision and 
accuracy of threat warning. For example, we developed a set of more 
specific protective measures the first time we elevated the threat 
level to Orange this year. Subsequently, we developed state specific 
criteria and further fine-tuned recommended protective measures. 
Distribution was done through law enforcement channels via the FBI, 
Secret Service, as well as direct contact through the Office of State 
and Local Government Coordination to the State Homeland Security 
Advisors for further transmission within their States. The Department 
always communicates any specific, credible threat information directly 
to officials in affected jurisdiction.

            DEPARTMENT START-UP ISSUES/INVESTMENT DECISIONS

    Question. Mr. Secretary, you face the enormous challenge of 
integrating the 22 organizations transferred to the new Department into 
a single, unified whole. How are you mitigating the impacts of this 
transition on the capabilities of each of the transferring agencies to 
continue to perform their missions?
    Answer. While the challenge of integrating the 22 organizations 
into the Department of Homeland Security is enormous, the day-to-day 
work of the vast majority of employees is unchanged--they continue to 
perform outstanding service in the protection of our homeland. I have 
worked with the senior leadership of the Department and the heads of 
those component agencies to mitigate the impacts of this transition by 
ensuring that we have open lines of communication not only here in 
Washington but also across the county. The challenge requires us to 
take several approaches including regular leadership meetings both with 
myself and the Deputy Secretary, and with the Under Secretary for 
Border and Transportation Security, establishing clear lines of 
authority as we have reorganized both the Bureau of Customs and Border 
Protection and the Bureau of Immigration and Customs Enforcement, and 
communications with managers and front line employees through town hall 
meetings and weekly employee newsletters.
    Question. What specific steps are you taking to integrate the 
chains of command and the personnel of these organizations without 
interfering with their current capabilities to perform their missions?
    Answer. As we move to unite the component agencies, we are 
consciously working to ensure that we remove institutional barriers to 
integration. The appointment of Interim Port Directors and interim 
Directors of Field Operations with the creation of the Bureau of 
Customs and Border Protection is just one example of how we are 
addressing these issues. These interim leaders were appointed because 
there must be ``unity of command'' and clear reporting channels which 
ensures that front line officers and supervisors know where to report, 
how to report, and with whom they will be coordinating their efforts.
    Question. What steps are you taking to meld the different cultures 
of these organizations in a way that preserves any unique, positive 
aspects while creating an overall ``Department of Homeland Security'' 
culture?
    Answer. We have developed a seal and a strategy for ensuring DHS 
identity to help the different cultures coming into the Department 
identify with DHS. We are working to integrate the legacy identities 
into the DHS identity.
    Question. Secretary Ridge, last July 16, you and OMB Director 
Daniels sent a memo to selected departments and agencies on ``DHS 
Transition Issues.'' This memo described how you would identify ``day 
one'' issues requiring resolution at the moment DHS is created and how 
short and longer term transition plans would be developed. What major 
``day one'' issues were identified, and how specifically are you 
resolving them?
    Answer. We have already accomplished many of our initial goals for 
the Department. From an operational capability perspective, we stood up 
the Homeland Security Command Center on a 24-7 basis and implemented 
Operation Liberty Shield, the first comprehensive, national plan to 
increase protections of America's citizens and infrastructure. We 
successfully launched the Ready campaign to build a citizen 
preparedness movement by giving Americans the basic tools they need to 
better prepare themselves and their families. The Department has 
focused on getting the resources our State and local partners need to 
them in an expedited manner, distributing millions of dollars in grant 
monies already. From a management perspective, we initiated a 
comprehensive reorganization of the border agencies as well as 
commenced work on a single human resources management system.
    Question. Which of these issues do you consider resolved, which 
will require additional efforts, and what are those additional actions 
that need to be taken?
    Answer. Management tasks are extremely important to the efficient 
operation of the Department. To that end we are presently engaged in 
efforts to ensure that infrastructure and support functions are 
provided in the most cost effective and efficient manner, establishing 
lead and support elements for the Department's various functions, 
ensuring efficient communication with our partners in the States, 
localities, and private sector, and coordinating effectively with other 
Federal entities. For example, we are standing up an investment review 
board, implementing a multi-year program and budget planning/
development process, launching a program management office to develop 
an integrated business/financial management system, developing the 
Department's IT enterprise architecture, establishing a strategy 
development process, and developing a comprehensive human resources 
system.
    Question. Secretary Ridge, you issued a Transition Memo with OMB 
Director Daniels on July 16 which stated the importance of identifying 
any pending actions or policy decisions within the existing agencies 
that might be decided differently in the context of the expected new 
Department. Agency heads were asked to identify major subject areas and 
pending actions that qualified for discussions within this context. 
What major investment and policy decisions were identified, which were 
put on hold, and why do they qualify for rethinking in view of the 
creation of DHS?
    Answer. Since the Department was created, several processes have 
been established to promote efficiency and effectiveness and to avoid 
duplication. For example, the Department established a comprehensive 
Investment Review Process to integrate capital planning and investment 
control, budgeting, acquisition, and management of investments (both 
information technology and non-information technology) to ensure public 
resources are wisely invested. Investments that meet a pre-determined 
dollar threshold or may have significant policy implications are 
subject to review to ensure that spending on investments directly 
supports the Department's mission and provides optimal benefits and 
capabilities to stakeholders and customers. The Department has also 
established a process to develop strong business cases for its 
information technology investments and is using the business cases to 
determine which projects are funded. In addition, the Department has 
also established a 5-year budget planning process that includes program 
reviews to make funding decisions.
    The establishment of the Department has also resulted in the 
consolidation of several functions including responsibility for 
coordinating research and development under the Office of Science and 
Technology and performing intelligence capabilities under the Office of 
Information Analysis and Infrastructure Protection. The formation of 
each of these organizations has resulted in a rigorous review of these 
functions to ensure integration across the Department and avoid 
duplication.
    Question. What are the emerging outcomes of these reviews, and when 
can you inform the Subcommittee about specific decisions on each of 
these matters?
    Answer. The Department recently initiated its investment review, 
budget development and business case development processes. Results 
should be available within the next several months. The Department has 
briefed Appropriations Committee staff on its progress in implementing 
functions performed by Science and Technology and Information Analysis 
and Infrastructure Protection and will apprise the Committee of our 
further progress on a continuing basis.
    Question. The fiscal year 2004 DHS budget request only assumes $30 
million in savings from consolidating administrative and management 
systems. Does achieving this much smaller amount of savings mean that 
last July's estimates of $65 million to $200 million were overly 
optimistic? Can you give us updated and detailed estimates of such 
savings?
    Answer. $30 million is the estimate of achievable savings in fiscal 
year 2004. The Department intends to pursue further savings in the 
future.
    Question. You have predicted that, after the first year, there may 
be some worker dislocations and a good possibility of job losses as you 
try to reduce overlaps among the entities transferring to DHS. When 
will you have a number estimate of what those dislocations and job 
losses will be and when will you inform the workers affected and the 
Congress?
    Answer. As we proceed with plans to merge the component 
organizations and to consolidate administrative and management systems, 
we will be able to identify areas of overlap and duplication of effort. 
DHS plans to minimize outright job losses, and will communicate with 
employees, their representatives, and the Congress as it develops its 
plans for staff restructuring and realignment.
    Question. What specific criteria are you establishing to determine 
who will be dislocated and who will lose their jobs, and will you 
provide affected employees a fair process in which they can appeal 
these decisions and the application of these criteria?
    Answer. It is too early to identify the specific criteria for any 
possible dislocation. The Department is committed to applying fair 
criteria to any decision process. It should be noted that the 
application of reduction in force rules under title five remains a 
requirement in the Department.
    Question. During and after consideration of the Homeland Security 
Act, you made an impassioned case that the DHS personnel system should 
be more ``flexible'' than the current Civil Service system. You 
received such flexibility in the Homeland Security Act, at least for 
after the year-long transition period. At this point, what changes do 
you envision for your civilian employees in terms of performance 
evaluations, compensation, and collective bargaining arrangements?
    Answer. We have established a Human Resource Management System 
Design Team to develop options for the changes we are encouraged to 
make in creating a new personnel system for DHS. That Design Team has 
just begun its research work. The schedule for presentation of options 
is later this fall.

                         INFORMATION TECHNOLOGY

    Question. According to the Department of Homeland Security's 
organizational chart, the Chief Information Officer (CIO) reports to 
the Secretary via the Under Secretary for Management. In this 
organizational position, will the CIO have the responsibility and 
accountability to effectively work across the Department to deliver and 
maintain the information technology necessary to meet the Department's 
mission?
    Answer. The CIO will lead the IT Capital Investment process which 
will have the strength it needs to ensure coordinated planning, and 
execution of integrated technology efforts throughout the department. 
These are critical to the Department, endorsed by the leadership from 
the Secretary through all of the Under Secretaries and other senior 
leadership. Given the commitment of this senior leadership team, the 
CIO will have the clout that he needs to integrate and optimize 
Information Technology throughout this department.
    Question. One of the key challenges facing the Department of 
Homeland Security is how to manage and merge, where appropriate, the 
existing information technology (IT) resources of the 22 different 
component agencies that were subsumed in the department. What is the 
Department's approach for managing this?
    Answer. We are developing an Enterprise Architecture, which will 
both identify the opportunities for consolidation and integration 
across the IT portfolio of systems and assets, and well as guide the 
approach we will then execute. Please see Question 19 for further 
details.
    Question. Do you envision any opportunities for efficiencies via 
consolidation and if so, would there be any monetary savings associated 
with such consolidation?
    Answer. We do expect to find opportunities for integration and 
consolidation across our IT infrastructure and enterprise solutions. We 
have initiated IT integration teams, working in concert with their 
business counterparts (subject matter and program personnel), in the 
areas of targeting systems, identity credentialing systems, and alerts 
and warning systems, business management systems, back office systems 
(human capital and resources, financial management, acquisition and 
procurement), and in IT infrastructure. We do anticipate monetary 
savings from this work, to be realized over the next two fiscal years. 
We have set a working target of $280 million.
    Question. Over the next year, what are the Department's critical IT 
priorities and what are the milestones for accomplishing them? What are 
they over the next 5 years?
    Answer.

 NEAR TERM INFORMATION TECHNOLOGY PRIORITIES & MILESTONES (FISCAL YEAR 
                                 2003)

Infrastructure
  --Installing new wide-area network circuits; provides increased 
        bandwidth, and more stable backbone--June 2003.
  --Deploying satellite capability at NAC; provides KU Band and HF--
        July 2003.
  --Consolidation of help desk support across DHS; analysis and 
        recommendations--July 2003.
  --Consolidation of data centers across DHS; analysis and 
        recommendations--June 2003.
  --IT Disaster Recovery Plan; recommendations--August 2003.

Enterprise License Agreements
    Develop plan for consolidating enterprise licenses--May 2003.

Information Security Program
            IT Security
  --Develop and implement department-wide IT security program--July 
        2003.
  --Submit annual Federal Information Security Management Report to 
        OMB--September 2003.
  --Submit program and system-level plans of action and milestones to 
        OMB--October 2003.
  --Draft consolidated department-wide IT Security Program budget 
        submission (Exhibit 300) for fiscal year 2005--June 2003.
  --DHS-wide IT Security Conference in Baltimore, MD--July 2003.
  --FISMA report due to OMB--Sept 2003.
  --IT Security Training and Awareness Program strategy and plan-of-
        action completed--Sept 2003.
  --Implement department-wide IT Security Training and Awareness 
        Program--Oct 2003.
  --Enterprise IT security architecture (coupled to overall 
        architecture efforts)--Oct 2003.
  --Refined Governance process--Jan 2004.
  --Improved Incident Handling capability--Mar 2004.

Enterprise Solutions
            Capital Planning and Investment Control
  --Develop and implement department-wide information technology 
        capital planning and investment control process--April 2003.
  --Develop DHS-wide e-government strategy with goals, objectives and 
        milestones for each project--May 2003.
  --Develop proposals to integrate existing systems IT infrastructure 
        and back-office systems and eliminate redundant investments and 
        obsolete systems--September 2003.
  --Submit with the DHS fiscal year 2005 budget the Exhibit 53, Form 
        300s for major IT projects (annual cost of $5 million or more 
        and lifecycle cost of $25 million or more)--September 2003.
            Enterprise Architecture
  --Develop a detailed roadmap (migration strategy) for instituting a 
        DHS enterprise architecture that builds upon the proposal to 
        integrate existing systems.--October 2003.
    --Provide to OMB the ``as is'' architecture, including DHS 
            directorates, identifying at least business application and 
            technology layers (should reflect DHS' inventory review 
            work underway)--June 15th.
    --Submit the modernization blueprint or ``to be'' architecture, 
            identifying how they map to the Federal EA and business 
            layer--August 15th.
  --Develop DHS wireless architecture and implementation plan--July 
        2004.
            Government Paperwork Elimination Act (GPEA)
  --Provide update on meeting GPEA requirements--July 03 and October 
        2003.
            E-government Initiatives
  --Serve as managing partner of Disaster Management and Project 
        Safecom and provide update--August 2003.
  --Participate in Geospatial Information One-Stop, Vital, e-grants, e-
        training, smartbuy, business compliance one-stop, and e-
        grants--fiscal year 2003 and 2004.

LONGER TERM INFORMATION TECHNOLOGY PRIORITIES & MILESTONES (FISCAL YEAR 
                               2004-2005)

            Infrastructure
  --Move to a consolidated DHS network (unclassified)--March 2005
  --Move to a consolidated email environment--December 2004
            Enterprise Solutions
  --Move to consolidated Financial Management environment--TBD fiscal 
        year 2005
  --Move to consolidated web self service for HR--December 2005
    Additional priorities and milestones are still being determined as 
part of our enterprise architecture effort and as business unit 
strategies and priorities emerge.
    Question. Reviews of the practices of leading information 
technology organizations in the private and public sectors show that 
implementing adequate investment and risk management controls and 
capabilities is essential to effectively managing information 
technology (IT).
    The Clinger-Cohen Act and OMB guidance direct Federal departments 
and agencies to develop and implement enterprise architectures (EA) to 
guide and constrain their information technology investments. What 
steps has the Department of Homeland Security (DHS) taken to develop an 
EA? What is the schedule for completing it?
    Answer. The Office of the CIO has been working on the development 
of the department's EA since ``day one.'' An integrated project team 
has been established, with an experienced government project manager 
versed in enterprise architecture management and development. This team 
has already reviewed existing work in each of the incoming agencies, 
and has been mapping current business processes and inventorying IT 
assets. This work will guide the identification of priority 
opportunities for consolidation by highlighting potential and real 
overlap or redundancy.
    We have also initiated a unique partnership in the development of 
our EA. We have established a working group, through the National 
Association of State CIOs (NASCIO), that represents State and local 
interests and requirements. We have held two working sessions with the 
NASCIO group, and more are planned to help us refine and improve our 
EA. This effort has also served to enhance the partnership among 
Federal, State, and local government.
    Once the current state process mapping and inventory are 
accomplished (end of June 2003), we will then continue the mapping of 
desired state processes. This desired state will serve to identify the 
business goals and objectives, with a focus on the next 1-3 years, set 
forth by the Secretary and Under Secretaries of each directorate. The 
gap that exists between where we are (current state) and where we want 
to be (desired state) allows us to then develop our Migration Strategy 
(Roadmap). We expect to have the first version of our Roadmap by the 
end of this fiscal year.

Enterprise Architecture Components--Target Dates
  --Business Strategy (Department level)--June 2003
  --Business Processes current state (Directorate level)--June 2003
  --Business Processes desired state (Directorate level)--August 2003
  --Information Requirements current state (Directorate level)--July 
        2003
  --Information Requirements desired state (Directorate level)--August 
        2003
  --IT Migration Strategy and Roadmap (the plan to move us from current 
        state to desired state)--September 2003
  --Investment Process for IT (Department level)--March 2003 
        (Completed)
  --Portfolio Management Process--July 2003
  --Inventory of IT Assets (Current Applications)--June 2003
  --Inventory of IT Assets (Infrastructure)--May 2003

    Question. What DHS official is responsible and accountable for 
delivering the EA?
    Answer. The Chief Information Officer.
    Question. What are the major information technology and systems 
needs of the Department of Homeland Security?
    Answer. We have identified the following major needs and 
objectives:
  --Program reviews of the major initiatives to ensure alignment with 
        business strategy and objectives--Ongoing through the end of 
        the fiscal year
  --Refinement of Business Strategies from each Directorate--Ongoing
  --IT skills inventory--Due to begin in June with completion by August 
        2003
  --Staffing of IT leadership positions--Ongoing
  --Establishment of department level IT compliance and reporting 
        processes--Ongoing with completion by end of fiscal year
  --Development of Department EA and Roadmap--Ongoing with completion 
        of first roadmap by end of September 2003
  --Development of Joint and Consolidated Exhibit 300s for fiscal year 
        2005 budget cycle--Ongoing with completion as part of OMB 
        budget cycle
  --Completion of President's Management Agenda goals and objectives 
        related to eGovernment for fiscal year 2003--Ongoing
    Question. What office within the Department of Homeland Security 
(DHS) will be responsible for managing the Department's information 
technology (IT) human capital, including assessing whether DHS has the 
right mix of IT knowledge and skills to achieve its mission?
    Answer. The Office of the Chief Human Capital Officer and the 
Office of the Chief Information Officer share this responsibility for 
managing IT human capital.

                 CHANGING AGENCY REGIONAL HEADQUARTERS

    Question. Secretary Ridge, you have stated that you are ``making 
good progress'' on a plan to redraw the differing regional structures 
and boundaries DHS inherited from the transferring agencies, but that 
the plan still is under development. What specific objectives have you 
established for creating a new regional structure, and what specific 
issues are being considered in developing this plan?
    Answer. The overarching objective is to fulfill the DHS mission in 
support of the National Strategy for Homeland Security to provide for 
unity of purpose among agencies. True integration of mission and 
department-wide effectiveness would be jeopardized with significantly 
different regional structures among DHS agencies
    Question. What is the likelihood that the plan will contain major 
changes to the current regional structures and boundaries of agencies 
transferred to the Department, and which agencies do you expect to be 
most affected by the regional restructuring plan?
    Answer. We are in the data gathering and baseline analysis process, 
and the regional structure has not been developed. Impacts to various 
Departmental components cannot be estimated at this time.
    Question. Which is a more important objective for the plan--to save 
money or to increase operational effectiveness? How do you intend to 
make trade-offs between operational effectiveness and cost savings?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific criteria are you using to evaluate the pros 
and cons of the changes being considered, and which of these criteria 
do you consider most important and less important?
    Answer. DHS is evaluating the best way in which to merge the field 
operations of twenty-two legacy agencies, represented by nine different 
regional alignments. To accomplish this, all DHS components are working 
to: (1) develop a baseline understanding of the current regional 
structures in the component organizations; (2) develop the options for 
a regional concept to ensure day-to-day operations and incident 
responses are well coordinated and planned.
    Question. Do you have any preliminary estimates of the costs to 
implement the changes you are contemplating, and of the savings that 
might be made? When can we expect the costs to occur and the savings to 
be realized?
    Answer. Increased operational effectiveness is not incompatible 
with cost effectiveness. It will be important for the Department to 
develop a regional concept that optimizes key factors including cost 
while maintaining the highest level of operational effectiveness.
    Question. What specific progress are you making in developing the 
plan, and what schedule has been established to complete the 
restructuring plan and to inform Congress and the affected employees 
about your recommended course of action? Are you ahead, behind, or on 
that schedule?
    Answer. All DHS components are working together to analyze various 
data and develop a baseline understanding of the relevant issues 
associated with the creation of a new Department-wide regional 
structure. An initial round of data collection has been completed and 
passed to DHS staff for analysis
    Question. How long would you expect it to take to fully implement 
the plan should Congress approve it?
    Answer. An implementation plan and schedule will follow completion 
of our baseline analysis, which is still underway.
    Question. Please provide for the record the statement of 
objectives, terms of reference, fiscal guidance, operational 
assumptions, and mandated schedule that have been issued to guide the 
development of this plan.
    Answer. These elements could be developed as part of an 
implementation plan, which would follow completion of the baseline 
analysis. To reiterate the overall concept objectives are presented and 
discussed in Q-32, the overarching objective is to fulfill the DHS 
mission in support of the National Strategy for Homeland Security to 
provide for unity of purpose among all DHS component organizations

                            DHS HEADQUARTERS

    Question. How much has the cancellation of the first process to 
find a headquarters facility delayed DHS's schedule to move into such a 
longer-term location?
    Answer. During the initial search for a headquarters building a 
number of critically important factors were identified. Security of the 
facility, the infrastructure existing to support DHS operations, 
adequate size, availability of fixtures and fittings, and the distance 
to Washington, DC sites at which the Department conducts business were 
all important to this process along with the availability of such a 
location within a very short time frame. After surveying the market, it 
was determined that the available properties did not present an 
acceptable alternative when all was considered. Since that time DHS has 
been able to temporarily occupy existing government facilities at very 
reasonable rent rates that satisfy the need for placing people. By 
August 2003 DHS should have control of space that provides for seating 
approximately 1000 of DHS's projected permanent, detail, and contractor 
staff. The interim time has provided opportunities for reviews of 
various alternatives for housing DHS and to further develop and refine 
requirements needed for the headquarters building over the longer term.
    Question. Why has DHS included $30 million in its budget request 
for design and site acquisition for a new headquarters, as opposed to 
requesting funds for this project through the GSA Federal Buildings 
Fund?
    Answer. The budget request included language that joined DHS and 
GSA together in working through the design and site acquisition 
process. We believe that this partnership will work well in satisfying 
DHS needs while ensuring that GSA's proven acquisition expertise is 
utilized.
    Question. How much of the $30 million requested is for design costs 
and how much is for site acquisition? What is the basis of these 
estimates?
    Answer. Site acquisition costs are largely dependent upon the 
geographic area in which the site is located. Downtown urban sites have 
typically higher costs than suburban sites. Design costs run in the 
range of about 10 percent of the expected building construction costs. 
Construction of a building in the 400,000 square foot range could be 
expected to be $140 to $180 million therefore design would be $14 to 
$18 million. The $30 million could provide for site acquisition and an 
initial conceptual portion of the design. Since DHS is still in the 
process of surveying acceptable sites for a permanent headquarters, 
estimates for design and acquisition costs would be speculative.
    Question. What is the cost estimate DHS is now using as a planning 
factor for land and construction of a longer-term headquarters?
    Answer. DHS is still identifying its needs and requirements for a 
permanent headquarters. Once more specific requirements have been 
defined, comprehensive estimates for land acquisition and construction 
costs will be developed.

                        DEPARTMENTAL OPERATIONS

    Question. The fiscal year 2004 President's budget requests $294 
million for ``Departmental Operations'', including $30 million for 
design and acquisition of a new headquarters. Would you please provide 
a detailed breakdown and justification of the request, including the 
amount of funding, full-time equivalent positions, and object class 
breakdown for each of the specific activities funded by this request, 
including, but not limited to: the Office of the Secretary and 
Executive Management; the Office of the Under Secretary for Management, 
the Office of the Chief Information Officer, the Office of the Chief 
Financial Officer, the Departmental Operations Center, and the Office 
of the General Counsel.
    Question. Please provide the fiscal year 2004 funding and full-time 
equivalent positions requested for the Office of the Under Secretary 
for Border and Transportation Security; the Office of the Under 
Secretary for Science and Technology; the office of the Under Secretary 
for Information Analysis and Infrastructure Protection; the Office of 
the Under Secretary for Emergency Preparedness and Response; the Office 
of State, Local, and Private Sector Coordination; all public affairs 
activities of the Department; and all Congressional affairs activities 
of the Department. Also, identify each account where the funding for 
each of these offices and activities is requested in the President's 
fiscal year 2004 budget, and provide an object classification table for 
each.
    Answer. See Attachment 1.

                                   DEPARTMENT OF HOMELAND SECURITY--DEPARTMENTAL OPERATIONS--FISCAL YEAR 2004 REQUEST
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                            Salaries &
              Organization                      FTE        Travel Total   Supplies Total  Benefits Total     Training     Other Expenses       Total
                                                              Budget          Budget          Budget          Budget       Total Budget
--------------------------------------------------------------------------------------------------------------------------------------------------------
Immediate Office of the Secretary.......              12        $555,000         $60,000      $1,560,000          $9,000        $156,000      $2,340,000
Immediate Office of the Dep. Secretary..               6        $240,000         $30,000        $780,000          $4,500        $153,000      $1,207,500
    Security............................              20         $90,000         $60,000      $2,600,000         $15,000     $17,260,000     $20,025,000
Chief of Staff..........................              31        $310,000        $155,000      $4,030,000         $23,250        $765,500      $5,283,750
Executive Secretary.....................              34        $340,000        $170,000      $4,250,000         $25,500      $1,317,000      $6,102,500
Special Asst to the Secretary/Private                 30        $600,000         $90,000      $3,900,000         $22,500        $165,000      $4,777,500
 Sector.................................
NCR Coordinator.........................               3         $30,000          $9,000        $390,000          $2,250        $151,500        $582,750
State & Local Affairs...................              23        $460,000         $69,000      $2,990,000         $17,250        $161,500      $3,697,750
International Affairs...................               8        $160,000         $24,000      $1,040,000          $6,000        $154,000      $1,384,000
Public Affairs..........................              43        $860,000        $129,000      $5,590,000         $32,250      $3,021,500      $9,632,750
Legislative Affairs.....................              49        $735,000        $147,000      $6,370,000         $36,750        $174,500      $7,463,250
General Counsel.........................              66        $330,000        $198,000      $9,240,000         $49,500        $933,000     $10,750,500
Civil Rights & Liberties................              20        $200,000         $60,000      $2,600,000         $15,000     $12,010,000     $14,885,000
Immigration Ombudsman...................               8         $80,000         $24,000      $1,040,000          $6,000        $154,000      $1,304,000
HS Advisory Committee...................               4         $80,000         $12,000        $520,000          $3,000        $152,000        $767,000
Privacy.................................               4         $80,000         $12,000        $520,000          $3,000        $152,000        $767,000
Under Secretary for Management..........               6         $57,000         $18,000        $780,000          $4,500        $611,300      $1,470,800
    Strategic Initiatives...............               5         $22,500         $15,000        $650,000          $3,750      $1,152,500      $1,843,750
    Chief Financial Officer.............              60        $270,000        $180,000      $7,500,000         $45,000      $4,180,000     $12,175,000
    Procurement.........................              41        $184,500        $123,000      $5,125,000         $30,750      $1,670,500      $7,133,750
    Human Resources.....................              49        $220,500        $147,000      $6,125,000        $236,750      $1,094,500      $7,823,750
    Chief Information Officer...........              63        $283,500        $189,000      $8,190,000         $47,250     $73,457,500     $82,167,250
    Administration......................              37        $166,500        $111,000      $4,625,000         $27,750     $53,878,500     $58,808,750
Border & Transportation Security........              67        $837,500        $201,000      $8,710,000         $50,250        $333,500     $10,132,250
Info. Analysis & Infrastructure                       37        $462,500        $111,000      $4,810,000         $27,750        $318,500      $5,729,750
 Protection.............................
    Command Center......................               8         $35,200         $24,000      $1,040,000          $6,000      $4,354,000      $5,459,200
Emergency Preparedness and Response.....              26        $325,000         $78,000      $3,380,000         $19,500        $313,000      $4,115,500
Science and Technology..................              40        $500,000        $120,000      $5,200,000         $30,000        $320,000      $6,170,000
                                         ---------------------------------------------------------------------------------------------------------------
      Total.............................             800      $8,514,700      $2,566,000    $103,555,000        $800,000    $178,564,300    $294,000,000
--------------------------------------------------------------------------------------------------------------------------------------------------------

                          INTELLIGENCE ISSUES

    Question. Congress contemplated that DHS would have a leading role 
in analyzing terrorist threat intelligence data and distributing that 
information to Federal, State, and local government agencies. The 
proposed Terrorist Threat Integration Center (TTIC) seems to be 
chartered with the same responsibilities. Will the creation of TTIC in 
any way diminish DHS's role in analyzing and disseminating terrorism-
related intelligence information?
    Answer. No. Within the DHS, the Information Analysis and 
Infrastructure Protection Directorate (IAIP) has robust, comprehensive 
and independent access, mandated by the President and in the law, to 
terrorist-threat information relevant to homeland security. It has the 
mission to obtain information and intelligence, including through other 
DHS components, analyze that data, and take action to protect the 
homeland against terrorist attacks. The IAIP's Information Analysis 
(IA) division will conduct its own, independent threat and other 
analysis, and leverage the resources of other entities, such as the 
FBI, CIA, and TTIC. IA analysts assigned to TTIC will ensure that 
information gathered by the TTIC will be known to and accessible by 
IAIP. Conversely, data gathered by DHS (from its own collectors as well 
as State and local government and the private sector) reaches TTIC and 
informs its work.
    Question. Does DHS still intend to conduct its own intelligence 
analysis, and, if so, how will its analytical work differ from TTIC's 
and how will it avoid duplicating the work done by TTIC, the CIA, and 
the FBI?
    Answer. IAIP's analytic mission is focused on threats to the 
homeland, whereas the TTIC will integrate and analyze terrorism-related 
information collected domestically and abroad to form the most 
comprehensive threat picture. Unlike other intelligence, law 
enforcement, and military entities (such as the CIA, FBI, TTIC and 
DOD), the DHS' mission is focused on the protection of the American 
homeland against terrorist attack. In addition to assessing terrorism 
threats IAIP will map these threats to vulnerabilities. IA will 
leverage and not duplicate TTIC by ensuring that TTIC's work directly 
supports IA's focus on the homeland.
    Question. A White House Fact Sheet states that TTIC will ``play a 
lead role in maintaining an up-to-date database of known and suspected 
terrorists.'' Does DHS still intend to maintain its own terrorist 
database, and, if so, how will that database differ from the TTIC 
database?
    Answer. DHS IAIP and other appropriate entities are in the process 
of discussing where such databases will reside.
    Question. How can you assure us that the existence of separate TTIC 
and DHS intelligence analysis, terrorist databases, and information 
dissemination channels will not create confusion and overlap within the 
Federal Government?
    Answer. To reduce confusion and overlap, IAIP's analysis will be 
tailored to support DHS headquarters and DHS operational components 
such as the Homeland Security Advisory System. In addition, IAIP will 
be responsible for disseminating information to the State/local/and 
private sector.
    Question. It has been stated that TTIC eventually ``will fully 
house a database of known and suspected terrorists that officials 
across the country will be able to access and act upon.'' Does this 
interfere with DHS's statutory role to disseminate terrorism 
information to State and Local officials? How will you prevent 
confusion among these officials about which Federal organization is the 
authoritative source for such information?
    Answer. If information obtained by or analyzed at the TTIC 
represents a threat to homeland security, and needs to be passed on to 
State and Local officials, the IA's presence at the TTIC will ensure 
that the information is passed by DHS in accordance with its specific 
responsibility for providing federally collected and analyzed homeland 
security information to first responders and other State and local 
officials, and key private sector contacts.
    Question. Will the existence of TTIC interfere in any way with DHS 
having unfettered access to all relevant intelligence data from raw 
reports to finished analytic assessments collected and conducted by 
other Federal agencies?
    Answer. No, as discussed above.
    Question. Will DHS still be able to work directly and independently 
with the FBI, CIA, and other members of the Federal intelligence 
community to obtain terrorist threat information, or will all DHS only 
be able to obtain such information from TTIC?
    Answer. Information from the TTIC will just be one of many sources 
of Federal, State and local, and private and critical infrastructure 
sector information available to the IAIP. The DHS will continue to work 
directly with the intelligence community as appropriate.

     U.S. VISITOR AND IMMIGRANT STATUS INDICATION TECHNOLOGY SYSTEM

    Question. How is the new U.S. VISIT system different from the 
proposed Entry Exit system that received $380 million in funding in the 
fiscal year 2003 Consolidated Appropriations Resolution, and for which 
you have requested $480 million in fiscal year 2004?
    Answer. The U.S.-VISIT Program incorporates the requirements of the 
entry exit system. At the air and sea ports of entry, the inspections 
process will be very similar as it is today. The U.S.-VISIT system will 
modify and integrate the existing systems such as the Interagency 
Border Inspection System (a biographical name lookout or watch list 
search), Advance Passenger Information System (electronic manifests), 
the Arrival and Departure Information System (which matches the 
electronic arrival and departure records submitted by the commercial 
carriers), Student and Exchange Visitor Information System (non-U.S. 
citizen student information) and the IDENT system.
    Question. It was announced that the new U.S. VISIT system will 
replace the current National Security Entry Exit Registration System 
(NSEERS), integrate the Student and Exchange Visitor Information System 
(SEVIS), and fulfill congressional requirements. The original Entry 
Exit system that the Administration, including the Office of Homeland 
Security, had been working on for the last year did incorporate NSEERS 
as its pilot project, would be interacting with SEVIS, and would 
fulfill congressional mandates. What will the U.S. VISIT system be 
doing that is different from the original Entry Exit proposal?
    Answer. As the U.S.-VISIT Program is phased-in, NSEERS will be 
phased-out. The U.S.-VISIT system will have the capability to use 
biometrics at both entry and exit. This new process will not adversely 
affect the current inspections process. As stated above, the U.S.-VISIT 
program will modify and integrate existing systems. The DHS expects to 
meet the first scheduled requirement at the air and sea ports of entry 
by December 31, 2003.
    Question. What is the rational for a full integration of SEVIS with 
U.S. VISIT?
    Answer. U.S.-VISIT is intended to manage the entry and exit of 
certain U.S. visitors and people. The integration with SEVIS is an 
important component of the U.S.-VISIT program. It is important that 
schools are aware of the requirement that a student register with the 
school within 30 days of arrival into the United States.
    Question. Given that SEVIS has significant requirements outside of 
tracking the actual entry and exit of students, how will the needs and 
responsibilities of the SEVIS system be maintained within U.S. VISIT?
    Answer. The full functionality of SEVIS will be retained and 
maintained. The integration of SEVIS into the U.S. VISIT will allow for 
the seamless exchange of foreign student data.
    Question. The fiscal year 2003 Consolidated Appropriations 
Resolution requires that an expenditure plan for the initial $380 
million appropriated for Entry Exit be submitted to this Committee. 
Additionally, specific information was requested about how the NSEERS 
program was developed. It has been several months--when will the plan 
be submitted?
    Answer. We anticipate that the expenditure plan will be submitted 
to Congress and the GAO in June 2003.
    Question. The information on the NSEERS program was due to the 
Appropriations Committees on March 20, 2003, from the Department of 
Justice. Have you been coordinating with them on this report and when 
do you expect it to be submitted?
    Answer. BICE or BCBP is working closely with DOJ to provide the 
information.
    Question. The Border and Transportation Security Directorate had 
responsibility for the Comprehensive Entry Exit project. Who will be 
responsible for the new U.S. VISIT project?
    Answer. The Border and Transportation Security (BTS) Directorate 
will continue to have responsibility for and manage the U.S.-VISIT 
Program.
    Question. What is the total amount of funding that you expect will 
need to be invested in this system for full deployment? Are you on 
schedule for full deployment of the system by 2005?
    Answer. At this point in time we believe that the fiscal year 2003 
and fiscal year 2004 are the appropriate amounts. The U.S.-VISIT 
Program has three important phases culminating respectfully at the end 
of the calendar year 2003, 2004, 2005. However, U.S.-VISIT will be a 
system that will continually evolve in order to take advantage of 
emerging technologies and processes in order to support the ongoing 
needs. The schedules for each of the phases are extremely aggressive. 
While we believe Phase I is achievable, there is further analysis and 
planning required for Phases II and III, therefore, we are in the 
process of developing an expenditure plan for fiscal year 2004 and 
2005. In addition, we also expect to engage private industries to 
assist us in meeting these aggressive schedules.
    Question. It was announced that the first phase of U.S. VISIT will 
be operational at international air and sea ports by the end of 2003. 
In the absence of an approved expenditure plan, what funds are being 
used to continue the development of the U.S. VISIT system, such that 
you will be able make this deadline?
    Answer. The U.S.-VISIT Program has been approved to spend $5M to 
prepare an expenditure plan, which consists of an acquisition strategy, 
risk management, workforce breakdown schedule, security plan, and 
privacy assessment
    Question. Please provide the Committee with a project plan with 
detailed milestones for how you expect to achieve the end of year 2003 
deadline, and an explanation of the exact functionality that will be 
available to each of the organizations that must enter data into or get 
data out of the system.
    Answer. This information is included in the expenditure plan, which 
will be provided to Congress.
    Question. Will biometrics be incorporated into the system by the 
end of 2003? If so, what are the specific biometrics that the system 
will capture? Will the biometric be captured and verified at primary or 
at secondary inspection?
    Answer. The U.S.-VISIT system will have the capability to use 
biometrics at primary inspection at certain ports of entry by the end 
of 2003.
    Question. How will the exit of visitors to the United States be 
recorded into the U.S. VISIT system, and will this capability be 
available by the end of 2003? What is the current status of the 
Advanced Departure Information System (ADIS)?
    Answer. The exit is the most challenging piece of the U.S.-VISIT 
Program. We will have the capability to collect all of the biographic 
information (electronic arrival and departure manifests) on all 
passengers that travel through the air and sea ports of entry. Under 
the NSEERS, IDENT was deployed at exit locations to capture and verify 
the identity of NSEERS registrants.
    The Arrival Departure Information System (ADIS) has been developed 
and is currently receiving the electronic arrival and departure 
manifests from the Visa Waiver Program (VWP) carriers. In the next few 
months we will complete an analysis of the matching of the arrival 
record with the departure record. We will compare these matching 
results with the Form I-94 information contained in the Non Immigrant 
Information System (NIIS).
    Question. Will the U.S. VISIT system have the capability to report 
on overstays to Congress by the end of 2003?
    Answer. Beginning on January 1, 2004, the U.S.-VISIT system will 
have some ability to report on overstays. For example, we will be able 
report overstay information on Visa Waiver travelers from the ADIS 
system.
    Question. How do you plan to make the identified overstays an 
investigative priority within the Bureau of Immigration and Customs 
Enforcement?
    Answer. Under NSEERS, we were able to identify registrants who 
overstayed their period of admission, or did not register upon exit. We 
will build upon the lessons learned from this pilot to identify 
overstays in the U.S.-VISIT program. In addition, the Bureau of 
Immigration and Customs Enforcement (BICE) have developed policies and 
procedures to identify and locate these registrant overstays. The U.S.-
VISIT Program is working closely with the Bureau on this issue.
    Question. It was announced that the U.S. VISIT system will allow 
the Department of Homeland Security to end the domestic registration 
that has been conducted under the National Security Entry Exit 
Registration System (NSEERS). Under the Department of Justice, the 
domestic registration of NSEERS had been scheduled to end in April of 
2003, what steps have you taken that are different from that previously 
planned end of domestic registration?
    Answer. Domestic registration for NSEERS registrants concluded on 
April 25, 2003. The required 30-day and annual re-registration is 
currently under review.
    Question. By ending the NSEERS program, are you suspending the 
special registration that selected individuals are subject to at entry?
    Answer. No, the port of entry registration will continue. There are 
no recommendations to expand the list of current countries, although, 
there will likely always be additional processing for certain aliens 
identified as being of special interest. To the extent required by 8 
CFR 264.1(f)(2)(i), the public will be notified, by publication of a 
notice in the Federal Register, of expansion of the nationalities 
subject to special registration at ports of entry. However, per 8 CFR 
264.1(f)(2)(iii), neither the Secretary of State (SOS) nor the 
Secretary of Homeland Security (SHS) are required to make public their 
criteria for registration. Therefore, either the SOS or the SHS can 
amend the criteria at any time without public notice.
    Question. By ending NSEERS, are you suspending that portion of the 
program that requires registrants who remain in this country for 1 year 
after their initial registration to re-register with the Department? 
Are you suspending that portion of the program that requires 
registrants who remain in the country 30 days after arrival to re-
register with the Department? If yes, what is the rationale for this 
change?
    Answer. No suspension is currently planned for the required 30-day 
and annual re-registration.

           ``PROJECT BIOSHIELD'' VACCINE ACQUISITION PROGRAM

    Question. DHS is seeking $890 million in mandatory spending for 
``Project Bioshield'' to buy biowarfare vaccines and medications. The 
program is intended to encourage drug manufacturers to increase 
research and production of biowarfare defenses. Based on the 
development maturity and production readiness of the needed vaccines 
and medications in the next 18 months, can DHS effectively and 
efficiently spend such a large amount of funds in one fiscal year?
    Answer. The Administration estimates obligating $890 million for 
BioShield procurements in fiscal year 2004. Based on the current state 
of the science, and the expectation that the proposed authority will 
allow DHS and HHS to actively pursue industry partners in this effort, 
the Administration expects to make major investments in a next-
generation anthrax vaccine, and the next-generation smallpox vaccine, 
and smaller but still important procurements for countermeasures for 
botulinum toxin. Production constraints may result in the delivery of 
countermeasures over a multi-year period, but barring a change in the 
science, we expect to be able to enter contracts for the entire 
estimated amount.
    Question. How many different vaccines and medications actually will 
be ready for DHS purchase in the next 18 months, and what is the cost 
estimate for each?
    Answer. There will be continued procurement of currently produced 
smallpox vaccine (Acambis) and anthrax vaccine (BioPort), as well as 
heptavalent and pentavalent botulinum antitoxin that will be produced 
in the next 6 to 18 months (Cangene). In addition, two new vaccines are 
expected to be ready through Project BioShield within the next 18 
months. These include a new generation anthrax vaccine, as well as a 
new smallpox vaccine. The costs of the new generation vaccines are not 
yet available, but a working group is meeting regularly, and 
determining costs is one of its top priorities.
    Question. Please provide for the record a detailed statement 
demonstrating for each vaccine and medication its development maturity 
and production readiness and how that status supports obligation of 
specific funding amounts in fiscal year 2004.
    Answer. Initiatives to support the intermediate-scale advanced 
development of rPA and MVA vaccines are planned for late fiscal year 
2003 and early fiscal year 2004 respectively. These initiatives may 
include collection of preclinical and clinical data, such as: 
production and release of consistency lots; formulation, vialing and 
labeling of vaccine; development of animal models in at least two 
species to support the FDA animal rule; process, assay and facility 
validation; and clinical evaluation in initial phase II trials. For 
next-generation recombinant Protective Antigen (rPA) anthrax vaccine, 
two candidate products are in early product development. Preclinical 
data for this vaccine are expected to be submitted between July 2003 
and September 2004, and clinical data are expected to be submitted by 
March 2004. The estimated date for completion of this phase of the rPA 
vaccine project is June 2004. For next-generation Modified Vaccinia 
Ankara (MVA) smallpox vaccine, two candidate products are in early 
product development. Preclinical data for this vaccine are expected to 
be submitted between July 2003 and September 2004, and clinical data 
are expected to be submitted by June 2004. The estimated date for 
completion of this phase of the MVA vaccine project is September 2004.

                              COAST GUARD

    Question. What specific criteria would you apply if faced with a 
choice between carrying out a non-homeland security mission and a 
homeland security mission by the Coast Guard?
    Answer. As a military, maritime, multi-mission organization, the 
Coast Guard recognizes that its Maritime Homeland Security (MHS) and 
Non-Maritime Homeland Security (non-MHS) missions are not mutually 
exclusive. Resource allocation efforts, at the strategic and tactical 
level, are made by Operational Commanders utilizing their values, 
experience, training, judgment, and a keen eye toward balancing the 
risks involved in the situation at hand. This is truly one of the Coast 
Guard strengths.
    Consider the tactical resource allocation example of a Coast Guard 
cutter and embarked helicopter patrolling the waters off the south 
coast of Florida. The multi-mission capabilities of these assets and 
the people who crew them result in a resource mix that on any given day 
might:
  --Respond to a call from a sinking sailboat (non-MHS mission--Search 
        & Rescue);
  --Conduct a boarding on a commercial fishing vessel (non-MHS 
        missions--Marine Safety, Living Marine Resources, and Marine 
        Environmental Protection);
  --Interdict a ``go-fast'' approaching U.S. shores (MHS missions--
        Ports, Waterways & Coastal Security; Drug Interdiction; Migrant 
        Interdiction);
  --Escort a Naval ship during a military out load operation (MHS 
        missions--Ports, Waterways & Coastal Security; Defense 
        Readiness).
    Should a situation unfold in which a MAYDAY call and ``go fast'' 
sighting occur simultaneously, the Coast Guard Operational Commander 
would utilize the assets available in crafting a response, keeping in 
the forefront of his or her mind the premise that human life takes 
precedence.
    A second example, this one in the realm of strategic resource 
attainment, pertains to the President's fiscal year 2004 budget 
request. The funds requested in the fiscal year 2004 budget are 
critical to overall mission balancing efforts and to the sustainment of 
the Coast Guard's high standards of operational excellence across all 
missions. It is important to note that every MHS dollar directed to the 
Coast Guard will contribute to a careful balance between its safety and 
security missions, both of which must be properly resourced for 
effective mission accomplishment. The fiscal year 2004 budget reflects 
steady progress in a multi-year resource effort to meet America's 
future maritime safety and security needs. This new funding will 
positively impact performance in all assigned missions.
    In performance-based organizations such as the Coast Guard, 
resource attainment and allocation decisions are made with the 
overarching mission outcome in mind. Coast Guard decision-making 
criteria is focused on successful mission performance, and led by our 
values, training, experience, judgment, sense of balance, and risk 
management skills.
    Question. Some Coast Guard supporters claim that Deepwater's 20-
year duration should be cut in half. Such an action might increase 
costs by about $4 billion in fiscal years 2005-2010, although it might 
save about $4 billion in fiscal years 2010-2020. Can the Department of 
Homeland Security budget afford such increases in the near term?
    Answer. The Administration considers Integrated Deepwater System 
(IDS) funding in conjunction with all agency requests based upon 
national priorities. The President's fiscal year 2004 request of $500 
million for the IDS funds critical initiatives is consistent with the 
fiscal year 2004 funding level reflected in the March 7, 2003 Report to 
Congress on the Feasibility of Accelerating IDS to 10 years. The IDS 
contracting strategy provides the Coast Guard the flexibility to adjust 
the proposed implementation schedule depending on budget variances.
    Question. After September 11, 2001, the need for tamper-resistant 
identification cards became a priority for all agencies of the 
government issuing these types of cards. The fiscal year 2003 
supplemental appropriations Act provides $10 million to the Coast Guard 
for updating the Merchant Mariner Documents provided to certain 
qualified crew members. Please tell the subcommittee how you plan to 
use the supplemental appropriations provided.
    Answer. Fiscal year 2003 supplemental funding will be used to 
provide contractor support at the Regional Exam Centers (REC) to 
accommodate workload surges resulting from the enhanced security 
processes; install technological improvements such as electronic 
fingerprinting capabilities to reduce processing time and upgrades to 
the database for mariner documentation tracking and record keeping; 
provide more Investigating Officers in the field to adjudicate security 
issues discovered on mariner applicants; and, where possible, 
centralize those functions not requiring face-to-face contact with the 
applicant.

             SPEND PLAN FOR $10 MILLION SUPPLEMENTAL FUNDING
------------------------------------------------------------------------
                                                              Planned
            Item Description                   Cost          Execution
                                                           (Fiscal Year)
------------------------------------------------------------------------
Additional personnel and equipment at         $5,000,000       2003/2004
 the RECs...............................
Electronic Fingerprinting Equipment.....       1,000,000            2003
Additional Investigating Officers.......         700,000       2003/2004
Additional personnel for screening and         1,900,000       2003/2004
 evaluation support.....................
Mariner credentials database upgrades...       1,000,000       2003/2004
Additional program management and                400,000            2003
 project support........................
                                         -------------------------------
      Total.............................      10,000,000
------------------------------------------------------------------------

    The upgrades for issuing credentials to mariners operating in the 
Marine Transportation System will ensure that credentials are never 
issued to those who pose a threat to national security or marine 
safety. This new system includes a more robust vetting process for 
mariners and more personal interaction between the mariner and the REC 
to verify the applicant's identity. In addition, a more tamper-
resistant card is being issued to minimize the chance of misuse. The 
Coast Guard will continue to work with other agencies, especially the 
Transportation Security Administration, to achieve a ``good 
government'' solution that is fast, accurate, and consistent.
    Question. Are all of the agencies of the Department of Homeland 
Security that are in the process of developing more secure 
identification cards for employees, such as the Coast Guard, 
Transportation Security Administration, Citizenship and Immigration 
Services, and the Bureau of Customs and Border Protection, working 
together in a consolidated approach to the research, development and 
implementation of new tamper-resistant identification cards? Wouldn't 
it be more cost-efficient to have a Department-wide system for tamper-
resistant identification cards?
    Answer. Through the Department's investment review and IT 
consolidation processes, a consolidated approach is being taken to 
different programs such as credentialing.
    Question. The Coast Guard received $400 million in fiscal year 2003 
supplemental funding through the Department of Defense for defense-
related activities in the War on Iraq. What responsibilities, if any, 
does the Coast Guard have in the aftermath of the war or in rebuilding 
Iraq? Will available funding cover the costs associated with these 
Coast Guard activities? If not, do you have estimates of the additional 
funding needed to cover the cost of these activities?
    Answer. The Coast Guard is awaiting information from the Combatant 
Commander on the exact needs for Coast Guard forces to assist in the 
rebuilding of Iraq. However, over half of the Coast Guard forces 
deployed have already been released by the Combatant Commanders; the 
CGC DALLAS, one Port Security Unit and four 110 foot patrol boats 
deployed to EUCOM and the CGC BOUTWELL and CGC WALNUT deployed to 
CENTCOM are all returning home shortly or have already arrived.
    Four 110 foot patrol boats, three Port Security Units and four Law 
Enforcement Detachments remain in the Arabian Gulf to support CENTCOM, 
and no timeline has been established for their return.
    The Department of Defense has been appropriated funds within the 
IRAQI FREEDOM Fund of the 2003 Emergency Wartime Supplemental 
Appropriations Act of which ``up to'' $400 million may be transferred 
to the Coast Guard to cover the costs for supporting Operation IRAQI 
FREEDOM. The Coast Guard is still working with the Department of 
Defense to transfer those funds, but the Coast Guard expects to receive 
sufficient funds to cover the reconstitution of all its deployed 
forces. Depending on the length of the post-war deployment, the Coast 
Guard will coordinate with the Department of Homeland Security and the 
Department of Defense to identify the proper resources to support and 
reconstitute the important multi-mission Coast Guard assets that remain 
in the Arabian Gulf.
    Question. The President's fiscal year 2004 budget proposes to 
consolidate several existing Coast Guard accounts: Operating Expenses, 
Environmental Compliance and Restoration, and Reserve Training into one 
Operating Expenses account; and Acquisition, Construction and 
Improvements and Research, Development, Test and Evaluation into one 
Capital Acquisitions account. Is this consolidation of accounts 
necessary? What is accomplished by combining these accounts?
    Answer. The intent of the consolidation is to ensure more 
consistency, simplicity, and flexibility across all DHS components.
    The Operating Expenses appropriation is comprised of the Coast 
Guards traditional Operating Expenses (OE), Environmental Compliance & 
Restoration (EC&R) and Reserve Training (RT) accounts. Environmental 
Compliance & Restoration is a natural fit as it's utilized for clean 
ups of hazardous sites, battery recovery operations or minor 
restorations of contaminated facilities which is a typical use of 
operating expense resources. Reserve Training is also a natural fit 
since it is used for military pay and benefits, training, operational 
equipment and travel expenses--normal uses of Operating Expenses.
    The Capital Acquisitions appropriation is comprised of the Coast 
Guards traditional Acquisition, Construction & Improvements (AC&I), 
Research Development Testing & Evaluation (RDT&E) and Alteration of 
Bridges (AB) accounts. RDT&E fits into the Capital Acquisitions 
structure since these resources, primarily, are the precursor to major 
and minor acquisitions, focused on forming the business and performance 
case for the follow-on procurements. Although we are not requesting 
resources for Alteration of Bridges in fiscal year 2004, recapitalizing 
highway and railroad bridges fits into the structure of a capital 
acquisition process.

                  EMERGENCY PREPAREDNESS AND RESPONSE

    Question. Which functions (budgets, personnel, daily operations, 
etc.) of the Domestic Emergency Support Team, the National Disaster 
Medical System and the Nuclear Incident Response Teams transferred from 
the Federal Bureau of Investigation, the Department of Health and Human 
Services and the Department of Energy to the Department of Homeland 
Security (DHS)?
    Answer. For the National Disaster Medical System (NDMS), 
operations, budgets and authorities have been transferred into DHS. DHS 
and the Department of Health and Human Services (HHS) have entered into 
a memorandum of understanding that provides the basis for HHS-continued 
administrative support for personnel, procurement, finance, and other 
administrative systems until these functions can be moved to DHS or the 
beginning of fiscal year 2004, whichever is sooner. HHS continues to 
support the personnel system used for the activation of approximately 
8,000 civilian volunteers. The NDMS legislative authorities (Public Law 
107-188) transferred to DHS, and the Under Secretary for Emergency 
Preparedness and Response (EP&R) became the head of NDMS.
    The Domestic Emergency Support Team (DEST) is a multi-agency 
response element. The operational control of the DEST transferred from 
the FBI to DHS on March 1st. While each agency supplies its own 
personnel and equipment to the DEST, DHS has assumed the administrative 
and logistical responsibilities for the team.
    All program management responsibilities for the Nuclear Incident 
Response Teams including budgeting, staffing, training, equipping, 
strategic planning, and maintenance remain with the Department of 
Energy (DOE). The responsibility for establishing standards; certifying 
accomplishment of those standards; conducting joint and other exercises 
and training; evaluating performance; and providing funding for 
homeland security planning, exercises, training, and equipment is now 
the responsibility of the Department of Homeland Security.
    The emergency response assets of DOE/National Nuclear Security 
Administration (NNSA) will deploy at the direction of the Secretary of 
DHS through the Under Secretary for EP&R, with the exception of the 
regional Radiological Assistance Program (RAP) teams, which retain the 
authority to self-deploy. While deployed, the emergency response assets 
fall under the operational control of the Secretary of DHS for the 
length of the deployment. All operational functions will be coordinated 
through the Under Secretary for EP&R or his designee, and will be 
consistent with current Presidential Decision Directives, Executive 
Orders, and interagency contingency plans. All deployed assets will 
support the designated Lead Federal Agency and the On-Scene Commander.
    Question. It has been said that DHS will have operational control 
over the Domestic Emergency Support Team, the National Disaster Medical 
System and the Nuclear Incident Response Teams. What is meant by 
operational control? Will the three teams essentially remain at their 
current departments but receive funding through DHS? Do you foresee any 
obstacles in this arrangement to the successful operation of these 
vital systems?
    Answer. DHS and HHS have entered into a memorandum of understanding 
that provides the basis for HHS-continued administrative support for 
personnel, procurement, finance, and other administrative systems until 
these functions can be moved to DHS or the beginning of fiscal year 
2004, whichever is sooner. HHS continues to support the personnel 
system used for the activation of approximately 8,000 civilian 
volunteers. Having the personnel system continue within HHS has not 
adversely affected the readiness of the NDMS. Operational control for 
NDMS means managing the System on a day-to-day basis, including 
authority to activate and deploy, and to direct and manage response 
teams when they are deployed to an incident. DHS is also responsible 
for the strategic development of the response teams.
    The DEST is a multi-agency response element. The operational 
control of the DEST transferred from the FBI to DHS on March 1st. While 
each agency supplies its own personnel and equipment to the DEST, DHS 
has assumed the administrative and logistical responsibilities for the 
team.
    All program management responsibilities for the Nuclear Incident 
Response Teams remain with DOE. The responsibility for establishing 
standards; certifying accomplishment of those standards; conducting 
joint and other exercises and training; evaluating performance; and 
providing funding for homeland security planning, exercises, training, 
and equipment is now DHS' responsibility.
    The emergency response assets of DOE/NNSA will deploy at the 
direction of the Secretary of DHS through the Under Secretary for EP&R, 
with the exception of the regional RAP teams, which retain the 
authority to self-deploy. While deployed, the emergency response assets 
fall under the operational control of the Secretary of DHS for the 
length of the deployment. Operational control is the authoritative 
direction over all aspects of nuclear/radiological operations and 
provides the authority to perform those functions of command and 
control over the response assets involving planning, deploying, 
assigning tasks, designating objectives, and giving authoritative 
direction necessary to accomplish the mission. Operational control 
provides full authority to organize the deployed assets as the DHS 
Secretary, through the Under Secretary for EP&R or his designee, 
considers necessary to accomplish assigned missions. It does not, in 
and of itself, include authoritative direction for logistics or matters 
of administration, discipline, or internal organization. All 
operational functions will be coordinated through the Under Secretary 
for EP&R or his designee, and will be consistent with current 
Presidential Decision Directives, Executive Orders, and interagency 
contingency plans. All deployed assets will support the designated Lead 
Federal Agency and the On-Scene Commander.
    Question. Is it true that DHS is considering changing the name of 
the Emergency Preparedness and Response (EP&R) Directorate to the 
Federal Emergency Management Agency (FEMA) because of its national name 
recognition? If so, how is this possible since EP&R was created by 
statute? Have you discussed this possible change with the House and 
Senate authorizing committees? What would be the benefits of changing 
the name from EP&R to FEMA, since EP&R now encompasses more than what 
was formerly known as FEMA?
    Answer. Such a proposal is under consideration by the 
Administration. DHS will provide notification to the appropriate 
committees if such a change is formally proposed.
    Question. On April 15, 2003, the President made available to DHS an 
additional $250 million in Disaster Relief funding through EP&R to 
assist with the recovery of the Columbia Shuttle disaster and other 
ongoing recovery efforts from previous disasters. Since this additional 
funding is provided to assist with disasters that EP&R has already 
responded to and been working on, is there sufficient funding in the 
Disaster Relief account to sustain operations throughout the remainder 
of the fiscal year?
    Answer. Supplemental funds for the Disaster Relief Fund will be 
required this fiscal year. However, the Administration is still 
reviewing estimates of projected requirements, and will notify Congress 
formally at the appropriate time.

                    OFFICE FOR DOMESTIC PREPAREDNESS

    Question. The fiscal year 2004 budget proposes to manage the First 
Responder initiative through the Office for Domestic Preparedness. The 
budget requests $3.5 billion in funding and earmarks $500 million of 
this amount for assistance to firefighters and $500 million to law 
enforcement. How does the Administration propose to allocate the $500 
million requested for firefighters and the $500 million proposed for 
law enforcement? For example, do you intend to retain the current grant 
programs now being managed by the Emergency Preparedness and Response 
directorate (formerly FEMA) which provide emergency management 
performance grants to states or grants directly to fire departments 
through the Assistance to Firefighters Grant program?
    Answer. There are two separate allocations of $500 million in the 
fiscal year 2004 request. One $500 million allocation will be for 
direct terrorism preparedness assistance to fire departments, similar 
to the Fire Act program being transferred from FEMA. Since its 
inception, DHS's Office for Domestic Preparedness has enjoyed a strong 
relationship with the Nation's fire service. The fiscal year 2004 
Budget strengthens that relationship while integrating direct fire 
department grants into the broader planning process for terrorism 
preparedness.
    The other $500 million allocation request for State and local law 
enforcement for terrorism preparedness and prevention activities which 
include: training and equipment for WMD events, support for information 
sharing systems, training of intelligence analysts, development and 
support of terrorism early warning methods, target hardening and 
surveillance equipment, and opposition force exercises.
    Question. No additional funding is requested for fiscal year 2004 
for critical infrastructure protection grants (funded in the fiscal 
year 2003 Emergency Wartime Supplemental Appropriations Act) or for 
high-threat urban areas (funded in the fiscal year 2003 Consolidated 
Appropriations Act and the fiscal year 2003 Emergency Wartime 
Supplemental Appropriations Act). Do you foresee a need to continue 
funding for either of these grant programs in fiscal year 2004? How 
much is included in the fiscal year 2004 request for each of these 
programs?
    Answer. The $200 million appropriated in the 2003 Emergency Wartime 
Supplemental Appropriations Act was for reimbursement of states for 
expenses incurred protecting critical infrastructure during Operation 
Liberty Shield.
    Urban Area Security Initiative (UASI) was developed and implemented 
after the fiscal year 2004 budget request was developed. We believe the 
states will find this program an integral part of their strategic 
planning, and continue to fund it with grant funds ODP allocates to 
them on an annual basis. DHS will expect state plans and applications 
to make adequate provision for major population centers. Instituting a 
separate grant application process for their needs will lead to overlap 
and duplication.
    Question. First responders funding has been awarded to states with 
a pass-through to local governments on the basis that statewide plans 
are developed to deal with the issues of terrorism preparedness, 
vulnerability assessments and the like, and that the funds be spent by 
the States and local governments consistent with this plan. How 
important do you believe the statewide plans are in assuring the proper 
expenditure of this assistance at the State and local level?
    Answer. The State Homeland Security Strategy is designed to give 
each State and territory one comprehensive planning document that 
includes response requirements for a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, and capabilities at both the 
State and local jurisdiction levels. It should serve as a blueprint for 
the coordination and enhancement of efforts to respond to WMD 
incidents, using Federal, State, local, and private resources within 
the state. Because of the importance of this information, the grants 
are awarded based on the submission of this state plan to ensure the 
state uses the funds according to the needs identified in the strategy.
    There have been many concerns from the government as well as first 
responders in the field regarding the grant funding reaching local 
jurisdictions in a timely manner. Therefore, the fiscal year 2003 State 
Homeland Security Grant Program I (SHSGP I) and SHSGP II incorporate a 
strict timeline to facilitate the release and obligation of this 
funding.
    The SHSGP I application kit was posted online on March 7, 2003. 
States had to submit their applications to ODP within 45, by April 22, 
2003. Applications were reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the states within 21 
days. States have 45 days to obligate funds from the time grant is 
awarded. As mandated by Congress, 80 percent of the equipment funds 
must be provided to local units of government. The required bi-annual 
Categorical Assistance Progress Reports must reflect the progress made 
on providing funds to the local jurisdictions.
    The SHSGP II application kit was posted online on April 30, 2003. 
States must submit their applications to ODP within 30 days, by May 30, 
2003. Applications will be reviewed at ODP within 7 days of submission. 
Once approved by ODP, grants will be awarded to the States within 21 
days. States have 45 days to obligate funds from the time that the 
grant is awarded. As mandated by Congress, 80 percent of the total 
amount of the grant to each State must be provided to local units of 
government. The required bi-annual Categorical Assistance Progress 
Reports must reflect the progress made on providing funds to the local 
jurisdictions.
    Question. In testifying before the Senate Appropriations Committee 
on the fiscal year 2003 supplemental request, you indicated, Secretary 
Ridge, that there may be reason to rethink how we distribute future 
terrorism preparedness funding, whether the population-based 
distribution formula historically used by the Office for Domestic 
Preparedness is appropriate, or whether it should take into account 
such factors as threat, vulnerability, critical infrastructure needs, 
and the like. Does the Administration plan to submit to the Congress a 
proposal to change the formula for the program? What changes in the 
formula will be sought?
    Answer. The current formula for the allocation of ODP funds to the 
States for the fiscal year 2003 State Homeland Security Grant Program 
(SHSGP) I and SHSGP II was computed on a base, pursuant to the Patriot 
Act, plus a population formula. Starting in fiscal year 2004, the 
Department will seek to make changes in how it distributes funding to 
the States. Each State and territory will continue to receive a base 
amount, but the balance of funds will utilize a multi-faceted formula, 
taking into account factors including threat and risk assessments, 
critical infrastructure of national importance, and population density. 
The Administration would support legislation to lower the base amount 
so that more funds are available to allocation based on other factors.
                                 ______
                                 

            Questions Submitted by Senator Pete V. Domenici

                             BORDER ISSUES

    Question. It has been 17 years since the Federal Government 
launched a major effort to upgrade U.S. borders and that effort focused 
only on the Southwest border.
    I have just sponsored the Border Infrastructure and Technology 
Modernization Act (S-539). The new bill will focus on U.S. borders with 
Canada as well as Mexico. This bill has the dual goals of facilitating 
the efficient flow of trade while meeting the challenges of increased 
security requirements.
    This will include:
  --More funding for equipment at our land borders--Additional funding 
        for personnel
  --Additional funding for training
  --And, additional funding for industry/business partnership programs 
        along the Mexican and Canadian borders.
    It is important for the border enforcement agencies to work with 
the private sector on both sides of the border and reward those 
partners who adopt strong internal controls designed to defeat 
terrorist access to our country.
    What are your thoughts on the importance of trade partnership 
programs along the Southwest border?
    Answer. Industry Partnership Programs (IPP) allow the BCBP to 
expand our influence beyond the borders and into Mexico, Central 
America, South America and the Caribbean. Under the umbrella of the 
Customs-Trade Partnership Against Terrorism (C-TPAT), these priority 
initiatives include the Land Border Carrier Initiative Program (LBCIP), 
the Business Anti-Smuggling Coalition (BASC) and the Americas Counter 
Smuggling Initiative Program (ACSI). Each IPP enables the Trade to 
tighten our borders through the enhancement of supply chain security 
standards that deter smugglers from using conveyances and cargo to 
smuggle terrorist devices and narcotics. These complementary programs 
benefit both BCBP and the private sector by securing the integrity of 
shipments destined for the United States while promoting the efficient 
flow of trade.
    We are currently working on additional security requirements that 
take into account the additional terrorist and drug threat on the 
Southwest border for conversion of the LBCIP carriers to C-TPAT. BASC 
chapters have been established throughout Ecuador, Colombia, Costa 
Rica, Mexico, Panama, Peru, Venezuela and most recently in Jamaica, 
where a chapter was founded in March 2003. The ACSI Teams continue to 
support BASC through security site surveys, briefings on smuggling 
trends and techniques and security and drug awareness training.
    The primary purpose of LBCIP is to prevent smugglers of illegal 
drugs from utilizing commercial conveyances for their commodities. 
Carriers can effectively deter smugglers by enhancing security measures 
at their place of business and on the conveyances used to transport 
cargo. By signing agreements with the BCBP, land and rail carriers 
agree to enhance the security of their facilities and the conveyances 
they use and agree to cooperate closely with BCBP in identifying and 
reporting suspected smuggling attempts.
    BASC is a business-led, BCBP supported alliance created to combat 
narcotics smuggling via commercial trade that was formed in March 1996. 
BASC examines the entire process of manufacturing and shipping 
merchandise from foreign countries to the United States, emphasizing 
the creation of a more security-conscious environment at foreign 
manufacturing plants to eliminate, or at least reduce, product 
vulnerability to narcotics smuggling. BCBP supports BASC through ACSI, 
which are teams of BCBP officers that travel to the BASC countries to 
assist businesses and government in developing security programs and 
initiatives that safeguard legitimate shipments from being used to 
smuggle narcotics and implements of terrorism.
    Question. What plans do you have to increase cooperation with the 
Mexican government on border issues?
    Answer. The Border Patrol component of the Bureau of Customs and 
Border Protection will continue to work closely with the Mexican 
government on border issues regarding the safety and security of all 
persons living on and or traveling in the vicinity of the U.S./Mexico 
border. The close cooperation with officials of the Mexican government, 
both at the national and local levels, has recently lead to joint 
border safety initiatives aimed at protecting the lives of those who 
are endangered by the smugglers that prey upon them. The joint safety 
initiatives include water safety and rescue training and public service 
announcements which are broadcast in Mexico to warn border crossers of 
the dangers involved in crossing rivers, deserts and mountainous areas. 
These successful joint ventures with the Mexican government will 
continue to increase as the benefits to the citizens of both countries 
are realized.

            FEDERAL LAW ENFORCEMENT TRAINING CENTER (FLETC)

    Question. Congress created the Federal Law Enforcement Training 
Center (FLETC) to be the consolidated training center for almost all 
law enforcement agencies. As the law enforcement training arm of the 
Department of Homeland Security (DHS) it seems logical that FLETC 
should develop and conduct standardized training for all Homeland 
Security law enforcement and inspection personnel.
    Such a training approach would ensure that all law enforcement 
personnel receive appropriate and consistent instruction. This is 
particularly important as you retrain and cross-train border agencies 
which have been merged under DHS (e.g. Customs, Immigration, and 
Agriculture Inspectors).
    Congress specifically created the Federal Law Enforcement Training 
Facility in Artesia, New Mexico to handle the advanced and special 
training of almost all Federal law enforcement personnel.
    In the past, Federal agencies have chosen not to use FLETC 
facilities for training and instead have contracted with non-Federal 
institutions. Over the past few years, Congress has provided over $30 
million for the FLETC Artesia facility, alone.
    When the need for Federal Air Marshal training arose after 
September 11, FLETC-Artesia answered the call to duty by developing and 
providing this training in a remarkably short period of time. By way of 
example, FLETC-Artesia brought in three 727 airplanes for use in 
training to go along with the 18 firing ranges and 3 shoot-houses.
    FLETC-Artesia boasts 683 beds, state-of-the-art classrooms, and a 
brand new cafeteria to accommodate approximately 700 students a day, 
yet it has been running at around 320 students during fiscal year 2003.
    FLETC-Artesia's close proximity to the Southwestern border, 
recently constructed facilities and optimal training conditions 
certainly suggest the center should be highly utilized by DHS.
    How do you intend to provide training for the newly hired DHS 
personnel as continued training for existing DHS personnel in light of 
the new security challenges facing our country?
    Answer. As we enter a new era in law enforcement operations in the 
United States, the FLETC is a good example of the new government 
approach intended by the legislation creating the DHS: a means to 
harmonize the work of many law enforcement agencies through common 
training, while at the same time maintaining quality and cost 
efficiency. In fiscal year 2003, 65 percent of the FLETC's projected 
training workload will come from nine law enforcement agencies 
transferred to the new Homeland Security department. In fiscal year 
2004, this workload will continue to be above 73 percent of our 
estimated total Federal training workload.
    Under the leadership of Secretary Ridge and Under Secretary 
Hutchinson, FLETC intends to work closely with all segments of DHS. 
Placing FLETC within the DHS will help to support the ``unity of 
command'' and the coordination and efficiency themes sought in the 
public law that created DHS. FLETC has a long history of service to 
many of the DHS components--the U.S. Secret Service, the former Customs 
and Immigration and Naturalization Services including the U.S. Border 
Patrol (USBP), the Federal Protective Service and more recently, the 
Transportation Security Administration (TSA).
    With the start-up of the Bureaus of Customs and Border Protection 
and Immigration and Customs Enforcement, FLETC is ready to help 
facilitate, develop, and implement new training and cross training 
programs. We recognize that much of this effort and expertise will 
necessarily come from the agencies involved, but there likely will be 
significant adjustments made over time to all DHS-related training 
programs, basic and advanced. Already, an effort is underway to 
systematically review existing training for these new entities and to 
address whatever capabilities are needed to meld the duties of the 
participants. In the meantime, training will continue unabated to 
achieve all of the hiring expectations of our agencies.
    Question. How do you intend to use FLETC facilities for training 
DHS employees?
    Answer. The national ``war on terrorism'' precipitated by the 
events of September 11, 2000 placed new and increased demands on the 
Nation's Federal law enforcement agencies. Officers and agents 
immediately began to work extended hours and many have been reassigned 
geographically and/or to expanded duties. Nearly all Federal law 
enforcement agencies made plans to increase their cadre of qualified 
officers and agents, and submitted urgent requests to the FLETC for 
basic law enforcement training far in excess of the FLETC's normal 
capacity. These requests were for increased numbers of graduates and 
for their speedy deployment to buttress the hard-pressed Federal law 
enforcement effort.
    The events of September 11 also increased the need for certain 
advanced law enforcement training conducted at the FLETC, especially 
classes associated with such issues as counter-terrorism, weapons of 
mass destruction, money laundering, etc. Likewise, the need for 
instructor training classes increased, to strengthen the cadre of 
instructors qualified to handle the training surge--at the FLETC and 
within the agencies.
    In addressing the unprecedented increase in training requirements, 
FLETC has conducted capability analyses to determine the set of actions 
most likely to result in optimum throughput without compromising the 
qualifications of graduating officers and agents, and maximizing the 
use of each of its training facilities. With the consultation and 
concurrence of its partner organizations (POs), FLETC leadership 
directed that training be conducted on a six-day training schedule 
(Monday through Saturday), thus generating a 20 percent increase in 
throughput capability. More importantly, the 6-day training schedule 
drives a corresponding compression of the length of each training 
program, effectively delivering each class of new law enforcement 
officers to their agencies weeks sooner than under the conventional 
training schedule. Should the 6-day training schedule be insufficient 
to meet the demand, an extended work day will be considered.
    In addition to the 6-day training schedule, FLETC has expanded its 
staff with a supplemental cadre of re-employed annuitants (primarily 
retired Federal law enforcement officers) who are contributing their 
skills and experience as instructors to help sustain the surge in 
training operations. This is a 5-year authority provided by Congress in 
fiscal year 2002.
    Further, the Federal Law Enforcement Training Center has been 
tasked by BTS with establishing a Training Academy Committee to 
identify and assess the training capabilities of all of the BTS 
training academies. This study will be the basis for determining the 
schedule and priority for training elements of DHS in a coordinated 
manner.
    Question. How should DHS use FLETC Artesia's facilities and 
specialized training capabilities?
    Answer. FLETC intends to utilize its Artesia facility to its 
maximum potential. At the request of the Under Secretary, Border and 
Transportation Security (BTS) Directorate, Department of Homeland 
Security (DHS), the Federal Law Enforcement Training Center has been 
tasked with establishing a Training Academy Committee to identify and 
assess the training capabilities of all of the BTS training academies. 
The Committee will use a two phased methodology to identify the 
training assets and to develop a plan for operating the facilities 
employed by each of the Directorate's bureaus, and will also include 
the Coast Guard, Secret Service, and the Bureau of Citizenship and 
Immigration Services. The operational plan will provide the framework 
for coordinating academy training in all BTS bureaus. The Committee 
will develop and submit a report at the conclusion of each phase 
according to the timelines established by its charter. Once the 
Committee has identified all of the BTS training capabilities, FLETC 
can develop a more definitive utilization plan of facility usage at 
Artesia and all other sites.
   the national infrastructure simulation and analysis center (nisac)
    Question. The National Infrastructure Simulation and Analysis 
Center (NISAC), located at Kirtland Air Force base and run by Los 
Alamos and Sandia Labs is one of the best analytical tools, not only in 
the country, but probably in the world. NISAC should be used as a 
critical management tool across the board by all DHS executives.
    NISAC's mission is to improve the robustness of the Nation's 
critical infrastructure (e.g. oil and gas pipelines, electrical power 
grids, roadways, harbors, etc) by providing an advanced modeling and 
simulation capability that will enable an understanding of how the 
infrastructure operates; help identify vulnerabilities; determine the 
consequences of infrastructure outages; and optimize protection and 
mitigation strategies.
    How do you plan on using this facility to its fullest potential?
    Answer. We anticipate that the NISAC will provide a capability for 
complex analysis of infrastructures, infrastructure interdependencies 
and project cascading effects for both tactical and strategic decision 
making. While NISAC is still in early development and the actual 
capabilities have yet to be proven in an integrated manner the initial 
capabilities look promising.
    Question. Where do on plan on locating it in the new organization?
    Answer. The fiscal year 2003 Omnibus Appropriations requires the 
development of a NISAC in New Mexico. During the initial phases of 
development the NISAC Program Office will be in Washington, DC and we 
will begin building technical capacity in New Mexico. A specific 
location for a permanent facility has not yet been selected. The NISAC 
will be a DHS owned and operated facility with a DHS management team 
and a resident contractor technical staff from academia, support 
contractors and the national laboratories.

                     PURCHASE OF THE TOWN OF PLAYAS

    Question. Approximately one week ago, I sent you a letter 
suggesting the Department of Homeland Security purchase the town of 
Playas for the training of State and local first responders.
    As you are aware, Playas is a deserted company town in Southern New 
Mexico that could be used as a real world anti-terrorism training 
center.
    Playas incorporates almost 260 homes, several apartment buildings, 
a community center, post office and airstrip, a medical clinic, 
churches and other typical small town structures.
    This town would cost the government $3.2 million--a bargain that 
should not be passed up. While Federal law enforcement has access to 
modern training facilities at FLETC, State and local first responders 
do not have access to the same quality of facilities. Playas can meet 
this vital need in a cost-effective manner.
    Currently, New Mexico Tech, a member of Homeland Security's 
National Domestic Preparedness Consortium, has put together a proposal 
for the Department of Homeland Security through their Office of 
Domestic Preparedness to purchase Playas.
    What role do you foresee Playas playing in the defense of our 
homeland?
    Answer. At this time, a decision as to the role of Playas is 
undetermined, although the site could have potential value in a 
national training architecture. Playas' usefulness as a location for 
homeland defense preparedness training must first be assessed through a 
feasibility study to determine if acquisition of the property will make 
a contribution to the national first responder training program.
    Question. Will you evaluate the feasibility of using Playas as a 
training site for State and local first responders before we lose this 
unique opportunity?
    Answer. A feasibility study to determine the potential use of 
Playas as a training center would be the first step in the decision-
making process. If upon review of the completed feasibility study a 
decision is made to move forward with utilizing the property for a 
training facility, a detailed plan will be developed to determine the 
most advantageous manner in which to acquire the property. This would 
be a lengthy process given the many legal issues involved, particularly 
if the decision is for the Federal Government and ODP to purchase or 
lease the property.
    DHS is committed to using existing training sites to their fullest 
capacity and capabilities before acquiring any additional facilities. 
Facilities under the control of DHS components, such as the U.S. Secret 
Service, Office of Domestic Preparedness, Federal Law Enforcement 
Training Center and the U.S. Coast Guard, will first be considered in 
assessing site usage for first responder training. To the extent 
feasible and necessary, DHS also will review the capabilities of State 
and local law enforcement academy sites, which may provide more cost 
effective means for training partnerships. At this time, there does not 
appear to be a need for the acquisition of a ``town'' setting to 
conduct presently identified training needs. Should circumstances arise 
that may warrant such consideration, DHS will be pleased to evaluate 
the Playas, NM site.

                          NATIONAL GUARD ISSUE

    Question. I have been told that the Department of Defense has 
decided to terminate National Guard support to the Department of 
Homeland Security's border inspection operations. I believe that the 
National Guard has been an intricate partner with Customs for well over 
a decade, providing the extra hands necessary to help inspect cargo at 
our land borders, seaports, and mail facilities. I believe there are 
approximately 350 National Guardsmen working alongside Customs in this 
capacity, at any given time.
    This work is of particular importance to New Mexico on our border 
with Mexico. There are approximately 52 guardsmen along the New Mexican 
border supporting a total of 90 plus Customs, Immigration and 
Agriculture inspectors. It is my understanding that for every guardsman 
who works searching cargo or screening mail allows an extra Department 
of Homeland Security (DHS) inspector to be on the frontlines looking 
for terrorists.
    As I understand, the Defense Department would like to place these 
guardsmen in positions (along the U.S. border) that are more ``military 
unique'', such as intelligence collection.
    Is now the time for DOD to move these guardsmen from these critical 
positions?
    Answer. In September 2002, DOD officially informed the U.S. Customs 
Service, now Bureau of Customs and Border Protection (BCBP), that they 
would discontinue funding National Guard counternarcotics support of 
BCBP's Cargo and Mail Inspection operations (the only BCBP operations 
supported by National Guard soldiers) effective September 30, 2003. DOD 
subsequently changed this date to September 30, 2004.
    As a result of the September 2002 notification, aggressive hiring 
strategies to offset any negative impact of losing National Guard 
support were implemented. Through regular appropriations, supplemental 
funding and an overall increase in our inspector corps as a result of 
the March 1, 2003 transition to BCBP, our agency is prepared to do 
without National Guard support beginning October 1, 2004.
    Question. Shouldn't we be increasing the number of guardsman at our 
borders?
    Answer. As a result of the significant increase in BCBP staffing, 
as outlined above, it is not necessary to retain National Guard support 
at our borders, nor is it necessary to increase the number of National 
Guard soldiers at the border locations. BCBP welcomes National Guard 
support beyond September 30, 2004, but the support is not critical for 
BCBP to accomplish its mission.
    Question. If DOD pulls the Guard from the border will DHS need more 
funding to replace personnel?
    Answer. No. Through regular appropriations, supplemental funding 
and an overall increase in our inspector corps as a result of the March 
1, 2003 transition to BCBP, our agency is prepared to do without 
National Guard support beginning October 1, 2004.
                                 ______
                                 

         Questions Submitted by Senator Ben Nighthorse Campbell

    Question. I understand that the Denver International Airport has 
been working closely with the Transportation Security Administration to 
modify its baggage conveyor system so the TSA can permanently install 
explosive detection systems to screen checked baggage at an estimated 
cost of $90 million.
    Denver has plans ready and the construction contracts in place and 
could get started today. However, Denver is still waiting for the TSA 
to release the initial $30 million that the TSA has committed to 
providing to get the first phase underway.
    I would hope that the TSA would get this crucial funding disbursed 
so that this important work could get started as soon as possible.
    Can you tell me why this funding has to date been withheld?
    Answer. TSA has been in negotiations with Denver on the funding 
process. These negotiations are in the final stages, and I hope to have 
a completed agreement by early June.
    Question. When do you expect the TSA will release the $30 million 
to Denver?
    Answer. TSA will release the $30 million once an agreement has been 
reached and executed by both parties.
    Question. What is the schedule for providing the remaining $60 
million?
    Answer. TSA is completing LOI plan which will describe the Federal 
commitment for Denver and other airports under the LOI authority.
                                 ______
                                 

             Questions Submitted by Senator Robert C. Byrd

    Question. Why has the Administration requested $30 million for 
funding of the new Department of Homeland Security headquarters 
facility in the Department's budget as opposed to in the General 
Services Administration budget--where most Federal construction 
projects are funded? Does the Department intend to assume over time the 
construction and repair and alteration requirements of other facilities 
(such as ports of entry) which are now part of the new Department?
    Answer. The budget request included language that joined DHS and 
GSA together in working through the design and site acquisition 
process. We believe that this partnership will work well in satisfying 
DHS needs for ensuring that the permanent DHS headquarters is 
established at the earliest possible time while ensuring that GSA's 
proven acquisition expertise is utilized. This partnership should also 
result in GSA eventually taking over and operating the DHS headquarters 
building under the Federal Buildings Fund system with allowances made 
for the extent of DHS's contribution to the project. With regard to 
assumption of construction, repair and alteration requirements of other 
facilities which are now part of DHS, we intend to examine the most 
cost effective and efficient ways of accomplishing these activities.
 legacy custom service and immigration and naturalization service fees
    Question. A significant portion of the budgets of the new Bureaus 
of Customs and Border Protection and Immigration and Customs 
Enforcement are based on the assumed collection of fees from the legacy 
Customs Service and Immigration and Naturalization Service. What 
happens if these fees do not materialize or materialize at levels lower 
than estimated? How do you intend to bridge that funding gap should one 
occur?
    Answer. If funding shortages occur because of smaller fee receipts, 
BCBP will adjust the level of inspection services accordingly in order 
to function within available resources.

                        EXPIRATION OF COBRA FEES

    Question. The COBRA fees--which provide funding for nearly 1,100 
legacy Customs personnel as well as nearly all overtime for the legacy 
Customs inspectors--expire at the end of this fiscal year. What, if 
anything, are you doing to extend these fees? Have you submitted 
legislation to the appropriate authorizing committees and discussed 
with them the need for the extension of these fees? Also, what 
contingency plans, if any, do you have in place to cover the costs of 
the current COBRA-funded functions should the fees not be extended in 
time?
    Answer. We have briefed both the HouseWays and Means Committee and 
the Senate Finance Committee staffs on the need for an extension of the 
COBRA fees, and both Committees have developed proposals to extend the 
fees. The expiration of the COBRA fees will present numerous problems 
for BCBP as well as fee paying parties-in-interest. Other existing 
statutes require that airlines be billed for overtime services and pre-
clearance (19 USC 267 and 31 USC 9701) and that foreign trade zones and 
bonded warehouses be billed for inspectional and supervision services 
(19 USC 81n and 19 USC 1555). Other charges, such as fees for 
reimbursement of compensation of boarding officers under 19 USC 261 
will also need to be reinstated. These statutes are held in abeyance 
while the COBRA fees are in effect (see 19 USC 58c(e)(6)). While the 
reimbursements from these other statutes would offset some of the 
losses from the expired COBRA fees, the amounts are not expected to be 
significant. If the COBRA fees expire, service to international 
passengers and the trade would need to be reduced to a level 
commensurate with available funding. It should also be noted that the 
failure to reauthorize the fees provided for under the COBRA statute 
(19 USC 58c) will result in an additional loss in collections of 
approximately $1 billion annually. This represents the Merchandise 
Processing Fees, which are deposited into the General Fund of the 
Treasury as an offset to the commercial operations portion of the BCBP 
budget

                      REVISED DEPARTMENT PAY PLAN

    Question. A report from the Office of Personnel Management was due 
February 24 on the plan to merge the various individual pay and 
benefits systems in the new Department. An outline on issues to be 
considered in developing such a plan was delivered a few weeks after 
the due date. What is the status of the pay and benefits plan? When 
will a final plan be proposed? Do you anticipate that further 
legislation will be needed to implement the plan? What Federal agencies 
and entities, as well as outside organizations, are participating in, 
or are you consulting with, on the development of the plan?
    Answer. The Design Team which we have established to develop 
options for a new Human Resource Management System for the Department 
has been asked to address issues of pay and benefits as an integral 
component of the larger system design. The Design Team is conducting 
basic research during the early summer months. The schedule for the 
Design Team calls for the presentation of options later this fall. The 
authorities granted to DHS and OPM in the Homeland Security Act will 
allow us to address some of the differences of basic compensation in 
regulation--any changes to benefits or premium pay would require 
legislation. The Design Team has reached out to many Executive Branch 
agencies in the conduct of its research. In addition, they have met 
with private and public sector entities from around the country, they 
have consulted with the General Accounting Office and the Merit Systems 
Protection Board. And they will be conducting town hall and focus group 
meetings around the country with DHS employees and their 
representatives during the month of June. The Team itself includes 
human resource professionals from both DHS and OPM, management and 
employee representatives from DHS, union professional staff and local 
union representatives of DHS bargaining units.

              NATIONAL CAPITAL REGION AIRSPACE PROTECTION

    Question. Is it true that there are no air assets--either rotary or 
fixed wing--permanently assigned to the National Capital Region and 
that the Bureau of Immigration and Customs Enforcement helicopters 
currently protecting our airspace are borrowed from other parts of the 
country? How many assets have been assigned to this region and from 
which parts of the country are they being borrowed? How long are they 
expected to be assigned to this region? What are the impacts on the on-
going operations at the other regions from which these assets have been 
borrowed? Is there a long term ``fix'' in the planning stages for this 
problem?
    Answer. The Bureau of Immigration and Customs Enforcement (BICE), 
Office of Air and Marine Interdiction (OAMI) is providing two Blackhawk 
helicopters and two Citation Tracker aircraft with associated aircrews 
and support personnel for National Capital Region (NCR) air security 
operations. Additionally, OAMI is providing Detection Systems 
Specialists (DSSs) and four operator consoles from the Air and Marine 
interdiction Coordination Center to establish and provide 724 law 
enforcement air surveillance to the NCR. These assets are drawn from 
throughout the OAMI program and are rotated on a regular basis to 
minimize the impact to any one sector. The impact on aircraft 
maintenance at the other regions is the loss of productive man-hours to 
support the remaining aircraft, thus limiting the maintenance 
contractor's flexibility to meet other surge demands. There is no 
expectation of this mission terminating.

                           LETTERS OF INTENT

    Question. The fiscal year 2003 Iraqi War Supplemental (Public Law 
108-11) included a provision allowing the Under Secretary for Border 
and Transportation Security to issue letters of intent to airports to 
provide assistance in the installation of explosive detection systems. 
What is the status of this issue? Is the Office of Management and 
Budget delaying the issuance of these letters?
    Answer. TSA has received OMB approval to begin using the letter of 
intent (LOI) process included in Public Law 108-11. Along with the LOI, 
TSA and the airport develop and enter into a Memorandum of Agreement 
(MOA) to outline the specific details of the work to be accomplished to 
complete an in-line explosive detection system (EDS) solution. TSA is 
working to complete and LOI plan which will outline the Federal 
Government's commitment to EDS integration.

               PRIVATE MAIL RADIATION DETECTION EQUIPMENT

    Question. The Department has provided its employees who inspect 
U.S. Postal Service mail with radiation detection equipment. Does it 
also provide similar equipment for employees who inspect United Parcel 
Service and FedEx mail? If not, why not? Is there a plan to provide 
this equipment in the future?
    Answer. The equipment used by employees inspecting DHS deliveries 
is used while screening deliveries from the U.S. Postal Service, United 
Parcel Service, and FedEx. Its use has proven effective to date and it 
is expected that it will continue to be used in the future.

                          OPERATION GREENQUEST

    Question. By all accounts, the on-going anti-terrorism initiative 
known as ``Operation Greenquest'' is working quite well. However, there 
have been rumblings that the FBI may be attempting to take control of 
the Operation from the Department's Bureau of Immigration and Customs 
Enforcement. Is this true? If so, does the Department support shifting 
control of the program from legacy Customs to the FBI? For what reason?
    Answer. In an effort to unify the U.S. Government's war against 
terrorist financing, the Departments of Homeland Security and Justice 
entered into a Memorandum of Agreement (MOA) on May 13, 2003. This MOA 
assigns lead investigative authority and jurisdiction regarding the 
investigation of terrorist finance to the Federal Bureau of 
Investigation (FBI).
    Those cases that are determined to be ``terrorist financing'' cases 
will be investigated only through participation by the Bureau of 
Immigration and Customs Enforcement (BICE) in the FBI Joint Terrorism 
Task Forces (JTTF). All appropriate BICE-developed financial leads will 
be reviewed by the FBI, and if a nexus to terrorism or terrorist 
financing is identified, the leads will be referred to the JTTF under 
the direction of the FBI's Terrorist Financing Operations Section 
(TFOS). There are no provisions in the current agreement between DHS 
and DOJ that allow for delegation of authority of terrorist financing 
investigations.
    In accordance with BICE's independent authority and jurisdiction 
relative to other financial crimes and money laundering investigations, 
BICE will be the lead investigative agency for financial investigations 
that are not specified as ``terrorist financing'' cases. BICE will 
continue to vigorously and aggressively proceed with its DHS mission to 
target financial systems that are vulnerable to exploitation by 
criminal organizations, and to protect the integrity of U.S. financial 
infrastructures.
   justice department's recent decision regarding illegal immigrants
    Question. On April 24, Attorney General Ashcroft announced that his 
agency has determined that broad categories of foreigners who arrive in 
the United States illegally can be detained indefinitely without 
consideration of their individual circumstances if immigration 
officials say their release would endanger national security. 
Apparently, Homeland Security officials appealed that decision but 
their objections were overruled by the Attorney General. There are 
significant costs that are born by detaining illegal immigrants until 
their eventual deportation. For instance, it is estimated that the 
detention of Haitians in Florida over a 6 month period has cost the 
Department $12.5 million. Given that the Justice Department decision 
could have a significant impact on the Homeland Security Department's 
budget, how will the costs of these policy decisions be paid and by 
whom? Is the Department making further appeals of the Justice 
Department's ruling in this case?
    Answer. BICE is fully supportive of the decision by the Attorney 
General to allow national security implications to be considered as 
part of bond determinations. This decision was requested by BICE in the 
face of a recent Board of Immigration Appeals (BIA) decision which had 
ruled that bond determinations could only be based on individual 
circumstances.
    However, there are other factors which have the potential to 
significantly impact already tight funding for bed space in BICE 
detention facilities. For example, the Supreme Court's recent decision 
in DeMore v. Kim, upholding the constitutionality of mandatory 
detention, while welcome, requires BICE to take approximately 4,000 
aliens into custody in the near future. Other factors include increase 
detention needs based on SEVIS, NSEERS, and the absconder initiative. 
These new factors, combined with reductions to the funding level for 
the fiscal year 2003 Detention and Removal budget may require BICE to 
submit a request for supplemental appropriations.
    There were two reductions to the funding level for the fiscal year 
2003 Detention And Removal budget. In the appropriated account, $615 
million identified for the Office of the Federal Detention Trustee was 
reduced by $22 million in the Conference Report. In the User Fee 
account, Detention and Removal funds were reduced by $5.6 million due 
to a decrease in expected User Fee revenue. As a result, without an 
appropriation supplemental, 1,081 beds would have to be reduced to 
cover the deficit. If a reduction in beds is necessary, the result will 
be 9,729 fewer aliens being detained. For aliens in detention, 
approximately 92 percent are removed, while approximately 13 percent of 
aliens on the non-detained docket are removed. Thus, the reduction in 
1,081 beds may result in 7,686 fewer removals.

                          PORT SECURITY GRANTS

    Question. On November 25, 2002, the President signed the Maritime 
Transportation Security Act of 2002, which addresses our need to 
quickly reduce the vulnerability of our seaports.
    On that day, the President said the following and I quote: ``We 
will strengthen security at our Nation's 361 seaports, adding port 
security agents, requiring ships to provide more information about the 
cargo, crew and passengers they carry.''
    The Coast Guard has since estimated the cost of implementing this 
Act at $1.4 billion in the first year and $6 billion in the next 10 
years.
    Congress has worked diligently to establish a mechanism for direct 
Federal grants to assist the ports. All together, we have provided $348 
million to help ports establish new security measures. Unfortunately 
none of these funds were requested by the Administration. In the most 
recent competition, ports sent in over $1 billion in applications for 
$105 million in funding.
    Mr. Secretary. Just 2 months after signing the Maritime 
Transportation Security Act, the President sent to Congress a budget 
for fiscal year 2004 that included no funds for Port Security Grants. 
Yet, in the State of the Union, the President said, that we've 
intensified security at ports of entry. How do you reconcile these 
statements with the President's request?
    Answer. There are elements within the Coast Guard's fiscal year 
2003 and 2004 budgets that represent a significant Federal investment 
in the increased security of our ports. These budgets make substantial 
headway in implementing the Coast Guard's Maritime Strategy for 
Homeland Security.
    For example, the Coast Guard developed and promulgated a Notice of 
Arrival regulation, which requires vessels to provide advance vessel, 
people, and cargo information to the Coast Guard. This regulation 
expanded the pre-9/11 Notice of Arrival requirements to include: 96-
hour advance notice vice 24 hours; passenger and crew information; and 
additional information on previous ports of call and hazardous cargoes 
carried on board each vessel.
    To centralize collection and processing of Notices of Arrival, the 
Coast Guard established the National Vessel Movement Center. This unit 
collects all of the Notice of Arrival information and enters it into a 
database that is accessible to Coast Guard units, as well as other 
agencies, including Bureau of Immigration and Customs Enforcement and 
the Centers for Disease Control.
    In response to the Maritime Transportation Security Act (MTSA) the 
Coast Guard is developing regulations to improve the security of 
vessels, waterfront facilities, and ports. The Coast Guard plans to 
publish these interim rules by July 2003 and final rules by November 
2003.
    Aside from Coast Guard, the fiscal year 2004 budget provides $462 
million in the IAIP account for vulnerability assessments and 
mitigation, as well as $18 million for the Customs Trade Partnership 
Against Terrorism (C-TPAT) and Free and Secure Trade (FAST) initiatives 
and $62 million for the Container Security Initiative in the Bureau of 
Customs and Border Protection..
    Question. Mr. Secretary, the Administration has provided 
significant Federal aid to our airports to cover much, if not all, of 
the security costs associated with passengers and baggage screening, 
and I agree with that funding, but I am left wondering why port 
security is such a low priority. In the fiscal year 2003 omnibus bill, 
Congress approved $150 million of unrequested funds for port security 
grants. Would you commit to the Subcommittee that these dollars will be 
used immediately to cover some of the $1 billion of pending 
applications?
    Answer. Port security is a high priority within the Department. We 
will continue to work with the Administration in developing budget 
execution plans for the spending of fiscal year 2003 appropriated funds 
for port security grants.

                 TRANSPORTATION SECURITY ADMINISTRATION

    Question. One of the entities folded into the new Department of 
Homeland Security is entitled the Transportation Security 
Administration, not the Aviation Security Administration. Yet, within 
the $4.8 billion TSA budget, only $86 million is requested for maritime 
and land security activities while over $4.3 billion is requested for 
aviation security. In fact, the budget request for administrative costs 
associated with TSA headquarters and mission support centers ($218 
million) is 2.5 times greater than the request for maritime and land 
security.
    Mr. Secretary, why has more funding not been requested for other, 
equally important modes of transportation? Based on your analysis of 
the vulnerabilities of the various transportation modes, is the 
security of the airlines more important than the security of our ports, 
our busses and subways or AMTRAK?
    Answer. DHS has requested substantial resources across the 
Department for security needs outside of aviation, including resources 
in the Coast Guard for ports and maritime security; in BCBP for cargo 
security; in IAIP for vulnerability assessment, intelligence, and 
infrastructure protection for all sectors including transportation; and 
in EP&R for emergency response. ODP recently proposed spending $75 
million on port security and $65 million on mass transit security in 
fiscal year 2003. For its part, TSA continues key standards-setting 
efforts, and will work closely with modal administrations of the 
Department of Transportation to help leverage resources of that agency, 
where appropriate, to accomplish security goals. This type of 
cooperation has already occurred in many areas, for example hazardous 
materials transportation by truck.

                   CODE YELLOW TERRORISM ALERT LEVEL

    Question. Mr. Secretary, on April 16, 2003, the Department of 
Homeland Security reduced the terrorism alert level from code orange to 
code yellow. According to your statement at the time, the change in 
threat level was the result of the Department's review of intelligence 
and updated threat assessments from the intelligence community. 
However, there have been numerous media reports that the Department 
also considered the cost of heightened security as a determining factor 
in the decision to move from orange to yellow alert.
    As we have discussed before, heightened alert levels require States 
and local government to spend more on protecting its citizens. On the 
day that you last testified before this subcommittee, the U.S. 
Conference of Mayors released a study that showed cities were spending 
an additional $70 million per week in personnel costs alone, to keep up 
with the demands of increased domestic security. I know that you have 
heard similar complaints from private industry.
    Shouldn't the Department be providing the resources to pay for 
heightened security, rather than lowering threat levels to avoid 
providing these resources?
    Answer. While the supplemental provided limited assistance with 
Operation Liberty Shield, The Administration as a general rule is not 
planning to reimburse costs associated with changing the threat level. 
However, we are making resources available (ODP etc.) to enhance their 
permanent capabilities to respond to increased threat. The President's 
budget requested $462 million for vulnerability reduction efforts under 
the Assistant Secretary for Infrastructure Protection. Part of that 
mission will take into account the consequences of loss, vulnerability 
to terrorism, likelihood of success by terrorists, terrorist 
capabilities, and threat assessments to determine the relative risk to 
critical infrastructure and key assets. Specifically, DHS has begun 
implementation of a plan to reduce the vulnerabilities of high value/
high probability of success terrorist targets within the United States.

                FIRE GRANTS AND FIRST RESPONDER FUNDING

    Question. Mr. Secretary, FEMA--in conjunction with the National 
Fire Protection Association--released a study on January 22, 2002, 
entitled ``A Needs Assessment of the U.S. Fire Service'' which reported 
that only 13 percent of our Nation's fire departments are prepared 
handle a chemical or biological attack involving 10 or more injuries. 
Last year, FEMA awarded $334 million in fire grants but received over 
19,000 applications that requested over $2 billion.
    Given the critical unmet needs of our Nation's first responders, I 
simply do not understand the Administration's lack of commitment to 
this program. In fiscal year 2002, the President refused to spend $150 
million approved by the Congress for this program. For fiscal year 
2003, the President proposed to eliminate all funding for the program. 
For fiscal year 2004 you are proposing a 33 percent reduction to the 
fire grants program from the 2003 enacted amount of $745 million.
    Please explain to the subcommittee why the Administration does not 
view this program as a critical part of our strategy to secure the 
homeland.
    Answer. The responsibilities of the fire service have expanded 
since 9/11 to include planning for and responding to possible terrorist 
attacks. However, one of our most significant concerns is that the 
current Assistance to Firefighters Grant Program does not emphasize 
these critical terrorism preparedness needs, and the allocation of 
specific grants is not coordinated with other State and local 
preparedness funds and plans. Also, States and localities have long 
asked for a one-stop shop for first responders grants.
    This is why the fiscal year 2004 Budget consolidates fire grants in 
the Office for Domestic Preparedness, with no less than $500 million of 
the President's $3.5 billion First Responder Program allocated for fire 
services. In addition, State and local governments may also use their 
formula funds to address fire service needs. As a result, we believe 
fire services will actually receive higher funding under the proposed 
Budget. While key aspects of the current Assistance to Firefighters 
grant program--peer review of competitive funding proposals and direct 
grants to fire departments--will be retained, this shift will allow 
these grants to be more focused on terrorism preparedness and better 
integrated with other State and local funding priorities.

                  DRINKING WATER SYSTEM VULNERABILITY

    Question. On June 12, 2002, the President signed the Public Health 
Security and Bioterrorism Preparedness and Response Act of 2002. That 
Act amended the Safe Drinking Water Act to require each community water 
system serving a population of greater than 3,300 persons to: conduct 
an assessment of the vulnerability of its system to a terrorist attack 
or other intentional acts intended to substantially disrupt the ability 
of the system to provide safe and reliable drinking water and, where 
necessary, develop an emergency response plan that incorporates the 
results of the vulnerability assessments. It also authorized grants to 
pay for basic security enhancements identified in the vulnerability 
assessments, such as fences, locks, and security cameras. Industry 
estimates show that the vulnerability assessments alone will cost $450 
million. Security enhancements are estimated at $1.6 billion.
    Has the President requested funds to help State and local 
governments make sure that our citizens can trust that their drinking 
water is safe?
    Question. The President has not requested funds to pay for upgrades 
to water systems at risk of a terrorist attack such as intentional 
introduction of chemical, biological or radiological contaminants into 
community water systems. Why is this not a priority of the President?
    Answer to SEC-107 and 108. The Department is currently in the 
process of working with the States to help them to assess their ability 
to deal with chemical, biological and radiological attacks. The Office 
of Domestic Preparedness, as directed by Congress, has refined the 
State Homeland Security Assessment and Strategy Process (SHSAS) that 
was originally established in fiscal year 1999 to assess threats, 
vulnerabilities, capabilities, and needs regarding weapons of mass 
destruction terrorism incidents at both the State and local levels. The 
fiscal year 2003 SHSAS will allow State and local jurisdictions to 
update their assessment data to reflect post-September 11, 2001 
realities, to include potential risks to the water systems, as well as 
to identify progress on the priorities outlined in their initial 
strategies. The refined process will also serve as a planning tool for 
State and local jurisdictions, and will assist ODP and its partners in 
allocating Federal resources for homeland security.

                             SUPPORT TEAMS

    Question. The National Guard has thirty-two Weapons of Mass 
Destruction (WMD) Civil Support Teams prepared to deploy rapidly to 
assist a locality in responding to a chemical, biological or nuclear 
attack. Each of these teams has been certified as fully ready to assist 
civil authorities respond to a domestic weapon of mass destruction 
incident, and possesses the requisite skills, training and equipment to 
be proficient in all mission requirements.
    The 2002 Defense Authorization Act requires DOD to establish 23 
more teams, with at least one team in each State. I was surprised to 
learn that the President requested no funding in his fiscal year 2004 
budget to implement this requirement.
    The following States represented by Members of this Subcommittee do 
not have WMD Civil Support teams: Mississippi, New Hampshire, Maryland, 
Vermont, and Wisconsin.
    Mr. Secretary, can you explain why the President did not request 
any funds for equipping and training National Guard units to help our 
local first responders cope with a terrorist attack here in America? 
Were any of these units sent to the Persian Gulf?
    Answer. We did not participate in the National Guard's fiscal year 
2004 budget development process and am not aware of National Guard 
Weapons of Mass Destruction (WMD) Civil Support Teams that may have 
deployed to the Persian Gulf.

     COMPUTER ASSISTED PASSENGER PRE-SCREENING SYSTEM II (CAPPS II)

    Question. Included in the Transportation Security Administration's 
budget request is $35 million for a new passenger screening program 
known as the Computer Assisted Passenger Pre-Screening System II (CAPPS 
II). This new system is designed to enhance airline passenger safety by 
mining commercial databases of personal information, and using 
``pattern analysis'' to predict which passengers might engage in 
terrorist activities. The TSA will assign each passenger a risk level 
of green, yellow or red, and will use that determination to prevent 
certain passengers from boarding the plane.
    Congress built a number of safeguards into the Homeland Security 
Act to protect against privacy invasions. But to date, the Department 
has not made any information about development of the system available 
to the public, nor has it confirmed that it will publish guidelines for 
the program.
    Despite the fact that your agency has not yet published rules or 
guidelines for the development of the CAPPS II system, the Department 
has gone ahead and issued a preliminary contract for the development of 
CAPPS II. When will you issue the guidelines and procedures by which 
CAPPS II will operate?
    Answer. TSA has issued a proposed Privacy Act notice (January 15, 
2003), which contains guidelines and requirements for the records 
system that will support CAPPS II. This proposed notice is now being 
reviewed to address the many comments received from the public. A final 
notice will be published in the near future. This final notice will 
reflect the input we have received from members of the public, as well 
as privacy advocacy groups and stakeholders.
    TSA will establish guidelines for CAPPS II before it becomes fully 
operational. These guidelines will undergo thorough review at several 
levels within TSA and the Department before being finalized.
    Question. I was pleased to see that you filled the Privacy Officer 
position at the Department. It is important that the proper 
institutional oversight be in place before moving forward with systems 
such as CAPPS II. Will the Privacy Officer at the Department formally 
review the proposed CAPPS II guidelines before they are finalized? Will 
the appropriate Congressional committees be given an opportunity to 
review the proposed CAPPS II guidelines before they are finalized?
    Answer. TSA has issued a proposed Privacy Act notice (January 15, 
2003), which contains guidelines and requirements for the records 
system that will support CAPPS II. This proposed notice is now being 
reviewed to address the many comments received from the public. A final 
notice will be published in the near future. This final notice will 
reflect the input we have received from members of the public, as well 
as privacy advocacy groups and stakeholders.
    TSA will establish guidelines for CAPPS II before it becomes fully 
operational. These guidelines will undergo thorough review at several 
levels within TSA and the Department before being finalized. The Chief 
Privacy Officer of DHS has already begun her review of the system and 
will remain an active participant throughout the developmental and 
operational stages. Naturally, the proposed guidelines will be 
submitted to the appropriate Congressional committees for review and 
comment.

   BORDER SECURITY--GAPS IN SCREENING ENTRANTS INTO THE UNITED STATES

    Question. Last year the Senate Finance Committee tasked the General 
Accounting Office with sending agents out to try to enter the United 
States from Canada, Mexico, and Jamaica using false names and 
counterfeit identification documents. In short, in each instance, those 
GAO officials succeeded in using these fake documents to enter the 
United States. On at least one occasion they were not even stopped as 
they crossed over at one port-of-entry.
    The results of this exercise led the General Accounting Office to 
conclude that (1) people who enter the United States are not always 
asked to present identification, (2) security to prevent unauthorized 
persons from entering the United States from Canada from at least one 
location is inadequate and (3) inspectors from the former INS are not 
readily capable of detecting counterfeit identification documents.
    Mr. Secretary, do the results of this exercise trouble you? Will 
the modest increases you have proposed in the number of border 
enforcement and inspection personnel rectify these gaps or do you need 
to change your Department's procedures and training requirements?
    Answer. The results of the General Accounting Office (GAO) exercise 
have to be regarded in the appropriate context. Under law, U.S. 
citizens are not required to present any travel document or other 
identification when reentering the United States from anywhere in the 
Western Hemisphere other than Cuba. Similarly, citizens of Canada are 
not required under law to present any travel document or other 
identification when entering the United States from Canada. In each of 
these scenarios, a BCBP Inspector may accept a verbal declaration of 
citizenship and may admit the declarant to the United States if they 
are satisfied that he or she is indeed a United States or Canadian 
citizen. Especially at our land border Ports-of-Entry (POEs), Bureau of 
Customs and Border Protection (BCBP) Inspectors have very little time 
to determine whether or not to select a traveler for more intense 
scrutiny. In a matter of seconds they are required to examine the 
individuals, their documents, and their conveyances and determine 
whether their declaration of citizenship and their customs declaration 
appear accurate or require further examination.
    In the case of the GAO exercise, it was quickly determined that the 
Agents were indeed United States citizens. This was clear from their 
appearance, their demeanor and their language. Once satisfied that the 
person with whom they are dealing is a U.S. citizen and that there is 
no indication that they are smuggling goods or people, BCBP Inspectors 
are required to move them quickly through the POE. Standing immigration 
inspection instructions mandate close scrutiny of any documentary 
evidence of U.S. citizenship if the Inspector suspects that a false 
claim to citizenship is being made. Such was not the case in this 
instance. Indeed, it is questionable whether the Agents' or any other 
U.S. citizen's presentation of counterfeit evidence of citizenship is 
in any way legally actionable, since citizens cannot be excluded from 
the United States and no documentation is required for entry.
    Finally, the variety of identity documents available to United 
States and Canadian citizens, when one considers the number of Sates, 
territories and provinces and the various editions of drivers' licenses 
and birth certificates in circulation, is extremely large. I would be 
concerned that such focus on increased scrutiny of such a wide variety 
of documentation in the case of each and every citizen crossing the 
border would detract from, rather than enhance, BCBP's principal 
mission of identifying and interdicting terrorists and weapons of mass 
destruction.
    Question. What steps do you intend to have the Department take to 
address these gaps--such as better training or more intense document 
scrutiny--and what additional resources do you need to do so?
    Answer. I believe that this is more an issue of law and policy of 
national significance rather than an issue of training and resources 
for BCBP. While, this GAO exercise raises two principal points of 
focus, neither speak to the training or skills of BCBP Inspectors. The 
first is the issue of what documentation should be required of United 
States and Canadian citizens seeking to enter the United States. 
Citizens of these two countries, especially those residing in border 
areas, have enjoyed the privilege of crossing our border without a 
documentary requirement for centuries. While a decision to institute a 
documentary requirement might seem an obvious need in the current 
environment, it would end a practice seen as highly symbolic of the 
close nature of our relations with Canada.
    The second issue deals with the security, integrity, and variety of 
civil documentation issued by our states and territories. Wide 
varieties of eligibility criteria exist, such that, although this 
documentation generally serves as valid identity documentation, it does 
not serve in many cases as useful or conclusive evidence of 
citizenship. Even if the states and territories were to provide access 
to their civil documentation databases to permit BCBP Inspectors to 
positively identify license holders, this would still not serve as 
proof of citizenship, since drivers' licenses are regularly issued to 
non-citizens and the integrity of the identity data used to secure 
drivers' licenses is itself suspect. We believe that the use of a 
single federally issued document as proof of identity and citizenship 
would increase the effectiveness and efficiency of POE inspections in 
relation to both enforcement and facilitation of movement across our 
borders.
    We look forward to working with the Congress in analyzing and 
resolving these important issues.

           IMMIGRATION'S ``ENTRY-EXIT'' VISA TRACKING SYSTEM

    Question. One crucial component of ensuring our homeland security 
is ensuring that we as a government know which foreigners are visiting 
our country, why they are here, and that they depart when they are 
required to do so. Our existing visa tracking systems are not doing the 
job.
    The budget before us requests $480 million for the new entry/exit 
visa tracking system. This is a $100 million increase over last year's 
level of funding. Many Members of Congress and outside experts are 
concerned about the lack of progress in implementing this system. It is 
my understanding that the Department has not yet determined what 
technology will be used in developing the system. Mr. Secretary, what 
steps are you taking to ensure that this system is on-track and can be 
deployed in a timely fashion? Please provide specific details as to how 
the newly announced U.S. VISIT program will differ from the currently 
planned ``entry-exit'' system. Also, do you plan on getting the 
appropriate congressional committees on board to support your proposed 
revisions?
    Answer. I have required that the U.S.-VISIT Program conduct a 
review of the program to ensure that it is aligned with the mission of 
the department and meets the Congressional requirements. As previously 
stated, the U.S.-VISIT program will incorporate the requirements of the 
entry exit system. To date many of our systems have already been 
integrated and we will continue to build upon this. We will phase-out 
the NSEERS program but will incorporate the tools and lessons learned.
    As you may be aware, the fiscal year 2003 Omnibus Appropriations 
Act requires that none of the funds appropriated for the U.S.-VISIT 
Program may be obligated until DHS submits an Expenditure Plan that (1) 
meets the capital planning and investment control review requirements 
(2) complies with Federal acquisition rules (3) is reviewed by GAO, and 
(4) has been approved by the Committees on Appropriations. Therefore, 
the DHS is closely working very diligently with the GAO and appropriate 
congressional committees for final release of the funds.

                        TREASURY FORFEITURE FUND

    Question. When the Department of Homeland Security Act was passed, 
it was determined that the Treasury Forfeiture Fund fit the criteria 
for being transferred to the new Department. However, it was the policy 
of the Office of Management and Budget that this did not occur as it 
had decided that the Funds assets would be transferred to a similar 
fund at the Department of Justice.
    Given that the major agencies transferred from the Treasury 
Department to Homeland Security--the former Customs Service chief among 
them--have contributed upwards of 70 percent of the assets in the Fund 
and that the Fund has been used to further law enforcement activities 
now to be conducted by the Department of Homeland Security, do you 
agree that the Treasury Fund should simply be transferred to the 
Justice Department? Doesn't this shortchange homeland security?
    Answer. The Administration has proposed to consolidate forfeiture 
funds under the Department of Justice. This proposal would streamline 
highly duplicative administrative operations in two agencies into a 
single, more efficient structure. We believe that the Departments of 
Justice and Homeland Security will work together to ensure that DHS 
receives an appropriate share of the consolidated fund's assets. DHS 
does not have to manage the fund on a day-to-day basis to guarantee 
that this is the case.

                   PORT OF ENTRY CONSTRUCTION BACKLOG

    Question. On May 14, 2002, the President signed the Enhanced Border 
Security Act of 2002, authorizing significant improvements in our 
efforts to secure our borders. However, a congressionally mandated June 
2000 study of our port of entry infrastructure (primarily focused on 
our land border ports of entry) indicated a list of 822 projects 
totaling $784 million. These projects ranged from overloaded electrical 
outlets at facilities built in the 1930s which are not equipped to 
accommodate 21st computers and other technical systems to a border 
station in Eastman, Maine that is literally a trailer. The tragic 
events of 9/11--and the subsequent increase in staffing along our 
borders--only compounded the problem and the need.
    Mr. Secretary, with the increased demands of both trade and 
homeland security at our Nation's borders, and the increases in 
staffing along our borders, why are there no funds requested in your 
budget for infrastructure construction at our ports of entry and along 
our borders?
    Answer. The majority of Ports of Entry (POEs) along the northern 
and southern borders are owned and operated by the General Services 
Administration (GSA). The GSA fiscal year 2004 budget request includes 
$186M for POE facility improvements. In addition, the U.S.-VISIT 
program plan includes funding renovations and modifications at POEs in 
order to support the implementation of the program system. Facility 
plans are currently being developed to support the program.

                      OFFICE OF HOMELAND SECURITY

    Question. Secretary Ridge, the President's budget devotes a 
considerable amount of attention to the new Homeland Security 
Department, but barely mentions its predecessor, the White House Office 
of Homeland Security. The only reference to the Homeland Security 
Office in the President's budget is to request that its appropriation 
be consolidated within a single White House appropriation, further 
isolating the Office's activities from the American public and the 
Congress. As Homeland Security Secretary, you must be in contact with 
the White House Homeland Security Office. The advisory alerts are 
raised and lowered in consultation with the Homeland Security Council, 
on which the Homeland Security advisor is a member. I understand that 
General John Gordon has been appointed by the President to be the new 
White House Homeland Security Director. This appointment will not 
require the confirmation of the Senate, and, if history is any guide, 
the White House will not permit General Gordon to testify before the 
Congress.
    Mr. Secretary, what we must avoid is a situation where this 
Administration's homeland security policies are directed from within 
the confines of the White House, insulated from the Congress and the 
American public. What are the President's plans with regard to the 
Office of Homeland Security, and how will that Office's activities 
differ from what it was doing prior to the creation of a Homeland 
Security Department? Why is this Office still necessary now that a new 
Department has been created?
    Answer. The Office of Homeland Security was created by the 
President on October 8, 2001, via Executive Order 13228 and serves as 
and is synonymous with the staff of the Homeland Security Council 
(HSC). Just as the National Security Council (NSC) was created by 
Congress in the same act which created the Department of Defense and 
the CIA, Congress established the HSC within the EOP by statute at the 
same time as it created the Department of Homeland Security. HSC 
provides advice to the President on homeland security matters, policy 
development and the interagency process regarding Administration policy 
on homeland security, including development and coordination of 
implementation of the national strategy to secure the United States 
from terrorist threats and attacks. As such, just as the NSC functions 
in a policy coordination and advisory role somewhat parallel to the 
missions of (e.g.) the Department of State, Defense and other agencies 
with national security missions, so the HSC functions in a policy 
coordination and advisory role somewhat parallel to the missions of 
(e.g.) the Department of Homeland Security and other agencies with 
homeland security missions.

                    MOST SIGNIFICANT VULNERABILITIES

    Question. On March 27, 2003, I asked you to provide the Committee 
with your written assessment of the ten homeland security 
vulnerabilities that you are most concerned about. I thank you for 
responding rapidly. Your response was useful in making final decisions 
on the supplemental appropriations act that Congress just approved.
    In your response, you noted that the threat environment is 
continually changing, but that you did have guidance that helped you 
focus your priorities. This response, which is not classified, focused 
on potential attacks on chemical facilities, nuclear power plants, 
large dams, liquid natural gas storage facilities, electric and 
telecommunications systems, data storage systems, transportation 
systems such as rail, and air transportation systems, water supplies 
that are vulnerable to contamination, food processing centers and 
petroleum handling facilities such as pipelines and ports.
    The President has signed authorization bills to expand Federal 
investments in many of these areas such as port security and drinking 
water security but the President has not requested funding for those 
new authorizations. In fact, if you compare your vulnerability 
guidelines to the President's budget, there does not appear to be any 
correlation. Can you tell me where in the budget are the resources to 
cope with each of these vulnerabilities?
    Answer. The President's budget requested $462 million for 
vulnerability reduction efforts under the Assistant Secretary for 
Infrastructure Protection.

                   STANDARD FOR RATING THE DEPARTMENT

    Question. Secretary Ridge, your highest imperative as the head of 
the Homeland Security Department is to make sure a repeat of September 
11 never happens, or if it does, to respond effectively. So in that 
sense, it's hard to judge your accomplishments to date.
    You've listed a number of initiatives undertaken by the Homeland 
Security Department since its creation, but, in the end, the only way 
to really gauge whether the Department has been successful in its 
mission to protect the homeland is whether another major terrorist 
attack occurs in the United States. I don't want to wait to see another 
September 11 to determine if your Department has accomplished its 
mission.
    What criteria can you provide this Committee for us to measure your 
Department's actions in protecting this Nation from terrorists? How can 
the Congress measure your success?
    Answer. The Department is establishing, and will report as part of 
its fiscal year 2005 Budget request, program specific goals which will 
be tied to measurable performance outcomes. Also, the Department is 
setting up the office of Program Analysis and Evaluation within its 
Office of Management with a key responsibility of developing the 
Departments Strategic Plan and ensuring associated goal, strategies and 
performance measures are in place to effectively review the performance 
of all programs. Also, the Departments Future Years Homeland Security 
Program will provide proper evaluation of program priorities making 
sure goals and objectives are properly planned, programmed and 
budgeted. The fiscal year 2005 budget request will have measures for 
each area of responsibility. However, the ultimate measure of success 
will be the ability to identify, respond, and stop potential terrorist 
threats to our Nation.

                       CUSTOMS IMPORT SPECIALISTS

    Question. What steps is the Department taking to increase the 
number of Customs trade personnel (import specialists) in the BCBP? 
What steps has the Department taken to ensure that Customs trade 
missions are not being lost in the anti-terrorism focus of the DHS?
    Answer. The Bureau of Customs and Border Protection (BCBP) is 
actively working to fully staff field Import Specialists and other 
trade personnel to the maximum level funded. BCBP is ensuring 
``critical need'' ports are adequately staffed in order to carry out 
the Bureau's trade responsibilities.
    Although the priority mission of the BCBP is to detect and prevent 
terrorists and terrorist weapons from entering the United States, we 
have not abrogated our trade and narcotics interdiction 
responsibilities.
    BCBP trade personnel in Headquarters and field offices continue to 
ensure trade functions are carried out correctly and efficiently. The 
changes in BCBP's primary mission have not negatively affected our 
ability to collect and protect the revenue, enforce trade agreements, 
monitor import compliance, and enforce textile quotas. We use a risk 
management approach to ensure the efficient use of resources to move 
legitimate trade across our borders. We identify and interdict 
violators and merchandise in violation of importing laws, embargoes, 
and/or sanctions to stop predatory and unfair trade practices that 
threaten the United States economic stability, market competitiveness 
and public safety. An example of this is the President's Steel 201 
initiative that BCBP is aggressively enforcing.

                     REMOTE VIDEO INSPECTION SYSTEM

    Question. Recently, a spokesman for the Department stated that DHS 
plans to add an additional 90 remote video inspection system (RVIS) 
cameras at ports of entry along the Northern border. Currently, there 
are 236 surveillance systems along both the Northern and Southern 
borders. A number of frontline Customs inspectional personnel have 
stated that on more than one occasion these RVIS systems are down or 
are unable to identify persons or automobiles crossing the border into 
the United States. Is it in the best interest of homeland security to 
replace people at these often remote locations and increase the use of 
video entry technology that, according to a January 2002 Treasury 
Department Inspector General report, often fails because of severe 
weather and software problems?
    Answer. It is not in the best interest of homeland security to 
replace people at these often-remote locations. That is one of the 
reasons that on October 31, 2002, Commissioner Bonner approved a 
recommendation by the Office of Field Operations to terminate the RVIS 
program and incorporate the existing RVIS equipment into the Northern 
Border Security Project. The North Atlantic CMC issued a notice to the 
public indicating that the RVIS ports would be closed as of March 15, 
2003.

                       PENDING SENATE LEGISLATION

    Question. At least two bipartisan bills (S. 6 and S. 539) calling 
for, among other things, an increase over time in BCBP staffing by 
1,000 have been introduced in the Senate. Is the Department aware of 
these bills? If so, what position has the Department taken on them--
specifically in regard to the intended increase in staffing?
    Answer. Review of the port security assessments completed to date 
has yielded valuable preliminary information regarding security 
enhancement requirements. These assessments have identified a number of 
physical security enhancements that were either non-existent or needed 
improvement, such as fencing, lighting, and closed circuit television 
systems. Other common recommendations included: standards for 
transportation worker identifications systems, security plans, 
communications systems, and screening equipment standards for cargo and 
passengers.

                              WATCH LISTS

    Question. What specific steps will the Department be taking--either 
individually or in conjunction with the Defense Department and the 
Central Intelligence Agency--to address the concerns highlighted in the 
recently released General Accounting Office report (03-322)?
    Answer. The GAO is correct in its assessment that the government's 
approach to using watch lists is decentralized because the lists were 
developed in response to individual agencies unique missions. Those 
historical missions include the duties of the law enforcement and 
intelligence communities, and now include the mission to defend the 
homeland. The effort to consolidate and establish the connectivity of 
information contained in historical databases, from which watch lists 
may be generated, requires close coordination among my Information 
Analysis and Infrastructure Protection Directorate, several other 
Departments, and the Terrorism Threat Integration Center. Discussions 
among the interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.

                                  FOIA

    Question. During the budget hearing before this Senate 
subcommittee, Secretary Ridge assured the members of the subcommittee 
that FOIA requests would not be processed only by the single ``Program 
Manager'' assigned to reviewing information marked as ``critical 
infrastructure information''. Rather, Secretary Ridge indicated that a 
team of personnel within the Department would share this 
responsibility. Please identify the line items within the 2004 budget 
request that support processing critical information submissions and 
the FTEs that will be assigned to this activity?
    Answer. To the extent that the question inquires about the funding 
levels and personnel that will be required to support the Critical 
Infrastructure Information Program contemplated by Subtitle B of Title 
II of the Homeland Security Act of 2002 (the Act), such information is 
not yet available. The Department of Homeland Security is presently 
developing the rules and procedures for the CII Program, to be 
administered by the Information Analysis and Infrastructure Protection 
Directorate, which will govern the receipt, care, and storage of 
voluntarily submitted CII protected under the Act. At the present time, 
specific staffing levels for the CII Program have not been established.
    However, to the extent that the question proceeds from an apparent 
understanding that the CII Program Officer will have primary 
responsibility to process requests submitted to the Department pursuant 
to the Freedom of Information Act (FOIA), it should be clarified that 
this will not be the case. Rather, FOIA requests submitted to DHS will 
be received and processed in the first instance by the Department's 
FOIA Office in the Management Directorate, which will direct the 
requests to the attention of the office(s) in the Department that may 
possess responsive materials. Thus, only in the event that a FOIA 
request seeks information or materials that may be in the possession of 
the CII Program, will the request be forwarded to the CII Program 
Officer.
    Thus, the FOIA Office and functions will be entirely distinct from 
the CII Program Office. With respect to the budget and staff needs 
anticipated for FOIA-related activities, the FOIA Office will be 
administered by a single director who will receive support at 
Headquarters from contractors. In addition, each DHS Directorate will 
have its own assistant FOIA Officer and FOIA specialist who will 
support the DHS FOIA Officer. This staffing plan will encompass 
approximately 24 FTEs.

                    OFFICE FOR DOMESTIC PREPAREDNESS

    Question. Congress appropriated $1.5 billion to the Office of 
Domestic Preparedness for grants to States in the fiscal year 2003 
supplemental appropriations bill. These funds are subject to the small 
State minimum, as required in Section 1014 of the USA PATRIOT Act. 
Please explain how the remaining funds will be distributed to States?
    Answer. As authorized by Congress in the USA Patriot Act, 
allocations for the fiscal year 2003 supplemental appropriations bill 
were determined using a base amount of .75 percent of the total 
allocation for the states (including the District of Columbia and the 
Commonwealth of Puerto Rico) and .25 percent of the total allocation 
for the U.S. territories, with the balance of funds being distributed 
on a population-share basis.

                            FIRST RESPONDERS

    Question. On April 30, 2003, Secretary Ridge was quoted in USA 
Today as saying that if Congress approves the Administration's fiscal 
year 2004 request of $3.5 billion for first responders, nearly $9 
billion will have been made available to the States and locals since 
September 11, 2001. Please provide the Committee with an explanation of 
this statement by listing the various appropriations that sum to the $9 
billion the Secretary referred to.
    Answer This amount includes the following: $5.010 billion for 
terrorism and emergency preparedness grant programs within Emergency 
Preparedness & Response/FEMA ($710 million), the Office for Domestic 
Preparedness ($3.881 billion), and the Department of Justice ($419 
million not including COPS and block grant programs). $2.923 billion in 
public health preparedness funds through HHS and DHS $1.110 billion in 
Assistance to Firefighters Grants, which are not currently focused on 
terrorism preparedness.

                  FUNDING FOR DEPARTMENTAL MANAGEMENT

    Question. According to budget documents presented by the 
Department, the fiscal year 2003 estimate for the Departmental 
Management account is $379 million, however using authority granted in 
section 3 of Public Law 107-294, the Congress has only approved the 
transfer of $125 million for this activity. Is the obligation of these 
additional funds for Departmental Management consistent with section 
1511(d)(1) of the law, which requires that funds transferred to the new 
Department be used only for the purposes for which they were originally 
made available?
    Answer. Public Law 107-294 gives DHS the authority, subject to 
Congressional notification, to transfer up to $140 million in 
unobligated balances from component agencies to fund needs associated 
with setting up the new department. Currently, DHS has transferred only 
$125 million of these unobligated balances, as cited above. To maintain 
3-year comparability in the President's budget, however, additional 
funds were shown in the Departmental Management Operating Expenses 
account to represent the consolidation of managerial activities at the 
headquarters level and the savings associated with centralizing these 
functions in the new Department. The reallocation was made for budget 
presentation purposes only, with no loss of funding actually occurring 
in fiscal year 2003. DHS does not plan to transfer more than the 
authorized $140 million in unobligated balances, and has not yet 
decided whether it will require the additional $15 million not yet 
transferred.
    Question. Has the Department required the various component 
agencies to transfer any funds to the Departmental Management account? 
Please identify each of the accounts and amounts transferred to 
Departmental Management and identify the authority for the transfer. 
Please identify any requirements in bill and report language for funds 
transferred to Departmental Management, other than those transferred 
pursuant to section 3 of Public Law 107-294.
    Answer.

----------------------------------------------------------------------------------------------------------------
            Agency                 Authority        Trf. From        Trf. To       Dollar Amt
----------------------------------------------------------------------------------------------------------------
Dept. of Justice.............  Public Law 107-       15 03 0129      70 03 0100      $1,188,938  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
Dept. of Transportation......  Public Law 107-       69 03 0102      70 03 0100         251,493  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
Dept. of Energy..............  Law 107-294.....      89 X 00228       70 X 0100       1,019,786  Departmental
                                                                                                  Management
                                                                                                  Operating
                                                                                                  Expenses
EOP..........................  Public Law 107-        11 X 0038       70 X 0100       3,746,000  Departmental
                                296 Section                                                       Management
                                1516.                                                             Operating
                                                                                                  Expenses
EOP..........................  Public Law 107-        11 X 0500       70 X 0100      78,394,217  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-       58 03 0100      70 03 0100      10,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-       58 03 0101      70 03 0100       2,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
FEMA.........................  Public Law 107-        58 X 0104       70 X 0100      18,000,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
GSA-FPS......................  Public Law 107-        47 X 4542       70 X 0100       1,396,500  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0140      70 03 0100       1,584,000  Departmental
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0600      70 03 0100         583,000  Operating
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
HHS..........................  Public Law 107-       75 03 0885      70 03 0100         583,000  Operating
                                294.                                                              Management
                                                                                                  Operating
                                                                                                  Expenses
                              ----------------------------------------------------------------------------------
      Subtotal, Operating      ................  ..............  ..............     118,746,934  ...............
       Management Operating
       Expenses.
Dept. of Justice.............  Public Law 107-      15 0304 013    70 0304 0102      16,889,500  Dept-Wide Tech
                                296 Section                                                       Invest
                                1516.
Dept. of Justice.............  Public Law 107-        15 X 4526       70 X 4640      68,000,000  WCF
                                296 Section
                                1516.
Treas. Counterterrorism Fund.  Public Law 107-        20 X 0117       70 X 0101      72,654,803  Counterterroris
                                296 Section                                                       m Fund
                                1516.
----------------------------------------------------------------------------------------------------------------

    Question. Please describe the limitations under current laws and 
regulations for former employees of the Department of Homeland Security 
for lobbying the Department of Homeland Security and the Office of 
Homeland Security.
    Please describe the limitations under current laws and regulations 
for former employees of the Office of Homeland Security for lobbying 
the Department of Homeland Security and the Office of Homeland 
Security.
    Answer. Post-Government-service employment restrictions are 
established by statute. 18 U.S.C. Sec. 207 establishes limitations on 
communications to the Government by former employees. The Director, 
U.S. Office of Government Ethics, recently published for comment 
definitive regulations that will implement this statute as it is 
applied to recent retirees. See 68 Fed. Reg. 15,385 (3/31/03).
    41 U.S.C. Sec. 423(d), a provision of the Procurement Integrity 
Act, bars certain officials who took certain actions or filled certain 
roles in relation to large procurements from accepting compensation 
from the contractor that was awarded the resulting contract for 1 year 
following taking the specified action regarding or leaving the 
enumerated position in the procurement. This statute does not bar a 
former employee's contacts with the U.S. Government. However, the 
procurement that underlies the prohibition would constitute a 
particular matter involving specific parties, and communications to the 
Government in connection with it would, most likely, violate 18 U.S.C. 
Sec. 207.
    18 U.S.C. Sec. 207 provides:
  --(a)(1) Communication restriction that applies to all former 
        employees
    --Permanent bar for a former employee to serve as another's 
            representative before the Executive Branch, Federal courts, 
            or the District of Columbia in connection with a case, 
            contract, application, proceeding, controversy or other 
            ``particular matter'' involving specific parties in which 
            he or she participated personally and substantially as a 
            Government employee.
    --The representation restricted includes not only acting as 
            another's agent or attorney, but also any kind of 
            communication made with the intent to influence the United 
            States. This includes promotional and procurement-related 
            contacts.
  --(a)(2) Communication restriction that applies to former supervisors
    --Two-year bar for a former employee to serve as another's 
            representative before the Executive Branch, Federal courts, 
            or the District of Columbia in connection with a case, 
            contract, application, proceeding, controversy or other 
            ``particular matter'' involving specific parties that was 
            actually pending under his or her official responsibility 
            during the last 1 year of his or her Government service.
  --(b) Restriction that applies to all employees involved in trade or 
        treaty negotiations
    --One-year bar for a former employee to aid, advise, or represent 
            another on the basis of ``covered information'' concerning 
            any ongoing trade or treaty negotiation in which he or she 
            had participated personally and substantially during the 
            last year of his or her Government service.
  --(c) Communication restriction that applies to former ``senior'' 
        employees
    --One-year bar for a former senior employee to knowingly make, with 
            the intent to influence, any communication to or appearance 
            before an employee of a department or agency in which he or 
            she served in any capacity during the last 1 year of his or 
            her Government service.
    --A ``senior employee'' for these purposes is, among others: one 
            employed at a rate of pay specified in or fixed under the 
            Executive Schedule (5 U.S.C. Part III, Subpart D, Chapter 
            53, Subchapter II) (5 U.S.C. Sec. 5311-18); and one 
            employed in a position not otherwise specified in the 
            statute for which the basic rate of pay, exclusive of any 
            locality-based pay adjustment, is equal to or greater than 
            the rate of basic pay payable for level 5 of the Senior 
            Executive Service.
  --(d) Communication restriction that applies to ``very senior'' 
        employees
    --One-year bar for a former very senior employee to knowingly make, 
            with the intent to influence, any communication to or 
            appearance before an officer or employee of a department or 
            agency in which he or she served in a ``very senior'' 
            position within a period of 1 year prior to his or her 
            termination of service and a person appointed to a position 
            in the Executive Branch that is listed in 5 U.S.C. 
            Sec. Sec. 5312-16 (Executive Schedule levels I through V).
    --A ``very senior'' employee for these purposes is, among others, 
            one who is employed in a position in the Executive Branch 
            at a rate of pay payable for level I of the Executive 
            Schedule (5. U.S.C. Sec. 5312).
  --(e) Restriction that applies to ``senior'' and ``very senior'' 
        employees in relation to foreign entities
    --One-year bar for any ``senior'' or ``very senior'' employee to 
            represent before any agency or department of the United 
            States with the intent to influence the performance of duty 
            of a Government official a foreign entity or to aid or 
            advise a foreign entity with the intent to influence the 
            performance of duty of a Government official.
  --(f) Special rules for detailees
    --A person detailed from one agency to another agency is deemed to 
            be an employee of both agencies.
    There are a few limited exceptions to some of these restrictions, 
which may include representation of State or local governments, 
universities, hospitals, medical research, or international 
organizations; use of special knowledge or information or a scientific 
or technological nature; and testimony under oath. Former ``senior'' 
and ``very senior'' political appointees are allowed to make 
representational contacts on behalf of a candidate for Federal or State 
office, or on behalf of national and campaign committees or a political 
party.
                                 ______
                                 

            Questions Submitted by Senator Patrick J. Leahy

                  FLEXIBILITY OF FIRST RESPONDER FUNDS

    Question. I have joined Senator Collins as a cosponsor of a bill to 
provide greater flexibility for states to use homeland security grants. 
This legislation would allow any State to request approval to 
reallocate funds received through the Office of Domestic Preparedness 
among the four categories of equipment, training, exercises, and 
planning.
    Do you support greater flexibility in the domestic preparedness 
program's guidelines for how ODP funds may be used by State and local 
emergency responder agencies so that they may meet the unique needs of 
each State to be prepared for a terrorist attack?
    Answer. ODP's State Homeland Security Strategy is designed to give 
each state and territory one comprehensive planning document that 
includes all needs for response to a WMD terrorism incident, 
irrespective of the sources of funding. It is developed based on 
assessments of threats, vulnerabilities, capabilities, and needs 
regarding weapons of mass destruction terrorism incidents at both the 
state and jurisdiction levels. It serves as a blueprint for the 
coordination and enhancement of efforts to counter WMD incidents as 
well as identify related Federal, State, local, and private resources 
within the state. The Department strongly believes the allocation of 
ODP grants should be consistent with these plans. However, the 
Administration concurs that ODP grants should not set arbitrary limits 
on the amounts available for equipment, training, and exercises. This 
current practice is based on Congressional guidance. The fiscal year 
2004 Budget proposes to give states and localities greater flexibility 
in this regard.
    In addition, through the Wartime Supplemental Appropriations Act of 
2003, ODP is providing state and local governments with additional 
funding to participate in the national effort to combat terrorism. The 
SHSGP II provides funding for First Responder Preparedness and Critical 
Infrastructure Protection. The funding available for the First 
Responder Preparedness may be used to supplement activities initiated 
with the state's SHSGP I funding, including: procurement of specialized 
emergency response and terrorism incident prevention equipment; design, 
development, conduct and evaluation of combating terrorism exercises; 
institutionalizing awareness and performance level training at the 
state and local level; and planning and administrative costs associated 
with updating and implementing the state's homeland security strategy. 
Under First Responder Preparedness, the state has the ability to choose 
how much funding should be applied to each of these four areas.

             NEW GRANT PROGRAM FOR ``TERRORISM ACTIVITIES''

    Question. I have heard from numerous officials at the Vermont 
Homeland Security Unit that the Department of Homeland Security's ODP 
office has been working hard since Congress passed and the President 
signed the fiscal year 2003 Consolidated Appropriations Law to get 
those funds to State and local first responders as soon as possible. 
They find ODP staff to be informative and responsive to all their 
questions and requests. In fact, I have been told that the turn-around 
period for decisions on grant applications is no more than 15 days. I 
commend and thank you and your ODP staff for those efforts.
    In its fiscal year 2004 request, the Homeland Security Department 
Office of Domestic Preparedness includes $500 million ``for grants to 
State and local law enforcement for terrorism prevention activities.'' 
This appears to be brand new program that is being proposed by the 
Administration. Please tell us what this new proposed Office of 
Domestic Preparedness program would do and why it is needed. How do you 
propose to allocate funds under this new program for state and local 
law enforcement if Congress agrees to fund it?
    Answer. The $500 million appropriation to ODP for state and local 
law enforcement for terrorism preparedness and prevention activities 
will include: training and equipment for WMD events, support for 
information sharing systems, training of intelligence analysts, 
development and support of terrorism early warning methods, target 
hardening and surveillance equipment, and opposition force exercises. 
The precise allocation of these funds is being developed.

                        CITIZEN CORPS INITIATIVE

    Question. The DHS budget summary states that of the $3.5 billion in 
assistance for the Office of Domestic Preparedness. This amount 
includes a $181 million request for funds to support the Citizen Corps 
Initiative.
    Now, it is my understanding that the Citizen Corps Initiative lies 
under the direction of the Homeland Security Department's Emergency 
Preparedness and Response Directorate. Citizen Corps is a community-
based initiative to involve U.S. citizens in homeland security through 
public education and outreach programs.
    I am puzzled as to why funds for this initiative would be drawn 
from the Office of Domestic Preparedness--an office that has strict 
guidelines for exactly how State and local public safety personnel may 
use ODP grants to acquire specialized training and equipment necessary 
to prevent and respond to terrorist incidents involving weapons of mass 
destruction. As an Emergency Preparedness Response Directorate program, 
funds for the Citizen Corps should be requested under that account so 
that Citizen Corps funding will not reduce funds that should be 
reserved for our Nation's police officers, EMS and firefighters. Don't 
you agree?
    Answer. ODP has a long-standing and close relationship with first 
responders across all disciplines. Pursuant to requests by state and 
local governments for a ``one-stop-shop'' for first responders, we are 
proposing such a shop in ODP. Therefore, the move of Citizen Corps 
activities to ODP is both a consolidation of Federal grant programs to 
first responders as well as an effective utilization of ODP's existing 
relationship with state and local responders.

                      EMERGENCY OPERATIONS CENTERS

    Question. State Emergency Operations Centers are essential to 
coordinate a local, state, and Federal response to such grave 
situations as a terrorist attack. These facilities, which tie together 
advanced communications and monitoring equipment, can be extremely 
expensive. As state dedicate more resources to increase security and 
pay for overtime and hiring, it has become increasingly difficult for 
states to allocate sufficient funds to build and upgrade center. Can 
you tell me what plans your department has developed to try to provide 
funds for states to construct new E.O.C.s?
    Answer. FEMA received $56 million for Emergency Operations Centers 
(EOCs) in supplemental fiscal year 2002 appropriations and is using a 
phased approach to implement this program. During Phase 1, all States 
were awarded $50,000 to conduct an assessment of existing EOCs. States 
were then invited to apply for up to $150,000 in Federal funding for 
physical modifications to State EOCs to accommodate secure 
communications equipment. The Federal funding requires a 25 percent 
match, for a total project cost of $200,000. In Phase 2, the remainder 
of the fiscal year 2002 supplemental funding will be awarded through a 
nationally competitive grant process to address the most immediate EOC 
deficiencies nationwide. States must submit applications for the 
competitive funding by May 17, 2003. Applications should reflect the 
deficiencies noted in the Phase 1 or other EOC assessments. A review 
panel will convene in June to review the EOC applications and to make 
award determinations. Eligible activities under the competitive grant 
program include new EOC construction and upgrades to existing EOCs.
    For fiscal year 2003, FEMA received an additional $25 million for 
EOC grants, which will be added to the amount available under the 
fiscal year 2002 Phase 2 competitive EOC grants. By combining the 
additional fiscal year funds, States will be able to submit one 
application and be considered for all of the available funding 
(approximately $74 million).
    However, this effort does not represent a permanent commitment, as 
state and local governments must take steps to ensure that maintenance 
and continued investment in these centers is adequately supported by 
state and local funds.

                         TECHNOLOGY INVESTMENT

    Question. Mr. Secretary, I cannot tell you how many firms from my 
home state of Vermont and across the country have told me about 
promising technologies that will help increase security. For example, a 
superb company in Bellows Falls, Vermont has come up with a promising 
device to scan underneath vehicles and difficult-to-reach places. Many 
companies have faced difficulty in learning about new Request for 
Proposals and competing for contracts. Can you tell me about the 
department's plans to consolidate technology investment into a single 
account, like DOD does with it's research and development budget?
    Answer. The Department of Homeland Security's S&T Directorate will 
use the services of the Technical Support Working Group to seek 
industry participation in needed technology development efforts and 
also to inform interested parties of the Department's needs. Broad 
Agency Announcements will also be used to solicit ideas and 
participation. In addition, there will be specific calls for proposals. 
All of these mechanisms will be announced, with information and 
guidance posted on the web. In addition, the S&T Directorate maintains 
an e-mail address of <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e1928288848f8284cf958482898f8e8d8e8698a1858992cf868e97">[email&#160;protected]</a> for interested 
individuals or firms to submit ideas for consideration; these 
submittals are reviewed and referred to the appropriate S&T staff for 
consideration. Thus, although there will not be a single process or 
account for the Department's S&T Directorate's efforts, there will be a 
wide distribution of information on the Department's science and 
technology needs and the process to participate.

                        OPERATION LIBERTY SHIELD

    Question. I think that many of us are confused about the division 
of responsibility between you and the Attorney General when it comes to 
our immigration laws. With the INS having been transferred to DHS, it 
would seem that you have primary responsibility for immigration, and 
you have used that responsibility in Operation Liberty Shield, among 
other areas. Because the Executive Office of Immigration Review has 
been retained within the Department of Justice, however, the Attorney 
General continues to assert authority over the interpretation of our 
immigration laws, most recently by deciding--incorrectly in my view--to 
reverse the Board of Immigration Appeals' decision that an 18-year old 
Haitian man should be released on bond, on the grounds that the 
decision would ``encourage further surges of mass migration from 
Haiti.'' Did the Attorney General consult with you about his decision 
in the Haitian case?
    Answer. The Department of Homeland Security referred the Board of 
Immigration Appeals' decision in Matter of D-J- to the Attorney General 
for review. On March 1, 2003, the authority of the Immigration and 
Naturalization Service to refer Board of Immigration Appeals decisions 
to the Attorney General was vested in the Secretary of Homeland 
Security, or in ``specific officials of the Department of Homeland 
Security designated by the Secretary with the concurrence of the 
Attorney General.'' 8 C.F.R. 1003.1(h)(iii). In this instance, the 
referring official was the Under Secretary for Border and 
Transportation Security.
    Question. Has the Attorney General consulted with you about his 
review of the Matter of R-A- case, involving whether a domestic 
violence victim should be denied asylum in the United States?
    Answer. The Attorney General has not yet consulted with DHS about 
this case, but I anticipate that the Attorney General will consider the 
views of my Department before issuing a decision
    Question. How is responsibility divided for issuing regulations in 
the area of immigration law? Who has the ultimate authority--you or the 
Attorney General? Are DHS and DOJ working together in the regulatory 
process?
    Answer. Both the Secretary of Homeland Security and the Attorney 
General have important, and in certain areas, coextensive 
responsibility for issuing regulations in the area of immigration law. 
With the transfer of the former INS to the Department of Homeland 
Security, the Secretary of Homeland Security has the primary role in 
setting immigration policy within the Administration. However, the 
Homeland Security Act left the Executive Office for Immigration Review, 
housing the immigration courts and the Board of Immigration Appeals, in 
the Department of Justice. In order to achieve prompt and effective 
implementation of regulations by both Departments to implement the 
common goals of this Administration, I assure you that the two 
Departments will work closely together when promulgating regulations in 
the future.
    Question. To provide a specific example, are you and the Attorney 
General working together on regulations to cover the conditions under 
which asylum can be granted to victims of domestic violence? If so, 
what is the current state of your work?
    Answer. The comments to the proposed regulation that was published 
on December 7, 2000 are currently being reviewed and considered by the 
Department of Homeland Security. We are working with the Department of 
Justice to coordinate a unified approach to this issue
    Question. Under Operation Liberty Shield, asylum seekers from 33 
Muslim countries who arrive in the United States are subject to 
automatic and unreviewable detention, with no individualized evaluation 
of the risk they may present. How many individuals have been detained 
thus far under Liberty Shield? What are the nationalities of the 
detained individuals?
    Answer. A total of 24 asylum seekers were detained under Liberty 
Shield including individuals from Iraq (15), Pakistan (3), Netherlands 
(1), Egypt (1), Lebanon (1), Turkey (1), Iran (1), Indonesia (1). 
Currently there are 15 in custody: Egypt (1), Indonesia (1), Iraq (9), 
Netherlands (1), Pakistan (3).
    [Note--the national from Netherlands was detained based on place of 
birth.]
    Question. With the cessation of active hostilities in Iraq, when do 
you plan to discontinue this automatic detention policy?
    Answer. The policy requiring mandatory detention of Expedited 
Removal cases in which credible fear has been established was 
disestablished contemporaneous with the Liberty Shield stand down. 
Detainees in custody were reviewed for appropriateness of continued 
detention based on standing guidance. No detainee was released until 
all appropriate indices checks were completed and found to be negative.
    Question. Did you consult with the Attorney General about the 
detention policy? What was the nature of the consultations?
    Answer. The Attorney General's staff helped to formulate, in a 
collaborative process, this and other elements of Liberty Shield.

   CRITICAL INFRASTRUCTURE INFORMATION REQUIREMENTS OF THE HOMELAND 
                              SECURITY ACT

    Question. Critical infrastructure information was given a broad 
exemption from the Freedom of Information Act in the Homeland Security 
Act of 2002. In accordance with that law, the Department of Homeland 
Security recently issued a proposed rule on the handling of critical 
infrastructure information.
    As written, the Homeland Security Act only covers information 
submitted to the Department of Homeland Security itself. The proposed 
rule, however, would require other Federal agencies that receive 
critical infrastructure information to pass it along to the Department, 
which would then exempt the information from public disclosure. In July 
2002, before the Homeland Security Act was passed, Rep. Tom Davis 
offered an amendment on the House floor to make all Federal agencies 
subject to the critical infrastructure provisions in the bill, not just 
the Department of Homeland Security. That amendment failed. Is the 
Department now attempting to achieve through rulemaking what the House 
of Representatives specifically rejected?
    Answer. Under the statute passed by Congress, DHS has the sole 
responsibility to designate voluntarily provided critical 
infrastructure information as protected CII. Accordingly, the proposed 
procedures address the handling of information which is voluntarily 
submitted by concerned citizens. This information may indeed arrive 
first at an agency other than DHS, however that agency lacks the 
statutory authority to designate this information as protected CII. 
Therefore, when the submitter expressly wishes protection under the CII 
Act of 2002, the voluntarily submitted information shall be forwarded 
on to DHS (29.5(b)(1)) for review and potential protection, pursuant to 
DHS designation.
    Question. The proposed rule states that ``the Department relies 
upon the discretion of the submitter as to whether the volunteered 
information meets the definition of critical infrastructure.'' This 
language creates a loophole by which a private entity could manipulate 
the law by voluntarily submitting incriminating or embarrassing data 
that is stamped ``critical infrastructure information,'' and thereby 
shielding the data from public view. If the proposed rule is 
promulgated as written, will the Department take any steps to prevent 
such a situation from occurring?
    Answer. The language in the preamble to the regulatory language 
emphasizes the voluntary nature of the submissions. The Department is 
keenly aware that reliance upon a submitter's discretion may lead to 
abuse of that discretion. And that such abuse could severely damage the 
integrity of the program. The Department is therefore taking all 
possible measures to prevent against abusing this protection. For that 
reason, proposed 29.6 provides that if the CII program manager 
determines the information is not submitted in good faith (in accord 
with the Act), the information will not be protected CII and, 
furthermore, the Program Manager need not even notify the submitter 
that the information does not qualify.

                              AGRICULTURE

    Question. Secretary Ridge, you commented in a radio broadcast with 
Secretary Veneman on Monday that you believe that a livestock 
identification program would be ``a very good initiative to 
undertake''. I have long supported pilot projects, such as the one run 
by the Holstein Association in Brattleboro, Vermont, to test various 
methods of animal identification. Does the Department of Homeland 
Security, itself or in collaboration with USDA, have any plans to 
implement such a system? And if so, what efforts will your Department 
and USDA be making to help livestock producers transition to this new 
system? Specifically, will there be any financial assistance?
    Answer. At this time the Department of Homeland Security (DHS) does 
not have any plans to immediately undertake a livestock identification 
program. With necessary studies and analyses, and should we decide to 
pursue such an initiative, then we would do so in close collaboration 
with the United States Department of Agriculture (USDA). It is too 
early to speculate on how the Departments of Homeland Security and 
Agriculture might help livestock producers transition to a livestock 
identification system. Some of that would depend on if it was a 
required or voluntary system, and many other variables. Financial 
assistance, if cost effective for this purpose, would be considered.
    Question. The Department of Homeland Security will be taking over 
the Plum Island Research Facility on June 1st. Plum Island is the only 
location America where highly infectious diseases that could wreak 
havoc on our agricultural system, such as foot-and-mouth disease, are 
studied. Will Plum Island continue to be exclusively an agriculture 
research facility or do you have any plans to study non-agricultural 
infectious diseases at this facility? Are there any plans to change the 
biosafety level of this facility?
    Answer. The Department, in partnership with USDA, intends to 
support research programs that focus on animal health research and 
diagnostics aimed at protecting our livestock against both natural and 
intentional release of foreign and exotic animal diseases. The 
Department has no plans to change the current research focus on foreign 
animal diseases, nor do we intend in the future to work on zoonotic 
agents at the Plum Island Animal Disease Center (PIADC). There are no 
plans to change the existing biosafety level of the Plum Island 
Facility.
    Question. There have also been some serious labor issues with the 
contracted security force at Plum Island. Will employees of the 
Department of Homeland Security be taking over the function of 
protecting the Plum Island facility? Regardless of employment, will 
additional measures be taken to increase security of this facility?
    The security force at the Plum Island Animal Disease Center will 
remain contracted. Across the country, the U.S. Government is taking 
measures to improve security at critical facilities. The USDA initiated 
security upgrades at Plum Island starting in December 2000. The USDA 
and Department of Homeland Security will continue to implement the 
security upgrades and review security policies and procedures.

                NORTHERN BORDER PORTS OF ENERGY STAFFING

    Question. I wrote you last month to ask about reports I have 
received that at two ports of entry in Vermont, and many other ports of 
entry along our border with Canada, there is now only one officer on 
duty on the overnight shift, instead of the two that have been on duty 
since the September 11 attacks. As I understand it, this change was 
implemented during the weekend after the Iraq war began and the 
terrorist threat level was elevated. Can you explain why this change 
was made generally, and why it was made at this time?
    Answer. In response to the tragedies of September 11, 2001, our 
agency immediately began staffing all Northern Border ports of entry 
with a minimum of two officers at all times. This included staffing 
non-24 hour ports during closed hours.
    Prior to 9/11, non-24 hour locations were unmanned during closed 
hours. We recently conducted a very thorough review and analysis of our 
operations at the non-24 hour Northern Border ports and have determined 
that one officer can safely and effectively monitor and report activity 
at many, but not all, of these locations during closed hours. Our 
review, which focused largely on officer safety, found that there were 
no significant events related to border intrusion and/or terrorism 
reported at the non-24 hour Northern Border ports during the past 19 
months. The review further indicated, however, that sufficient backup 
at some of the locations was not readily available. As a result of our 
review, the policy of 1-officer staffing during closed hours at the 
non-24 hour Northern Border ports was implemented on March 13, 2003, 
one week prior to the beginning of the war with Iraq. However, the 
policy was implemented only at the locations where it was determined 
safe to do so and sufficient backup is available.
    The policy of 1-officer staffing during closed hours remains an 
increase to pre-9/11 staffing numbers. Furthermore, 1-officer staffing 
during closed hours is commensurate to threat levels based on detailed 
research and analysis over a significant period of time.

                              WATCH LISTS

    Question. The Washington Post reports this morning that the GAO 
will release a report today that criticizes the current state of the 
watch lists' that nine different agencies maintain to keep track of 
potential terrorists and other security threats and prevent them from 
entering or doing harm to the United States. I assume that your 
Department worked with the GAO as it compiled this report, and that you 
have some familiarity with its findings.
    Do you accept the responsibility for consolidating the numerous 
existing watch lists into a workable system? If so, what steps have you 
already taken and will you take to achieve that result?
    Answer. The GAO is correct in its assessment that the government's 
approach to using watch lists is decentralized because the lists were 
developed in response to individual agencies unique missions. Those 
historical missions include the duties of the law enforcement and 
intelligence communities, and now include the mission to defend the 
homeland. The effort to consolidate and establish the connectivity of 
information contained in historical databases, from which watch lists 
may be generated, requires close coordination among my Information 
Analysis and Infrastructure Protection Directorate, several other 
Departments, and the Terrorism Threat Integration Center. Discussions 
among the interested parties to effect the sharing and consolidation of 
information are ongoing, and all parties are working to establish a 
timeframe for implementation.
                                 ______
                                 

               Questions Submitted by Senator Tom Harkin

                              PLUM ISLAND

    Question. As you know, the President is proposing to transfer 
roughly half of the USDA's Plum Island's research budget to your 
agency. The justification given for the proposed transfer by your staff 
is that you want to take control of the funding for diagnostic testing 
that is done at Plum Island. While I have no problem with your 
department doing some testing development, I am very concerned about 
diverting critical funds that support USDA's mission as the lead agency 
for responding to agricultural health threats, whether they be natural 
or intentional.
    The only agricultural health functions transferred to DHS under the 
Homeland Security Act were those functions related to inspecting 
agricultural products coming in at ports-of-entry. There was no general 
transfer of authority for responding generally to agricultural health 
problems. Statutorily, USDA remains the lead agency when it comes to 
responding to agricultural health emergencies whether intentional or 
accidental, which makes sense, because USDA is where the expertise 
resides, and the agency that coordinates our domestic, agricultural 
first responder network. I think that strategy still makes sense. But, 
the Administration is now asking for a change in that strategy--a 
strategy, I might add, that you yourself supported in testimony before 
the Agriculture Committee last year. Why is the Administration 
proposing to reopen the Homeland Security Act and transfer USDA 
research programs that are critical to USDA's agricultural health 
mission in contravention of the clear language of the Homeland Security 
Act that any research conducted by DHS at Plum Island would not be 
taken from USDA research funds? What critical research needs does you 
agency have that cannot be met under the Homeland Security Act as 
currently written? If there are such needs why not just ask for the 
funds that you need rather than taking them from another agency?
    Answer. The Department of Homeland Security and U.S. Department of 
Agriculture have entered into a strategic partnership through which we 
can develop a focused research and development program to prevent, 
respond to, and recover from agroterrorism. We believe that the 
important work conducted by USDA scientists at PIADC must continue, and 
that strides in animal health research and diagnostics can serve both 
Departments' missions. We will work with USDA to balance research 
outcomes between economic security needs associated with agricultural 
trade and with homeland security needs associated with prevention of 
malicious acts against Americans and their institutions.

               AGRICULTURE QUARANTINE INSPECTION PROGRAM

    Question. Mr. Ridge, my staff has been trying for some time now to 
set up a briefing with your agency regarding implementation of the 
provisions of the Homeland Security Act affecting the Agriculture 
Quarantine Inspection program, could you please provide your assurance 
that this will be scheduled as soon as possible?
    Answer. BCBP Associate Commissioner, Agricultural Inspection Policy 
and Programs and her staff conducted a briefing scheduled on May 19, 
2003, with staff members of Senate Majority Leader Bill Frist (R-Tenn), 
Senate Minority Leader Tom Daschle (D-SD), Speaker of the House J. 
Dennis Hastert (R-IL), and House Minority Leader Nancy Pelosi (D-CA). 
The BCBP Agricultural Inspection members are available to meet anytime 
to discuss the DHS Agricultural Quarantine Program.
                                 ______
                                 

                Questions Submitted by Senator Herb Kohl

                       TOXIC SUBSTANCES--CYANIDE

    Question. Secretary Ridge, cyanide and other industrial chemicals 
are very lethal, readily available for purchase, and can be easily made 
into a terror weapon. The FBI has warned law enforcement agencies 
nationwide that terrorists may use cyanide in a future attack. We are 
working on a draft bill that will simply ensure that chemicals, like 
cyanide, do not fall into the wrong hands.
    Secretary Ridge, will you and your staff support my efforts to 
close this loophole quickly? We would appreciate your expertise and 
cooperation to get this done right and as soon as possible.
    Answer. Toxic industrial materials are recognized as being 
potential targets of terrorist attacks as well as potential terrorist 
weapons. The Administration believes that legislation with respect to 
chemical site security is necessary, and is working with members of 
Congress as they consider proposals in this area.
    Many industrial firms have conducted their own vulnerability 
assessments and have implemented enhanced security measures at their 
facilities to minimize the risk of terrorist attack and release of 
these toxic materials. It is important that we recognize enhanced 
protective measures may be needed, but additional measures should not 
unnecessarily impede the legitimate use and commerce of such materials.

                 CRISIS TRAINING FOR ELECTED OFFICIALS

    Question. Elected officials, especially at the local level, get 
little training, if any on how to handle a major crisis or disaster. 
There are many opportunities for police and fire fighters to learn how 
to deal with trouble, but mayors and county officials do not get any 
special training when they become the final authority on disaster 
response in their community. Many have to learn on the job. Small 
community leaders in my state are unclear how they should react or 
prepare for potential catastrophes.
    While FEMA has some exercises for top officials, will the 
Department of Homeland Security focus more attention on training 
elected officials to make the right decisions during a disaster? Will 
you develop a training program at the national level for mayors and 
county officials?
    Answer. The Department of Homeland Security offers a number of 
training alternatives for state and local officials to improve their 
management of a major disaster and/or terrorist attack. Both the 
Emergency Preparedness and Response Directorate and the Office for 
Domestic Preparedness (ODP) contribute to this important role.
    EP&R through its Emergency Management Institute (EMI) in 
Emmitsburg, MD offers a number of courses to teach these individuals 
how to deal with terrorism, as well as the full range of disasters and 
emergencies.
    In addition, ODP supports direct training programs through the 
Domestic Preparedness Consortium, including the Center for Domestic 
Preparedness in Anniston, Alabama. A portion of ODP's State Homeland 
Security Grants may also be used by states and localities to fund 
rigorous training of their own choosing, provided it meets DHS-approved 
quality standards.

                   EQUIPMENT STANDARDS AND GUIDELINES

    Question. Congress and the Administration are sending a lot of 
money out to our local communities to buy high tech equipment, 
including chemical and biological weapons detectors. First responders 
depend on these systems to make decisions and protect property and 
lives, but they have no help determining whether these machines will 
work in a crisis, just the word of the manufacturer.
    Will DHS set standards for how sensitive or reliable chemical and 
biological testing equipment should be? When will DHS provide 
guidelines to local communities so when they buy equipment they can 
feel confident these tools will work?
    Answer. Standards are an integral component of the mission of the 
S&T Directorate because they provide the objective measures of homeland 
security systems effectiveness. Standards are a fundamental component 
of the cradle to grave research, development, test, evaluation and 
transition to service product cycle. Thus, standards for homeland 
security applications must be constructed in parallel with the 
defensive systems to establish minimum criteria for effectiveness that 
encompass: basic functionality, adequacy for the task, 
interoperability, efficiency, and sustainability. Standards development 
requires a detailed knowledge of the technical attributes and 
capabilities of the system and a comprehensive understanding of the 
user requirements and operating conditions. A tight coupling must be 
maintained between the operational users, standards, and all the 
technologies that comprise the system at each step in the research, 
development, test and evaluation process.
    During the transition phase of the Department, the need for 
standards to address design, procurement, deployment, and use of the 
radiological and biological detectors was determined to be a key need. 
In collaboration with the National Institute of Standards and 
Technology (NIST), the American National Standards Institute (ANSI) and 
the Institute of Electrical and Electronic Engineers (IEEE), the DHS 
S&T transition team began development of standards for four high-
priority classes of radiation detection equipment. The four classes are 
personal dosimeters (``pagers''), alarming hand-held detectors, hand-
held isotope identifiers, and radiation portals. These standards have 
been released in draft form and will soon go to ballot, in accordance 
with ANSI process requirements for national consensus standards. A 
contract to develop a standard test method for hand-held bulk anthrax 
immunoassay kits is being prepared.
    Work is also progressing in the areas of training standards and 
personnel certification. Additional standards needs for both detection 
and response are being identified as part of a systematic evaluation of 
capabilities versus needs for standards to support the homeland 
security mission related equipment, operators, models and analyses, 
data and information, and integrated systems.
    In addition, the S&T Directorate has been working with the Oklahoma 
City Memorial Institute for Preventing Terrorism (MIPT) to deploy a 
web-based tool that will communicate directly with user communities. 
The user community has had a broad representation in the development of 
the tool. ``Project Responder,'' with direct input from DHS, is 
evolving into a tool that can catalog technologies, provide links to 
manufacturer data, and indicate which standards apply and also the 
degree of compliance with DHS standards. It will also show links to 
appropriate training and with potential grant programs.

                         PROPER FUNDING LEVELS

    Question. We know there is a training and equipment gap between 
where we are now, and what we need to have to be truly ready. We know 
many fire departments do not have the training to respond to a serious 
hazardous materials event. We know many states do not have a 
communications system in place that allows top leadership to talk to 
all the first responders in the state. After these needs are met, 
however, how do we know we have spent enough?
    Answer. The Department is working with State and local authorities 
throughout the Nation to identify shortfalls and develop a plan for 
meeting security response standards. The Departments Future Years 
Homeland Security Program currently under development will help ensure 
that out year requirements are properly aligned and funded to maintain 
needed capability.
    Question. Is DHS working on a system to measure the costs and 
benefits of additional spending? Is there a way to prove that 
additional spending will improve security?
    Answer. The Department is evaluating all programs to ensure proper 
levels of funding. The Department also is setting up the office of 
Program Analysis and Evaluation within the Office of Management which 
will review, analyze, and evaluate programs, actions, or taskings to 
ensure adherence to DHS policies, standards and homeland security 
objectives, and ensure programs are designed to accommodate operational 
requirements and the readiness and efficiency of the DHS. One of its 
key jobs will also be developing the Department's Strategic Plan and 
ensuring associated goal, strategies and performance measures are in 
place to effectively review the performance of all programs. The fiscal 
year 2005 budget request will have measures for each area of 
responsibility. Also, the Departments Future Years Homeland Security 
Program will provide proper evaluation of program priorities making 
sure goals and objectives are properly planned, programmed and 
budgeted. Again, the ultimate measure of success will be the ability to 
identify, respond, and stop potential terrorist threats to our Nation.

                          SUBCOMMITTEE RECESS

    Senator Cochran. We will continue to review the fiscal year 
2004 budget request for the Department of Homeland Security 
tomorrow morning at 10 o'clock in this same room. Our witnesses 
at that time will be the Director of the United States Secret 
Service, W. Ralph Basham, and the Commandant of the U.S. Coast 
Guard, Admiral Thomas H. Collins.
    Until then, the subcommittee stands in recess.
    [Whereupon, at 12:56 p.m., Wednesday, April 30, the 
subcommittee was recessed, to reconvene at 10 a.m., Thursday 
May 1.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
